<html>
<title> - THE STATUS OF THE FEDERAL GOVERNMENT'S MANAGEMENT OF WOLVES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





 
      THE STATUS OF THE FEDERAL GOVERNMENT'S MANAGEMENT OF WOLVES

=======================================================================

                           OVERSIGHT HEARING

                               before the

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                     Wednesday, September 21, 2016

                               __________

                           Serial No. 114-53

                               __________

       Printed for the use of the Committee on Natural Resources
       
       
       
       
       
       
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       

       


         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
          
          
                             ________

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 21-616 PDF             WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001          
  
  
  
  
          
          
          
      

                     COMMITTEE ON NATURAL RESOURCES

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
Louie Gohmert, TX                    Madeleine Z. Bordallo, GU
Doug Lamborn, CO                     Jim Costa, CA
Robert J. Wittman, VA                Gregorio Kilili Camacho Sablan, 
John Fleming, LA                         CNMI
Tom McClintock, CA                   Niki Tsongas, MA
Glenn Thompson, PA                   Pedro R. Pierluisi, PR
Cynthia M. Lummis, WY                Jared Huffman, CA
Dan Benishek, MI                     Raul Ruiz, CA
Jeff Duncan, SC                      Alan S. Lowenthal, CA
Paul A. Gosar, AZ                    Donald S. Beyer, Jr., VA
Raul R. Labrador, ID                 Norma J. Torres, CA
Doug LaMalfa, CA                     Debbie Dingell, MI
Jeff Denham, CA                      Ruben Gallego, AZ
Paul Cook, CA                        Lois Capps, CA
Bruce Westerman, AR                  Jared Polis, CO
Garret Graves, LA                    Wm. Lacy Clay, MO
Dan Newhouse, WA                     Vacancy
Ryan K. Zinke, MT
Jody B. Hice, GA
Aumua Amata Coleman Radewagen, AS
Thomas MacArthur, NJ
Alexander X. Mooney, WV
Cresent Hardy, NV
Darin LaHood, IL

                       Jason Knox, Chief of Staff
                      Lisa Pittman, Chief Counsel
                David Watkins, Democratic Staff Director
                  Sarah Lim, Democratic Chief Counsel
                                 ------                                

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                      LOUIE GOHMERT, TX, Chairman
             DEBBIE DINGELL, MI, Ranking Democratic Member

Doug Lamborn, CO                     Jared Huffman, CA
Raul R. Labrador, ID                 Ruben Gallego, AZ
Bruce Westerman, AR                  Jared Polis, CO
Jody B. Hice, GA                     Wm. Lacy Clay, MO
Aumua Amata Coleman Radewagen, AS    Vacancy
Alexander X. Mooney, WV              Raul M. Grijalva, AZ, ex officio
Darin LaHood, IL
Rob Bishop, UT, ex officio
                                 ------           
                                 
                                 
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, September 21, 2016....................     1

Statement of Members:
    Dingell, Hon. Debbie, a Representative in Congress from the 
      State of Michigan..........................................     4
        Prepared statement of....................................     5
    Gohmert, Hon. Louie, a Representative in Congress from the 
      State of Texas.............................................     2
        Prepared statement of....................................     3

Statement of Witnesses:
    Bean, Brian, Owner, Lava Lake Land & Livestock LLC and Lava 
      Lake Lamb, Hailey, Idaho...................................    72
        Prepared statement of....................................    74
    Guertin, Steve, Deputy Director for Policy, U.S. Fish and 
      Wildlife Service, U.S. Department of the Interior, 
      Washington, DC.............................................     8
        Prepared statement of....................................    10
        Questions submitted for the record.......................    17
    Moore, Virgil, Director, Idaho Department of Fish and Game, 
      Boise, Idaho...............................................    34
        Prepared statement of....................................    36
        Questions submitted for the record.......................    39
    Myers, Gordon, Executive Director, North Carolina Wildlife 
      Resources Commission, Raleigh, North Carolina..............    28
        Prepared statement of....................................    30
        Questions submitted for the record.......................    33
    Paterson, Tom, Owner, Spur Ranch Cattle Company LLC, Luna, 
      New Mexico.................................................    78
        Prepared statement of....................................    79
    Sandoval, Alexandra, Director, New Mexico Department of Game 
      & Fish, Santa Fe, New Mexico...............................    63
        Prepared statement of....................................    65
    Vucetich, John, Associate Professor, School of Forest 
      Resources and Environmental Science, Michigan Technological 
      University, Houghton, Michigan.............................    40
        Prepared statement of....................................    41
        Questions submitted for the record.......................    55

Additional Materials Submitted for the Record:
    Association of Fish & Wildlife Agencies, September 27, 2016 
      Letter to Chairman Louie Gohmert and Ranking Member Debbie 
      Dingell....................................................   103
    List of documents submitted for the record retained in the 
      Committee's official files.................................   104
                                     



OVERSIGHT HEARING ON THE STATUS OF THE FEDERAL GOVERNMENT'S MANAGEMENT 
                               OF WOLVES

                              ----------                              


                     Wednesday, September 21, 2016

                     U.S. House of Representatives

              Subcommittee on Oversight and Investigations

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to notice, at 3:12 p.m., in 
room 1334, Longworth House Office Building, Hon. Louie Gohmert 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Gohmert, Labrador, Westerman, 
Radewagen, Bishop; Dingell, Huffman, Polis, and Grijalva.
    Also present: Senator Tillis, and Representatives Pearce, 
Lummis, Benishek, Duncan, LaMalfa, and Newhouse.
    Mr. Gohmert. The Subcommittee on Oversight and 
Investigations will come to order. The subcommittee is meeting 
today to hear testimony on the status of the Federal 
Government's management of wolves. Under Committee Rule 4(f), 
any oral opening statements at hearings are limited to the 
Chairman and the Ranking Minority Member. Therefore, I would 
ask unanimous consent that all other Members' opening 
statements be made part of the hearing record if they are 
submitted to the Subcommittee Clerk by 5:00 p.m. today.
    Hearing no objection, so ordered.
    Also, while I recognize that many people in attendance are 
very passionate about this issue, I must remind members of the 
audience that we will conduct this hearing in a professional 
and courteous manner. That means that only members of the 
committee and our witnesses will be speaking. That will 
minimize the distractions and allow us to have a proper 
evidentiary hearing. Any disruptive audience members will be 
removed immediately, not merely from the room, but from the 
building.
    I ask unanimous consent that the Senator from North 
Carolina, Mr. Tillis; the gentlelady from Wyoming, Mrs. Lummis; 
the gentleman from Michigan, Mr. Benishek; the gentleman from 
South Carolina, Mr. Duncan; the gentleman from Arizona, Dr. 
Gosar; the gentleman from California, Mr. LaMalfa; the 
gentleman from Washington, Mr. Newhouse; the gentleman from 
Montana, Mr. Zinke; the gentleman from Virginia, Mr. Beyer; and 
the gentleman from New Mexico, Mr. Pearce be allowed to sit 
with the subcommittee and participate, if there is no 
objection.
    Hearing none, that will be so ordered.
    I now recognize myself for 5 minutes for an opening 
statement.

   STATEMENT OF THE HON. LOUIE GOHMERT, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Gohmert. For decades, ineffective, and sometimes 
destructive, Federal management of wolves has negatively 
impacted communities, economies, livestock, family businesses, 
recreationists, and even family pets in vast swaths of our 
Nation. While some wolf populations have increased to the point 
where they should have been delisted long ago, other efforts 
have failed miserably.
    While it is mandated by law that our public lands must be 
managed to allow for multiple uses ranging from ranching and 
recreation, to timber harvesting and conservation, the U.S. 
Fish and Wildlife Service has not worked effectively with 
stakeholders that use our Nation's public lands, nor has it 
worked effectively with landowners or states in its recovery 
efforts.
    Mismanagement on the part of the Fish and Wildlife Service, 
as identified by the Office of Inspector General, has raised 
even more concerns about wolf recovery efforts across the 
board.
    For example, just last week, the Service announced that the 
30-year red wolf recovery program in North Carolina is, for all 
intents and purposes, a failure. This announcement came after 
the Wildlife Management Institute and the OIG found that the 
Service violated its own rule by releasing 132 red wolves when 
it had only planned to release 12, underestimated the habitat 
required to recover the wolves at a sustainable level, could 
not effectively prevent wolf-coyote hybridization, and released 
wolves on private property without the landowner's consent.
    However, instead of canceling the failed red wolf program, 
the Service is instead planning to nearly double the size of 
its captive breeding population, with the aim of eventually 
expanding the program to locations that could be anywhere 
between Texas, Pennsylvania, and the Atlantic Coast.
    The Service is pursuing this course, even while admitting 
that there are substantial questions about wolf genetics and a 
lack of scientific consensus about whether the red wolf should 
even be regulated under the Endangered Species Act.
    The Mexican wolf recovery program is similarly troubled. In 
July, the OIG found that Fish and Wildlife employees 
deliberately interfered in livestock depredation 
investigations, wolf nuisance complaints, and DNA sampling. One 
employee even went so far as to try to convince U.S. Department 
of Agriculture investigators to change their livestock 
depredation findings from clear wolf kills to coyote kills. 
And, even when ranchers are able to prove, without meddling 
from Fish and Wildlife, that a wolf killed their livestock, 
they are often under-compensated for their losses by livestock 
depredation reimbursement programs.
    Furthermore, the Service is not upholding its 
responsibility to work with states. A Federal judge recently 
ruled that the Service failed to obtain the proper permissions 
from New Mexico to release even more wolves into that state. 
Yet, in spite of these problems, the Service has expanded the 
reintroduction area in Arizona and New Mexico, and there is 
talk of expanding the program to Utah and Colorado, despite the 
objections from those states.
    Then there are the gray wolves located in the Northwest, 
California, and the Western Great Lakes. Management 
responsibility for recovered wildlife is a right reserved to 
the states, and the Endangered Species Act is very clear about 
congressional intent in that regard. The recovered gray wolf, 
however, is a prime example of how constant litigation is used 
as a tool to indefinitely prevent states from managing 
recovered species.
    For years, Idaho and Montana have shown that states can and 
do successfully and responsibly manage their wolves, and there 
is absolutely no reason why Wyoming, Minnesota, Michigan, 
Wisconsin, Utah, Oregon, Washington, and California should not 
be allowed to manage all of their wolves, as well.
    Today we will hear a broad range of testimony from a 
variety of witnesses, including state fish and wildlife 
directors, ranchers for whom wolves are a daily concern, and 
from the Fish and Wildlife Service itself. We thank the 
witnesses for being here today, and look forward to your 
testimony.
    [The prepared statement of Mr. Gohmert follows:]
Prepared Statement of the Hon. Louie Gohmert, Chairman, Subcommittee on 
                      Oversight and Investigations
    For decades, ineffective and sometimes destructive Federal 
management of wolves has negatively impacted communities, economies, 
livestock, family businesses, recreationists, and even family pets in 
vast swaths of our Nation. While some wolf populations have increased 
to the point where they should have been delisted long ago, other 
efforts have failed miserably.
    While it is mandated by law that our public lands must be managed 
to allow for multiple uses ranging from ranching and recreation, to 
timber harvesting and conservation, the U.S. Fish and Wildlife Service 
has not worked effectively with stakeholders that use our Nation's 
public lands, nor has it worked effectively with landowners or states 
in its recovery efforts.
    Mismanagement on the part of the Fish and Wildlife Service as 
identified by the Office of Inspector General has raised even more 
concerns about wolf recovery efforts across the board.
    For example, just last week the Service announced that the 30 year 
red wolf recovery program in North Carolina is, for all intents and 
purposes, a failure.
    This announcement came after the Wildlife Management Institute and 
the OIG found that the Service violated its own rule by releasing 132 
red wolves when it had only planned to release 12, underestimated the 
habitat required to recover the wolves at a sustainable level, could 
not effectively prevent wolf-coyote hybridization, and released wolves 
on private property without the landowners' permission.
    However, instead of canceling the failed red wolf program, the 
Service is instead planning to nearly double the size of its captive 
breeding population with the aim of eventually expanding this program 
to locations that could be anywhere between Texas, Pennsylvania, and 
the Atlantic Coast.
    And the Service is pursuing this course even while admitting that 
there are substantial questions about wolf genetics and a lack of 
scientific consensus about whether the red wolf should even be 
regulated under the Endangered Species Act.
    The Mexican wolf recovery program is similarly troubled. In July, 
the OIG found that Fish and Wildlife employees deliberately interfered 
in livestock depredation investigations, wolf nuisance complaints, and 
DNA sampling. One employee even went so far as to try to convince U.S. 
Department of Agriculture investigators to change their livestock 
depredation findings from clear wolf kills to coyote kills. And, even 
when ranchers are able to prove, without meddling from Fish and 
Wildlife, that a wolf killed their livestock, they are often under 
compensated for their losses by livestock depredation reimbursement 
programs.
    Furthermore, the Service is not upholding its responsibility to 
work with states. A Federal judge recently ruled that the Service 
failed to obtain the proper permissions from New Mexico to release even 
more wolves into the state.
    And yet, in spite of these problems, the Service has expanded the 
reintroduction area in Arizona and New Mexico and there is talk of 
expanding the program to Utah and Colorado despite objections from 
those states.
    Then there are gray wolves located in the Northwest, California, 
and the Western Great Lakes. Management responsibility for recovered 
wildlife is a right reserved to the states, and the ESA is clear about 
congressional intent in that regard. The recovered gray wolf, however, 
is a prime example of how constant litigation is used as a tool to 
indefinitely prevent states from managing recovered species.
    For years, Idaho and Montana have shown that states can and do 
successfully, and responsibly, manage their wolves, and there is 
absolutely no reason why Wyoming, Minnesota, Michigan, Wisconsin, Utah, 
Oregon, Washington, and California should not be allowed to manage all 
of their wolves too.
    Today we will hear a broad range of testimony from a variety of 
witnesses, including state fish and wildlife directors, ranchers for 
whom wolves are a daily concern, and from the Fish and Wildlife Service 
itself. I thank our witnesses for being here today and I look forward 
to your testimony.

                                 ______
                                 

    Mr. Gohmert. I also want to thank you for your patience. We 
had no control over when votes were called on the Floor, and it 
interfered, obviously, with our starting time; thank you for 
your patience.
    With that, I will recognize Mrs. Dingell for an opening 
statement.

   STATEMENT OF THE HON. DEBBIE DINGELL, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mrs. Dingell. Thank you, Mr. Chairman. More than perhaps 
any other animal, wolves provoke humankind's strongest 
emotional reactions. Look how many Members are here today; it 
is the largest attendance we have had in an O&I hearing.
    Some see the wolf as a symbol of wildness, an indicator of 
balance and healthy nature in a world dominated by man and his 
machines--this should say men and women and their machines.
    Others see the wolf as a nuisance, as an impediment to 
economic security and progress that never should have been 
allowed to return to its native lands. Still others see the 
wolf as a spiritual being, a powerful and noble teacher to be 
revered and protected.
    Regardless of the different feelings the wolf invokes, as a 
practical matter, what the wolf is in most parts of the United 
States is a threatened or endangered species listed under the 
Endangered Species Act. That reality is the reason for today's 
hearing, and I hope that we can all keep in mind that the 
science and the law are in clear agreement that removing ESA 
protections for wolves where they are currently listed is not 
appropriate. I understand that it is a source of frustration 
for some people, but their numbers pale in comparison to the 
vast majority of Americans who support the return of wolves to 
the landscape.
    In spite of Congress' ill-advised action to delist gray 
wolves in parts of the Northern Rocky Mountains in 2011, the 
progress made toward actual recovery of the species has put us 
on the cusp of being able to claim a significant Endangered 
Species Act success.
    However, the work is not finished. Gray wolves have only 
started to return to their old haunts in the Pacific Northwest 
and California, and vast tracts of suitable habitat once 
occupied by wolves still exist in New York, Maine, and the 
Central Rockies.
    In the American Southwest, the Fish and Wildlife Service 
has made significant progress toward restoring Mexican gray 
wolves to parts of Arizona and New Mexico. Unfortunately, this 
progress has stalled because of recent poor oversight of the 
program and a failure to develop a scientifically valid 
recovery plan to guide restoration of the species. 
Misinformation campaigns started and perpetuated by landowners, 
state government officials, and others opposed to wolf 
reintroduction have not helped matters, and have only served to 
slow down the pace of recovery--an outcome that benefits no 
one.
    On the East Coast, efforts to recover the red wolf in North 
Carolina were showing incredible success until 3 years ago. 
Unfortunately, despite polls showing that 80 percent of North 
Carolina voters, including 60 percent living in the red wolf 
recovery area, support red wolf recovery, the North Carolina 
Wildlife Resources Commission has pulled its support for the 
program. I am disappointed in the Fish and Wildlife Service's 
decision to abandon red wolf recovery efforts in North 
Carolina, and we all hope we can learn more today about how the 
Service should approach bringing this critically endangered 
species back from the brink of extinction.
    I am afraid that, in addition to discussing the practical 
concerns, we will spend some time today rehashing many of the 
myths we keep hearing. So I would like to offer a few facts 
before we get started.
    First, gray wolves, Mexican wolves, and red wolves are all 
native to the United States and the areas where they have been 
reintroduced. The science is clear that these species are not 
foreign imports or hybrids. They are American.
    Second, wolves are not a major source of livestock 
mortality, particularly cattle. While wolves do pick off the 
occasional sheep or cow, their impact pales in comparison to 
that of disease and weather. That fact is illustrated in this 
graphic developed by a report from the U.S. Department of 
Agriculture. Already low predation by wolves can be driven even 
lower through nonlethal conflict reduction methods.
    Third, wolves are not depleting populations of other 
wildlife to dangerously low levels. Wolves do, and should, eat 
elk, deer, moose, and other ungulates; but data published by 
states, including those represented at today's hearing, show 
that hunters continue to enjoy increased harvests of game 
animals, even with wolves on the landscape.
    Finally, wolves are not a public hazard. Bees, domestic 
dogs, and deer kill far more people each year than the zero 
killed by wolves.
    With that, I look forward to hearing from our witnesses 
today, and I yield back my 2 seconds.
    [The prepared statement of Mrs. Dingell follows:]
    Prepared Statement of the Hon. Debbie Dingell, Ranking Member, 
              Subcommittee on Oversight and Investigations
    Thank you, Mr. Chairman.
    More than perhaps any other animal, wolves provoke humankind's 
strongest emotional reactions. Some see the wolf as a symbol of symbol 
of wildness--an indicator of balance and healthy nature in a world 
dominated by man and his machines. Others see the wolf as nuisance--an 
impediment to economic security and progress that never should have 
been allowed to return to its native lands. Still others see the wolf 
as a spiritual being--a powerful and noble teacher to be revered and 
protected.
    Regardless of the different feelings the wolf invokes, as a 
practical matter what the wolf is in most parts of the United States is 
a threatened or endangered species listed under the Endangered Species 
Act (ESA). That reality is the reason for today's hearing and I hope 
that we can all keep in mind that the science and the law are in clear 
agreement that removing ESA protections for wolves where they are 
currently listed is not appropriate. I understand that is a source of 
frustration for some people but their numbers pale in comparison to the 
vast majority of Americans who support the return of wolves to the 
landscape.
    In spite of Congress' ill-advised action to delist gray wolves in 
parts of the Northern Rocky Mountains in 2011, the progress made toward 
actual recovery of the species has put us on the cusp of being able to 
claim a significant ESA success. However, the work is not finished yet. 
Gray wolves have only started to return to their old haunts in the 
Pacific Northwest and California, and vast tracts of suitable habitat 
once occupied by wolves still exist in New York, Maine, and the Central 
Rockies.
    In the American Southwest, the Fish and Wildlife Service has made 
significant progress toward restoring Mexican gray wolves to parts of 
Arizona and New Mexico. Unfortunately, this progress has stalled 
because of recent poor oversight of the program and a failure to 
develop a scientifically valid recovery plan to guide restoration of 
the species. Misinformation campaigns started and perpetuated by 
landowners, state government officials, and Members of Congress opposed 
to wolf reintroduction have not helped matters and have only served to 
slow down the pace of recovery--an outcome that benefits no one.
    On the East Coast, efforts to recover the red wolf in North 
Carolina were showing incredible success until 3 years ago. 
Unfortunately, and despite polls showing that 80 percent of North 
Carolina voters--including 60 percent living in the red wolf recovery 
area--support red wolf recovery, the North Carolina Wildlife Resources 
Commission has pulled its support for the program. I am disappointed in 
the Fish and Wildlife Service's decision to abandon red wolf recovery 
efforts in North Carolina, and I hope we can learn more today about how 
the Service should approach bringing this critically endangered species 
back from the brink of extinction.
    I am afraid that in addition to discussing the practical concerns, 
however, we will also spend time today rehashing the same tired old 
myths that wolf opponents have continued using for decades, even after 
they have been soundly debunked. Therefore, I would like to offer a few 
facts before we get started.
    First, gray wolves, Mexican wolves, and red wolves are all native 
to the United States and the areas where they have been reintroduced. 
The science is clear that these species are not foreign imports or 
hybrids. They are as American as mom and apple pie.
    Second, wolves are not a major source of livestock mortality, 
particularly cattle. While wolves do pick off the occasional sheep or 
cow, their impact pales in comparison to that of disease and weather. 
That fact is illustrated in this graphic developed from a report by the 
U.S. Department of Agriculture. Already low predation by wolves can be 
driven even lower through nonlethal conflict reduction methods.
    Third, wolves are not depleting populations of other wildlife to 
dangerously low levels. Wolves do--and should--eat elk, deer, moose, 
and other ungulates, but data published by states including those 
represented at today's hearing show that hunters continue to enjoy 
increased harvests of game animals even with wolves on the landscape.
    Finally, wolves are not a public safety hazard. Bees, domestic 
dogs, and deer kill far more people each year than the zero killed by 
wolves.
    With that, I look forward to hearing from our witnesses today, and 
I yield back.

                                 ______
                                 

    Mr. Gohmert. Thank you. I will now introduce our first two 
witnesses from our right.
    Mr. Steve Guertin is the Deputy Director for Policy at the 
U.S. Fish and Wildlife Service. And then, Mr. Gordon Myers is 
the Director of the North Carolina Wildlife Resources 
Commission.
    Next, I recognize the gentleman from Idaho, Mr. Labrador, 
for our next witness.
    Mr. Labrador. Thank you, Mr. Chairman. It is my pleasure to 
introduce Director Virgil Moore this afternoon, and to welcome 
him to our subcommittee. Director Moore has served as the 
Director of the Idaho Department of Fish and Game since 2011. 
He received his M.S. from Idaho State University in zoology, 
and has over 40 years of professional experience in fish and 
wildlife management.
    He has served in many positions for Idaho Fish and Game, 
including Deputy Director for Field Operations, Fishery Bureau 
Chief, Information and Education Bureau Chief, Fisheries 
Research Manager, and various other field management positions 
as a fishery scientist.
    He is directly involved with grizzly bear, gray wolf, sage 
grouse, wolverine, lynx, cutthroat trout, gold trout, 
steelhead, and salmon.
    As Vice President of the Association of Fish and Wildlife 
Agencies, Virgil represents North America's fish and wildlife 
agencies to advance science-based management and conservation 
of fish and wildlife and their habitats in the public interest.
    Thank you, Mr. Chairman. I also have another Idaho witness. 
Should I wait?
    Mr. Gohmert. Let me recognize the Ranking Member to 
introduce our next witness.
    Mrs. Dingell. I would also like to introduce Professor John 
Vucetich. He is a professor at Michigan Technological 
University, where he teaches population ecology and 
environmental ethics. He is the lead researcher on the wolves 
and moose of Isle Royale National Park at Lake Superior, 
Michigan. It is the longest study of any predator-prey system 
in the world.
    He has authored more than 80 scholarly papers on wolf prey 
ecology, population genetics, extinction risk, and 
environmental ethics. He was on the Mexican wolf recovery team 
for almost 15 years, and was a peer reviewer of Wyoming's wolf 
management plan for the FWS.
    He has also advised Members of Congress on wolf-related 
policy issues.
    I am pleased to welcome a fellow Michigander to this panel 
today. Thank you for your time and service.
    Mr. Gohmert. Thank you. At this time we will recognize the 
gentleman from New Mexico, Mr. Pearce, to introduce our next 
witness.
    Mr. Pearce. Thank you, Mr. Chairman. It is my pleasure to 
introduce Alexandra Sandoval. She is the Director of the New 
Mexico Game and Fish Department, a position she has held since 
May of 2014. She is absolutely no stranger to the issues 
surrounding the Mexican gray wolf recovery program.
    Director Sandoval, thank you for being here today.
    Mr. Gohmert. Thank you. I recognize the gentleman from 
Idaho to introduce our next witness.
    Mr. Labrador. Thank you, Mr. Chairman. It is also my 
pleasure to introduce Brian Bean today. Brian is the co-founder 
of the Lava Lake Institute, and co-owner of Lava Lake Land & 
Livestock, and Lava Lake Lamb in south central Idaho--I am a 
little bit hungry now, after saying all that.
    [Laughter.]
    Mr. Labrador. Brian is a magna cum laude, Phi Beta Kappa 
graduate of Pomona College, where he was a dual major in 
biology and zoology. Brian and his wife Kathleen founded Lava 
Lake Ranch in 1999, with the intention of producing and 
marketing 100 percent grass-fed and finished lamb, while 
protecting the natural characteristics of the landscape.
    In 2004, the Beans established the Lava Lake Institute for 
Science and Conservation. The Institute is a non-profit that 
supports conservation research efforts. The Institute serves as 
the fiscal sponsor for the Wood River Wolf Project.
    Welcome.
    Mr. Gohmert. And to introduce our last witness, Mr. Pearce, 
the gentleman from New Mexico.
    Mr. Pearce. Thanks again, Mr. Chairman. And I would like to 
say thanks to Tom Paterson from Luna, New Mexico. Tom runs the 
Spur Ranch Cattle Company in Luna with his wife, Callie, and 
his daughters, Lindsay and Caroline.
    His boots-on-the-ground experience dealing with wolf 
depredation on the cattle at the Spur Ranch, and with Fish and 
Wildlife Service wolf management, sheds insight into what New 
Mexican ranchers are dealing with. I am confident that his 
experiences reflect that of the ranchers throughout our Nation 
who must conduct their operations in wolf reintroduction areas.
    Mr. Paterson, thanks for traveling all the way to DC for 
this hearing.
    Mr. Gohmert. Thank you. Let me remind the witnesses that, 
under our Committee Rules, oral statements must be limited to 5 
minutes. Your written statements will be part of the Committee 
hearing records, but the witness oral statement is limited to 5 
minutes.
    You will note your time is on the little indicator there. 
When you begin, the light on the witness table will be green. 
When there is 1 minute remaining, it turns yellow. Then, when 
the time is up it turns red, and that is when you need to 
finish up so I don't have to for you.
    At this time the Chair would now recognize Mr. Guertin for 
his testimony.
    You are recognized for 5 minutes, Mr. Guertin.

 STATEMENT OF STEVE GUERTIN, DEPUTY DIRECTOR FOR POLICY, U.S. 
  FISH AND WILDLIFE SERVICE, U.S. DEPARTMENT OF THE INTERIOR, 
                         WASHINGTON, DC

    Mr. Guertin. Good afternoon, Mr. Chairman, Ranking Member 
Dingell, and members of the subcommittee. Thank you for the 
opportunity to testify today with the views of the Fish and 
Wildlife Service and our report on our work to recover wolves 
across the lower 48 United States and Mexico. It is a great 
recovery program and management endeavor of our time. Our work 
over decades has led to successes, but also demonstrates the 
hard challenges that lie ahead.
    In 1974, when wolves first received the protections of the 
modern-day Endangered Species Act, there were no wolves in the 
wild in the lower 48 states, except in northern Minnesota; 
elsewhere they had been eliminated after years of control 
programs, reductions of prey, and habitat degradation. Like 
most species protected by the ESA, the conditions that wolves 
faced as a species in the Lower 48 were dire when it was 
listed. And, similar to other species, restoring wolves at the 
landscape requires many years of sustained work among many 
partners.
    Our primary goal, consistent with our legal mandates, is to 
prevent extinction of wolves, address threats to their long-
term survival, recover wolves, and restore management of wolves 
to the states. We are proud of the long-term collaboration 
among service field biologists and poly-professionals with 
Federal and state agencies, tribes, and non-governmental 
entities. This collaboration has enabled the gray wolf to make 
a markable recovery in much of the lower 48 states.
    Wolves are now re-established in the Western Great Lakes 
and the Northern Rockies, large landscapes where only decades 
ago they had been exterminated. They have recently expanded at 
the Pacific Northwest and Northern California, and we believe 
the range will continue to grow under the capable management of 
our state wildlife agency partners. Wolf recovery in the 
Western Great Lakes and Northern Rocky Mountains has been an 
impressive success, due to both resiliency of wolves and the 
cooperative efforts of the Service's many and varied partners.
    Success in these areas led the Service to determine that 
those gray wolf populations are biologically recovered, and no 
longer warrant listing under the Endangered Species Act. We 
proposed and finalized rules to reflect our science-based 
determinations of recovery under the ESA. Judicial review 
overturned our delisting for wolves in Wyoming and the Western 
Great Lakes, but we are appealing those decisions, and hearings 
are scheduled over the next month.
    As we move forward with our mandate to recover wolves, the 
Service's focus now is on recovery of Mexican wolves in the 
Southwest and the red wolf in the Southeast, both of which were 
eliminated from the wild and are endangered under the ESA. The 
Service remains committed to the recovery of these wolves. 
Their recovery is dependent on captive breeding programs, 
reintroduction of captive wolves into the wild, and managing 
for secure, self-sustaining wolf populations.
    These starkly different circumstances refer both to the 
successes and the challenges associated with restoring this 
large predator to the landscape. The successes we have achieved 
and the challenges remaining underscore the importance of 
strengthening and expanding partner and community support for 
wolf recovery.
    Recovery efforts involving reintroduction of large 
carnivores are inherently controversial, especially to local 
communities. Social tolerance for the presence of wolves is 
vital for success. Gaining social tolerance requires us to 
engage local communities and landowners to address their 
concerns.
    Building social tolerance requires us to manage conflicts 
with wolves in ways that strengthen community support. That 
means providing states and landowners with the tools and 
expertise to prevent wolf-livestock conflicts, and, in some 
cases, removing problem wolves and compensating landowners and 
lease holders for their losses when they occur.
    It will take continued collaboration between the Service 
and our state, tribal, and community partners to bring these 
populations off of the Federal list of threatened and 
endangered species, and return management to the states.
    I would like to recognize the contributions of my 
colleagues on this panel. The work of our state agency partners 
and private landowners to conserve and co-exist with wolves is 
critical to their recovery and subsequent return to state 
management. I look forward to hearing their perspectives on 
this complex issue.
    The Service will continue to implement the mandates of the 
Endangered Species Act and keep working toward the long-term 
recovery of wolves in the Lower 48 and Mexico. If we are 
successful in engaging the support of our partners and 
stakeholders, we are confident we will be successful.
    Thank you for the opportunity to testify today.
    [The prepared statement of Mr. Guertin follows:]
Prepared Statement of Stephen Guertin, Deputy Director for Policy, U.S. 
       Fish and Wildlife Service, U.S. Department of the Interior
    Chairman Gohmert, Ranking Member Dingell, and members of the 
subcommittee, thank you for the opportunity to appear before you today 
to testify on the U.S. Fish and Wildlife Service's (Service) work to 
recover wolves across the Lower 48 United States. My name is Stephen 
Guertin and I am the Deputy Director for Policy for the Service.
    The wolf is an iconic yet controversial example of the Endangered 
Species Act's (ESA) success in preventing extinction and promoting 
recovery. Because of years of sustained and cooperative efforts of 
Federal and state agencies, tribes, and non-governmental entities, 
wolves have made an impressive recovery in the Western Great Lakes 
(WGL) and the Northern Rocky Mountains (NRM). They are re-established 
in large landscapes where only decades ago they had been effectively 
exterminated, and have recently expanded their range into the Pacific 
Northwest and Northern California. In the Southwest and Southeast, 
however, wolves exist in the wild only as reintroduced experimental 
populations and continue to be highly endangered. These starkly 
different circumstances reflect both the successes and the challenges 
associated with restoring a charismatic large predator to the 
landscape. Our goal, consistent with our legal mandates, is to recover 
wolves--so that they are no longer threatened or endangered--and return 
management of those recovered wolves to the States.
                background on wolves and esa protection
    The ESA is one of the Nation's most important conservation laws. It 
is implemented jointly by the Service and the National Marine Fisheries 
Service. The law's stated purpose is to provide a program and means for 
the conservation of threatened and endangered species and the 
ecosystems upon which they depend. The ESA provides a safety net for 
species that are at risk of going extinct. The Service uses the best 
available scientific and commercial information to determine whether 
species need to be listed, to identify and address the threats to the 
species, and to facilitate the recovery of the species. When a species 
is designated as threatened or endangered--or ``listed'' under the 
ESA--it is in dire need of help.
    Throughout their range, wolves are keystone predators and have a 
profound effect on the ecosystems they inhabit. The wide range of 
habitats in which wolves can thrive reflects their adaptability as a 
species. In his essay titled, ``Thinking Like a Mountain,'' the great 
American conservationist Aldo Leopold described the cascading effects 
of losing wolves in a forested mountain ecosystem--the resulting 
increase of deer, followed by overgrazing, deforestation and erosion, 
and then the collapse of deer after having eaten themselves out of 
house and home.
    Wolves were once found across the northern hemisphere of the 
planet, including most of North America. When Europeans began to 
colonize America in the 1600s, wolves were widely distributed and could 
be found in each of what are now the lower 48 states. As human 
populations across America grew so did fears of wolves and other 
predators and the perceived risks they posed to personal safety, 
livestock, pets, and game species. Extensive predator control programs, 
magnified by the use of bounties, and combined with habitat degradation 
and a declining prey base, resulted in the extirpation of wolves from 
most of the lower 48 states early in the 20th century, with the 
exception of only a few hundred remaining wolves in northern Minnesota 
and Isle Royale in Michigan. No wolves persisted in vast wild areas 
such as the NRM and the desert southwest.
    Wolves were among the first species added to the list of endangered 
species, starting with the red wolf (Canis rufus) and subspecies of the 
gray wolf (Canis lupus) in 1967 and 1973 under precursors to the ESA--
the Endangered Species Preservation Act of 1966 and the Endangered 
Species Act of 1969. Both red wolves and gray wolves were listed as 
separate species under the modern ESA in 1974 and the Mexican gray wolf 
subspecies was listed as endangered in 1976. By 1978, all gray wolves 
were listed as an endangered population at the species level throughout 
the contiguous United States and Mexico, except for those wolves in 
Minnesota, which were classified as threatened.
    In 1988, Congressman John Dingell, a sponsor of the original ESA, 
wrote the following about the passage of the law in 1973, ``The goal 
Congress set then was unparalleled in all of history. Our country 
resolved to put an end to the decades--indeed, centuries--of neglect 
that had resulted in the extinction of the passenger pigeon and the 
Carolina parakeet, and the near extinction of the bison and many other 
species with which we share this great land. If it were possible to 
avoid causing the extinction of another species, we resolved to do 
exactly that . . . When Congress passed the Endangered Species Act, it 
set a clear public policy that we would not be indifferent to the 
destruction of nature's bounty.''
    The ESA has been successful in its essential goal to conserve 
listed species, which effectively protects the Nation's biological 
diversity heritage for the benefit of future generations of Americans. 
Since it was enacted by Congress in 1973, the ESA has successfully 
prevented the extinction of more than 99 percent of the over 1,500 
species it protects. Recovering species to the point where they are 
ready for delisting and no longer need the protections of the ESA often 
requires focused conservation efforts over many years, often decades, 
to implement recovery actions. In the last 8 years, 19 species have 
been delisted due to recovery and returned to the state management. 
Recently delisted species include the Louisiana black bear, Oregon 
chub, Delmarva fox squirrel, Virginia northern flying squirrel, Modoc 
sucker, island night lizard, and brown pelican.
    The ESA has been successful for wolves. Extinction in the lower 48 
states was averted and the long, sustained work of recovery--along with 
state, local, tribal, and other Federal partners--has produced 
thrilling successes. The ESA provides the Service with management 
flexibilities that have proven vital in furthering the recovery of 
wolves, including the designation of nonessential experimental 
populations under section 10(j) of the law. With a nonessential 
experimental population, the Service is able to introduce a population 
with flexible management options available that are tailored to the 
needs and concerns of particular area of introduction as well as the 
species' needs. Probably the best-known wolf recovery effort was the 
reintroduction of gray wolves into Yellowstone National Park in 1995. 
Some studies indicate that in relatively pristine areas such as 
Yellowstone, the establishment of healthy wolf packs has had a positive 
cascading effect on the ecosystem. These effects to relatively pristine 
areas, which may still be unfolding and are being studied, appear to 
include keeping elk from overgrazing along exposed river banks where 
they are vulnerable to wolf predation, leading to regrowth of riparian 
vegetation, an increase in beaver colonies, and the resulting positive 
habitat changes that beaver dams provide to a host of wildlife species. 
While these effects may occur at varying degrees elsewhere, they are 
increasingly modified and subtle the more an area is affected by 
humans.
    As with our conservation work for any listed species, recovery of 
wolves is not something the Service can or has achieved alone. 
Throughout the wolf recovery process, the Service has worked in close 
partnership with Federal and state agencies, tribes, private 
landowners, and other stakeholders. Wolf recovery in the WGL and the 
NRM has been an amazing success due to both the resiliency of wolves 
and the cooperative efforts of the Service's many and varied partners.
    Bolstered by reintroductions and the conservation and management as 
species protected by the ESA, wolves have repopulated portions of their 
historical range in the lower 48 states. Restoration throughout the 
species' entire historical range in the United States is not required 
for recovery under the ESA, nor is it a reasonable expectation for 
species such as wolves given the expansion of human populations and 
resultant habitat degradation. In the NRM and WGL the success of 
recovery efforts has been remarkable. These animals are resilient and 
their range is naturally expanding. The success in these areas led the 
Service to determine that gray wolves are biologically recovered under 
the requirements of the ESA, with the exception of Mexican gray wolves, 
which remain endangered. We have proposed and finalized a number of 
rules to reflect our science-based determination of recovery under the 
ESA; courts have overturned some of those delisting rules, as judicial 
review remains an important part of the ESA. The red wolf remains a 
separately listed entity.
             status of wolves in the lower 48 united states
Gray Wolves
    Gray wolf recovery efforts have long focused on three recovery 
areas--the NRM, the eastern United States, and the Southwest. Recovery 
plans were developed in each of these areas to establish and prioritize 
recovery criteria and actions appropriate to the unique local 
circumstances of the gray wolf.
Wolves in the Northern Rocky Mountains
    At the time of listing, wolves in the NRM region were completely 
extirpated. In 1982, a wolf pack from Canada began to occupy Glacier 
National Park along the U.S.-Canada border and a few years later, the 
first litter of pups documented in over 50 years was born in the Park. 
This natural recolonization was the beginning of wolf recovery in the 
NRM. Under the protections of the ESA, wolf populations in the NRM have 
rebounded thanks to natural dispersion and successful reintroduction 
efforts in Yellowstone National Park and central Idaho. Since 
delisting, under state management, the wolf population in this region 
continues to hold steady. As of December 31, 2015, there were at least 
1,704 wolves in 282 packs in Montana, Idaho and Wyoming. An additional 
200 wolves in 34 packs were estimated in Oregon and Washington.
    By the mid 2000s, wolves in the NRM had met the Service's recovery 
goals under the ESA, prompting the Service to delist the gray wolf 
distinct population segment in this region in 2008 due to recovery. 
Following that initial delisting, NRM wolves have had a litigious 
history, with several court challenges filed against the Service's 
decisions. Ultimately, the Congress directed the Service to reinstate 
our delisting rule and shielded it from further legal challenge. Today, 
wolves in Idaho, Montana, eastern Oregon, eastern Washington, and 
north-central Utah are no longer listed under the ESA and are being 
successfully managed by the states. Both Idaho and Montana manage 
wolves in accordance with state management plans, under which their 
wolf populations have remained secure and well above recovery 
objectives. Similarly, the Service's delisting of wolves in the state 
of Wyoming in 2012 drew a legal challenge. That delisting was vacated 
by a court decision in 2014 and the Service currently manages wolves in 
Wyoming as a nonessential experimental population under the ESA in 
accordance with that ruling. The Federal Government has appealed this 
ruling, and oral arguments in this appeal are scheduled for this 
Friday, September 23, 2016.
Wolves in the Western Great Lakes
    Unlike the NRM region, wolves were never completely extirpated from 
the WGL region; it is estimated that the Minnesota wolf population was 
comprised of a few hundred individuals at the time of listing. Under 
the protections of the ESA, this population naturally expanded its 
range into Wisconsin and Michigan. The current population of wolves in 
the WGL region is derived from expansion of this remnant population in 
northeastern Minnesota, supplemented by possible contributions from 
wolves from southern Ontario. Like the wolves in the NRM region, WGL 
wolves have exceeded the recovery goals that the Service set, with more 
than 3,600 wolves estimated in Minnesota, Michigan, and Wisconsin. The 
Service first delisted these wolves in 2007, though today they remain 
listed under the ESA due to ongoing litigation through which a court 
vacated our final delisting rule in 2014. The Federal Government is 
appealing the court's decision to reinstate ESA-protections for WGL 
wolves; oral arguments in this appeal are scheduled for mid-October.
Mexican Gray Wolves
    The Mexican gray wolf is the rarest subspecies of gray wolf in 
North America. Once common throughout portions of the southwestern 
United States, the Mexican wolf was all but eliminated from the wild by 
the 1970s due to extensive predator control initiatives. Recovery 
efforts for the Mexican wolf began when the subspecies was listed as 
endangered in 1976.
    Following the capture of some of the last remaining Mexican wolves 
in the wild in Mexico, the Service and Mexico collaborated to establish 
a binational breeding program with seven founding wolves. Today, the 
approximately 50 captive breeding facilities in the two countries house 
240 to 300 Mexican wolves, which are managed under the Mexican Wolf 
Species Survival Plan. Wolves from the captive breeding program are 
used for reintroduction in the United States and Mexico. The Service 
established a nonessential experimental population of the Mexican gray 
wolf in Arizona and New Mexico in 1998, and the first Mexican wolves 
were released to the wild in the Blue Range Wolf Recovery Area within 
the Mexican Wolf Experimental Population Area (MWEPA) in 1998.
    In January 2015, the Service published the Revision to Regulations 
for the Nonessential Experimental Population of the Mexican Wolf (80 FR 
2512-2567, January 16, 2015). This 2015 rule under section 10(j) of the 
ESA provides an expansion of the area where Mexican wolves may occur 
and where Mexican wolves can initially be released from captivity 
compared to the previous 1998 10(j) rule. The 2015 rule also provides a 
population objective of 300 to 325 wolves in the MWEPA.
    Also in January 2015, the Service also issued a final rule listing 
the Mexican wolf as an endangered subspecies. It is now a separately 
listed entity under the ESA, whereas it had previously been protected 
under the more generic listing for the gray wolf (Canis lupus) species 
in the lower 48 states and Mexico.
    The experimental population of Mexican wolves peaked at 110 wolves 
in the wild in 2014, but declined to 97 wolves in 2015, principally due 
to reduced pup survival in 2015 relative to 2014. Since 1998, more than 
half of the documented Mexican wolf deaths are due to illegal killing. 
The release of Mexican wolves from the more genetically diverse captive 
population remains critical to improving the genetic health of the 
experimental population and moving the Mexican wolf toward recovery.
    The Service reinitiated the process to revise the 1982 Mexican Gray 
Wolf Recovery Plan in December 2015. The Service is working with 
participants from the New Mexico Department of Game and Fish, Arizona 
Game and Fish Department, Utah Division of Wildlife Resources, Colorado 
Parks and Wildlife, Federal agencies in Mexico, and independent 
scientists from the United States and Mexico to assist us in gathering 
and assessing scientific information pertinent to our development of a 
revised recovery plan. The revised recovery plan will provide 
measurable and objective criteria which, when met, will enable us to 
remove the Mexican wolf from the list of endangered species and turn 
its management over to the states. The Service expects to publish a 
final recovery plan by the end of November 2017.
Gray Wolves Across the Remainder of the Lower 48 States
    For nearly four decades, the Service has consistently taken a 
regional approach to gray wolf recovery in the lower 48 states and 
Mexico. In other words, we have considered recovery to entail 
establishment of secure, healthy and stable populations of gray wolves 
in the WGL, the NRM, and the Southwest. We have achieved that goal for 
gray wolves in the WGL and the NRM, and today we continue to stand by 
our 2009, 2011, and 2012 final delisting rules.
    Under state management gray wolves have expanded their range and 
now are becoming re-established in western Oregon and Washington, and 
are also beginning to move into Northern California. Because the 1978 
listing encompassed gray wolves in the lower 48 states and Mexico, 
those wolves in western Washington, western Oregon, and northern 
California, i.e., outside of the delisted NRM distinct population 
segment, remain fully protected under the ESA as an endangered species. 
Accordingly, in June 2013, the Service issued a proposed rule to delist 
the gray wolf throughout the remaining conterminous United States, 
exclusive of the now separately listed Mexican gray wolf in the 
Southwest. That proposed rule was dependent upon the gray wolf 
populations in the NRM and the WGL being recovered and off the list. 
However, as noted above, our delisting decisions for gray wolves in 
Wyoming and the WGL were challenged and vacated. Our ability to move 
forward with the 2013 proposal is dependent upon the Federal Government 
prevailing on appeal of those cases. It remains our science-based view 
today that the gray wolf is recovered in the lower 48 states, outside 
of the Southwest, and we should be focusing our recovery efforts on the 
endangered Mexican gray wolves.
Red Wolves
    The red wolf is one of the world's most endangered wolf species. 
Once common throughout the eastern and south-central United States, red 
wolf populations were decimated by the early part of the 20th century 
and reduced to coastal areas of Texas and Louisiana.
    When the red wolf was designated as an endangered species in 1967, 
the Service initiated efforts to conserve and recover the species. The 
Service began to locate and capture as many red wolves as possible for 
the purposes of establishing a program to breed the species in 
captivity and one day reintroduce the red wolf into a portion of its 
former range. From this effort, 14 red wolves became the founding 
members of the captive-breeding program and the ancestors of all red 
wolves existing today. Within a few years 12 of these red wolves were 
successfully reproducing in captivity, allowing the Service to consider 
reintroducing the species in the wild as a nonessential experimental 
population (NEP). In 1987, the Service released four male-female pairs 
of red wolves to establish an experimental, nonessential population at 
Alligator River National Wildlife Refuge in the Albemarle-Pamlico 
Peninsula of North Carolina. A NEP of red wolves also was established 
at Great Smoky Mountains National Park in 1991, but the Service ended 
that project in 1998 due the lack of adequate food sources for the 
wolves. Today, approximately 45 red wolves roam their native habitats 
in a five-county NEP area in northeastern North Carolina, and nearly 
200 red wolves, including 29 breeding pairs, are maintained in over 40 
captive breeding facilities throughout the United States.
    In 2013, the Service and North Carolina Wildlife Resources 
Commission entered into broad agreement acknowledging growing concerns 
from private landowners regarding management of red wolves and coyotes. 
Both agencies recognized steps were needed to improve management of the 
nonessential, experimental red wolf population, which included the need 
to conduct an evaluation of the Red Wolf Recovery Program and the 
implementation of its recovery actions in five counties in northeastern 
North Carolina.
    On September 12, 2016, the Service announced significant changes 
for red wolf recovery after a 2-year, two-step review of the entire Red 
Wolf Recovery Program, including the evaluation of the captive 
population and the nonessential, experimental population in North 
Carolina. The review began in 2014 with an independent, peer-reviewed 
program assessment by the Wildlife Management Institute and was 
expanded in June 2015 to include the recommendations of a red wolf 
recovery team that examined feasibility of recovery in the wild, 
population viability, red wolf taxonomy, the historical range, and 
human dimensions.
    Science and solid professional management decisions are driving 
future actions. We are pursuing recovery. One of the most significant 
findings of the Service's review was that the captive population is not 
secure. With no changes to current management, the red wolf species 
will likely be lost within the next decade. More animals are needed in 
captivity to secure the species' survival and to support any wild 
population, including the current NEP in North Carolina.
    The red wolf is a conservation-reliant species that requires 
intensive management. As such, the Service will implement a series of 
actions to secure the captive and wild red wolf populations. To secure 
the captive population, the Service will work with its partners to 
increase capacity and reach the biological goal of at least of 400 
animals with 52 breeding pairs. Additionally, all red wolves will be 
managed as a single meta-population with occasional movement of animals 
between captivity and the wild. The Service also will be proposing to 
reduce the scope of the NEP to Federal lands within Dare County only. 
Focusing efforts to Federal lands is necessary to re-establish 
management control over the wild population by removing isolated wolf 
packs from lands where the Service lacks access, incorporating these 
animals into the captive population as appropriate, and managing the 
remaining animals in accessible areas to minimize and manage risks of 
hybridization. This will result, in the near term, in a smaller 
nonessential, experimental population in terms of population size, the 
number of packs/breeding pairs, and the area occupied, and a larger, 
more secure and genetically robust population in captivity to provide a 
solid foundation for recovery of the species.
    Recovery efforts involving reintroduction of large carnivores are 
inherently controversial, especially to local communities. The fact 
that red wolf conservation inevitably means reintroducing a large 
carnivore onto a landscape dominated by private lands (90 percent of 
the Southeast) makes red wolf conservation uniquely challenging. 
Without private landowner support, the Service will not be able to 
recover the red wolf.
    The future path for red wolf recovery announced last week reaffirms 
our commitment to work closely with landowners as we recover the 
species. The Service will continue its efforts to remove red wolves 
from private lands when requested to do so by the landowner. We also 
will continue to seek written agreements with willing landowners to 
facilitate management of the wild wolves. The Service also recognizes 
that fundamental changes are needed in the way private landowners and 
other stakeholders engage in management of wild red wolves. As such, we 
are working with the North Carolina Wildlife Resources Commission on a 
substantial human dimensions project that will be completed in 2017. 
This work is crucial to a better understanding and greater clarity 
about the different opinions and attitudes of our citizens.
    The complexity and scale of proposed changes for red wolf recovery 
will require more resources than what the Service and its partners have 
available. Therefore, the Service will continue to seek the support and 
input of private landowners as well as state partners, conservation 
groups and others when implementing the actions that will safeguard the 
species and eventually achieve recovery of the red wolf.
              leveraging partnerships to further recovery
    Across the Service's work on threatened and endangered species, we 
are actively engaged with conservation partners and the public in the 
search for improved and innovative ways to conserve and recover 
imperiled species. This is particularly true in our efforts to recover 
wolves. The Service works closely with our state, local, tribal, and 
private partners to achieve the recovery of gray wolves in the lower 48 
states and the re-establishment of Mexican and red wolves.
Tribal Partners
    Since the NRM wolf program's inception in the 1980s, the Blackfeet 
Tribe has been a strong supporter of and collaborator with the Service, 
furthering the return of this culturally important iconic animal to 
tribal lands. The tribe came to the discussion table in the early 
development of the recovery goals, and consistently supported those 
goals through several legal challenges. With financial and technical 
support from the Service, a tribal biologist worked closely with the 
Service on the ground, coordinating trapping and monitoring efforts 
with the Montana Department of Fish Wildlife and Parks and Wyoming Game 
and Fish Department and facilitating access to tribal lands for control 
actions associated with livestock depredation actions. This 
collaboration allowed the incorporation of Blackfeet culture and 
traditions into the management of wolves on the reservation and 
supported tribal autonomy within the bounds provided by the ESA. The 
strong, positive working relationship between the Service and the 
Blackfeet Tribe has helped the NRM wolf recovery program to succeed in 
Montana.
    The White Mountain Apache Tribe (WMAT) has been an active partner 
in Mexican wolf recovery for almost 15 years. The Service provides 
annual funding for the tribe's Mexican wolf management and monitoring 
program, in accordance with a Service-approved management plan. The 
tribe's support has been extremely beneficial to the Service due to the 
geographic location of their tribal land within our experimental 
population area. In addition, they have demonstrated tremendous 
leadership communicating the benefits and impacts of tribal wolf 
management to other tribes in the region.
    The Service hosts a Mexican wolf Tribal Working Group to provide 
opportunities to discuss wolf-related issues that may interest or 
impact the almost three dozen tribes in the Southwest. The Tribal 
Working Group contributed substantially to the revision of the Mexican 
Wolf Experimental Population rule and associated Environmental Impact 
Statement and is currently engaged in the development of the revised 
recovery plan. Through this partnership, the working group is able to 
advocate for the cultural, social, logistical, economic, and biological 
significance of Mexican wolves to the tribes. The ongoing work of the 
Mexican wolf Tribal Working Group is a particularly strong example of 
the Service's focus on developing and maintaining relationships with 
the tribes.
State Partners
    State fish and wildlife agencies are essential partners in 
implementing the ESA to protect our most at-risk species across the 
country. The state of Wisconsin first protected the gray wolf in 1957, 
17 years prior to the wolf's listing under the ESA. After the wolf was 
listed as federally endangered, wolves began returning, dispersing from 
Minnesota. The Wisconsin Departments of Natural Resources (DNR) started 
monitoring wolves in 1979 by radio-collaring and tracking wolves, 
surveying for winter tracks, and conducting summer howling surveys. 
State biologists such as those in Wisconsin are essential to monitoring 
efforts, as the Service typically does not have the personnel available 
to adequately collect monitoring data, trap and collar animals, and 
conduct other on-the-ground management activities. Despite limited 
personnel, the Service provides financial resources and technical 
expertise to equip states and local communities to engage in wolf 
monitoring and recovery.
    State agencies such as the Wisconsin DNR play an important role in 
fostering public awareness and social tolerance for wolves. State 
agencies are often embedded in the local communities and their 
partnership enhances the Service's public outreach, improves citizen 
understanding of wolves, and increases involvement in wolf management. 
One outstanding example is Wisconsin DNR biologist Adrian Wydeven, who 
received the Service's annual Recovery Champion reward in 2013 for his 
efforts to recover wolves in the state. Of particular note were Mr. 
Wydeven's efforts engaging with multiple stakeholders, interest groups, 
and members of the public to create an environment in which Wisconsin's 
wolf population was allowed to grow.
    Section 6 of the ESA directs the Service to cooperate with states 
to the maximum extent practicable to achieve recovery, and authorizes 
the Service to enter into cooperative management agreements with 
states. The California Department of Fish and Wildlife (CDFW) currently 
has a Section 6 agreement with the Service that provides CDFW the 
authority to manage for the conservation of endangered or threatened 
species within the state, including wolves. If the Service is able to 
move forward with its 2013 proposed rule, the management of the gray 
wolf in California will be returned to the state. In anticipation of 
this possibility, the CDFW is initiating development of a state wolf 
conservation and management framework in advance of an implementable 
management plan. This framework, through the state's Section 6 
agreement with the Service, will allow CDFW to lead several aspects of 
wolf management, including investigating reports of situations 
involving wolves, monitoring wolf activity through capture and radio-
collaring, and coordinating with other state and local entities.
    The Service works closely with the Arizona Game and Fish Department 
in the management of the Mexican wolf. This collaboration is conducted 
under the framework of a Memorandum of Understanding with the state and 
other Federal and state agencies, counties, and tribes. Arizona Game 
and Fish Department is a key partner in the day-to-day management of 
Mexican wolves in Arizona, providing education, and the development of 
relationships with local communities, landowners and livestock 
permittees. The Service provides annual funding to Arizona Game and 
Fish Department for assistance in managing Mexican wolves in Arizona.
Ranchers and Livestock Producers
    Reintroduction of a top predator such as the wolf is highly complex 
and often controversial; the Service recognizes that there can be real 
economic consequences to livestock producers who co-exist with wolves. 
The Service has long held that social acceptance of wolves by 
landowners, particularly ranchers, in wolf country is an essential 
ingredient for wolf recovery. To encourage social acceptance, the 
Service has aggressively managed wolves that consistently prey on 
livestock and supports compensation to ranchers for documented 
livestock losses through programs such as the Federal Wolf-Livestock 
Demonstration Project, USDA's Livestock Indemnity Program, and the 
Mexican Wolf/Livestock Council.
    In an effort to incorporate divergent views on the Mexican wolf 
reintroduction, the Service appointed an 11 member Mexican Wolf/
Livestock Council in 2011, a volunteer group composed of livestock 
producers, tribes, environmental groups, and county representatives. 
The Council developed a strategic plan to address Mexican wolf-
livestock conflicts. The Strategic Plan is comprised of three core 
strategies: payments for wolf presence, funding for conflict avoidance 
measures, and funding for depredation compensation.
    From 2011 to 2015, a total of $594,000 has been granted from the 
Wolf-Livestock Demonstration Project to Arizona Game and Fish 
Department and the New Mexico Department of Agriculture, which in turn 
provide the funding for allocation by the Mexican Wolf/Livestock 
Council. This funding is administered by the National Fish and Wildlife 
Foundation through Memoranda of Agreement with the states, and is 
disbursed at the direction of the Council. These Federal grants are 
matched with non-Federal funding provided by Defenders of Wildlife and 
Mexican Wolf Fund, which provide funding directly to livestock 
producers for implementation of proactive conflict avoidance measures 
(for example, range riders, fencing and flagging). Another $70,000 was 
granted from the Wolf-livestock Demonstration Program to the White 
Mountain Apache Tribe for proactive measures.
    Under the Council's Strategic Plan, the Payments for Presence 
Program has provided some financial compensation to offset the 
additional management costs associated with the presence of wolves. 
This program recognizes the economic impact of co-existing with wolves, 
including undetected depredations, and changes in livestock behavior 
that can result in a reduction of weight gain and reproductive rates, 
and increased management costs. In 2014 and 2015, the Council approved 
payments to 28 and 35, respectively, qualifying Arizona and New Mexico 
livestock operators totaling $85,500 to help defray the costs of 
managing livestock on a landscape with wolves.
    The Strategic Plan also provides funds to support the 
implementation of wolf-livestock proactive conflict avoidance measures 
by livestock producers through Defenders of Wildlife and the Mexican 
Wolf Fund. Both organizations are members of the Mexican Wolf/Livestock 
Council and fund voluntary adaptive management techniques to reduce 
wolf-livestock conflicts. Tools and techniques such as increased human 
presence, timed calving, range riders, turbo fladry (temporary electric 
fencing with flagging), and use of alternate pastures are just a few of 
the approaches that have been used successfully to keep both livestock 
and wolves safe.
    The third strategy implemented through the Co-existence Plan is to 
provide compensation for livestock death or injury, including working 
dogs and livestock other than sheep and cattle. The Council has been 
providing compensation for confirmed or probable livestock depredations 
by Mexican wolves since September 2010. This is done in partnership 
with USDA's Wildlife Services, which investigates and confirms wolf 
kills before a rancher can receive compensation. The Council and the 
Service recognize that depredation compensation does not fully address 
the costs experienced by ranchers due to wolf presence. As a result, 
wildlife managers have placed greater emphasis on conflict avoidance in 
recent years to help the Mexican wolf population grow alongside 
profitable livestock operations.
    These programs implemented through the Council have helped address 
the economic concerns of livestock producers that have experienced wolf 
depredations on their livestock. While the Council is not able to fully 
compensate ranchers for the costs of co-existing with wolves, through 
the Strategic Plan, they are able to create incentives for livestock 
producers to promote viable ranching operations, self-sustaining 
Mexican wolf populations, and healthy western landscapes.
                               conclusion
    In 1973, Congress provided the Nation with a strong tool to 
conserve and recover our most imperiled species and the ecosystems upon 
which they depend--the ESA. Since they were first listed in 1974, gray 
wolves in the WGL and NRM have rebounded from near extirpation, thanks 
to strong protections that guard against extinction and to the 
flexibility that the ESA affords the Service as managers. These 
flexibilities have allowed the Service to cultivate strong, lasting, 
and productive partnerships with a wide range of stakeholders; 
partnerships that have proven integral in the biological recovery of 
gray wolves. But it was a complex and difficult path, complicated by 
the passion that the public brings to all matters relating to wolf 
conservation, on all sides of the issue. There are some who think 
recovery is not yet achieved for these wolf populations, or that 
question the commitment of the states to manage wolves sustainably. As 
a result, our delisting decisions for wolves in Wyoming and the WGL 
were challenged, and the final outcome is now in the hands of the 
courts.
    In contrast, the Mexican gray wolf and the red wolf remain highly 
endangered. They were effectively extirpated from the wild and have be 
reintroduced into portions of their former range that now abound with 
threats--illegal shooting, conflicts with livestock production, sea 
level rise, genetic swamping by coyotes, low social tolerance, and many 
other challenges. No one said the job would be easy, and the Service is 
committed to continue the hard work of recovering the Mexican gray wolf 
and the red wolf in partnership with affected landowners, state and 
Federal agencies, tribes, the government of Mexico, academia, the 
conservation community, and others so that Mexican and red wolves can 
continue to be part of the remarkable natural biodiversity of the 
United States.
    Challenges as well as opportunities remain for wolf recovery in the 
Lower 48, and it will take continued collaboration between the Service 
and our partners to finish the work to bring these species and 
populations off of the Federal list of threatened and endangered 
species and return management to the states. To reduce the time until 
that day comes, wildlife managers, government agencies, and the public 
must absorb the wisdom of Leopold and ``think like a mountain'' when it 
comes to wolves.

                                 ______
                                 

 Questions Submitted for the Record to Steve Guertin, Deputy Director 
               for Policy, U.S. Fish and Wildlife Service
                  Questions Submitted by Rep. Gohmert
    Question 1. The U.S. Fish and Wildlife Service announced its intent 
to double the size of its red wolf captive breeding population, with 
the aim of eventually reintroducing those wolves into the wild anywhere 
in the region between Texas, Pennsylvania, and the Atlantic Ocean. 
Please identify the specific areas in which the Service is considering 
introduction. Please also identify the Service's goal for total number 
of wolf reintroduction areas and the number of wolves that would likely 
be introduced in each area.

    Answer. No specific locations for reintroduction have been 
identified at this time. The Service must first secure the captive 
population of red wolves before considering the establishment of any 
new populations in the wild. This past September, the Service committed 
to identifying potential new sites for additional reintroduced 
populations by October 2017. To do so, the Service will coordinate 
closely with state fish and wildlife agencies as it works 
collaboratively through the recovery planning process to identify 
potentially suitable sites based on habitat characteristics. This would 
include stakeholder and partner engagement, appropriate rulemaking, and 
public review and comment. The current Red Wolf Recovery Plan calls for 
the establishment of three wild populations. It is premature to 
speculate on the number of wolves that may be released at any future 
site.

    Question 2. The Service severely underestimated the habitat needed 
for successful red wolf recovery in North Carolina and Tennessee. 
Please explain, in thorough detail, the methodology that the Service 
will use to evaluate potential reintroduction areas throughout the 
region to ensure that enough habitat is available in future red wolf 
recovery efforts.

    Answer. The Service learned a great deal from its experience with 
red wolf reintroductions through the nonessential, experimental 
population in eastern North Carolina to date. The Service now has a 
much better understanding of red wolf habitat and space requirements, 
as well as other important logistical and societal factors that must be 
considered in establishing and managing a wild red wolf population. We 
now know the space needs of red wolves exceed the available Federal 
land base in eastern North Carolina. As such, successful reintroduction 
efforts must engage private landowners in reintroduction decisions and 
population management and must ensure that the interests and needs of 
the community are protected. The recent report by the Red Wolf Recovery 
Team   ( https: / / www.fws.gov / redwolf / docs / red-wolf-recovery-
team-recommendations-facilitated-by-group-solutions-inc.pdf) concluded 
that the socio-political factors related to red wolf reintroductions 
are as important as ecological factors in determining the likelihood of 
success. The Service will carefully consider these societal needs and 
ensure that affected communities are fully engaged in all potential 
reintroduction efforts.

    Question 3. What exactly does the Service mean when it says it will 
manage the red wolf captive breeding population as part of the 
nonessential, experimental population? Please explain, in detail, how 
this management approach will work. Service staff also mentioned that 
captive wolves will receive a ``wildlife experience,'' please explain 
the meaning of ``wildlife experience'' in this context.

    Answer. Conservation of genetic diversity is an important aspect of 
recovering species, including the red wolf. In the past, the Service's 
partners in the red wolf Species Survival Plan managed genetic 
diversity within the captive populations by carefully selecting the 
wolves that will be paired for breeding purposes on an annual basis. 
This process has conserved approximately 89 percent of the genetic 
diversity represented in the 14 founding wolves. Our intention going 
forward is to better integrate the wild red wolf nonessential, 
experimental population into the overall management of genetic 
diversity within the entire population by bringing wild red wolves that 
are of particularly high genetic value into captivity to be paired with 
captive animals. The Service plans to manage all red wolves, both the 
captive breeding population and nonessential, experimental population, 
as a single entity. Animals will be moved between the captive and wild 
populations to maintain genetic diversity for both populations.
    Maintaining a wild population that is fully integrated with the 
captive population will allow for animals removed from the wild to 
support the necessary expansion and improved genetic health of the 
captive population and also retain some of the influences of natural 
selection on the gene pool. A wild population also would serve as a 
small stock source for new reintroduction efforts. Selecting animals 
that are believed to have the best chance of surviving the initial 
release, successfully establishing territories and reproducing is 
essential to maximize the chances for success of a new population of 
red wolves. These qualities are more likely to be found in wild-born or 
wild-fostered wolves. Additionally, any wolf released into unfamiliar 
territory faces increased risks. These risks are reduced for animals 
that are already skilled hunters, not habituated to human presence and 
care, and fostered in the wild. The chance for survival increases for 
introduced wolves if they have experienced living on their own in the 
wild. The concept of ``wild experience'' incorporates natural selection 
into captive breeding efforts as well as the fostering of captive-bred 
pups in the wild.

    Question 4. How has the Service addressed its failures to receive 
written consent of owners prior to releasing wolves on private 
property? How will the Service keep red wolves off of private property 
going forward? Has the Service standardized its procedures for dealing 
with wolves and/or wolf releases on private property? If so, please 
provide written documentation of those procedures.

    Answer. Before 2014, the Service did not require written consent 
for red wolf recovery actions on private lands. This was consistent 
with the 1995 governing rule (50 C.F.R. 17.84(c)), which did not 
require such written consent. During that time frame, however, the 
Service did enter into written or verbal agreements with landowners to 
access private lands for the management of red wolves. In 2014, and 
thereafter, the Service required written consent from willing private 
landowners for all red wolf recovery actions on their properties. Also 
in 2014, the Service stopped the practice of relocating red wolves onto 
private lands.
    In September 2016, the Service announced it would refocus the 
project to Federal lands within Dare County, North Carolina. The 
Service recognizes that red wolves will not stay on Federal lands. 
Prior to the September 29, 2016, preliminary injunction by Federal 
Judge Terrence Boyle, the Service had committed to removing red wolves 
from private lands when requested to do so by the landowner in 
accordance with the 1995 rule. In accordance with the injunction, the 
Service now can only remove red wolves when there is a risk of harm to 
people or property. Red wolves removed from the landscape will be 
handled and cared for humanely. Some wolves removed from private lands 
would be released on Federal lands in Dare County and others will be 
relocated to a captive breeding facility. The Service will continue to 
seek written agreements with willing landowners adjacent to Federal 
lands to facilitate management of wild wolves.

    Question 5. The Service identified coyote hybridization as an 
existential threat for the red wolf. Does the Service have a plan for 
limiting hybridization in the wild? If so, please provide it to the 
committee. If not, does the Service intend to generate such a plan 
prior to additional releases of red wolves into the wild?

    Answer. The Red Wolf Adaptive Management Plan (https://www.fws.gov/
redwolf/Images/20130211_RWAMP_2013-2015.pdf) was developed for the 
express purpose of managing coyote genetic introgression into the red 
wolf population. Its components include monitoring of the population to 
identify hybrid animals for management action. Potential actions 
include removing hybrid animals from the population or sterilizing and 
releasing them for use as placeholder animals, which continue to hold 
territorial space until that animal can be replaced naturally or by 
management actions. The plan also includes an active research effort to 
assess the effectiveness of management actions so that adjustments can 
be made as needed. Scientific research has shown the plan to be 
effective in limiting hybridization.

    Question 6. Director Sandoval from the New Mexico Department of 
Game and Fish stated that the biggest contributing factor to the lack 
of success in Mexican wolf recovery efforts is the Service's 
unwillingness to cooperate with the states. How does the Service intend 
to repair its poor relationship with states involved in wolf recovery 
efforts? Does the Service intend to involve states in its revised 
Mexican Wolf recovery plan?

    Answer. Throughout the initial efforts to reintroduce Mexican 
wolves, the Service has cooperated with the states of Arizona and New 
Mexico. Although the New Mexico Department of Game and Fish withdrew as 
a partner in the Mexican Wolf Recovery Program in 2011, the Service has 
continued to encourage them to re-engage and has continued to provide 
information to keep them up-to-date on the program. New Mexico 
Department of Game and Fish supports the Service's efforts to revise 
the 1982 Mexican Wolf Recovery Plan. In December 2015, the Service 
reinitiated efforts to develop a revised recovery plan for the Mexican 
wolf based on the best available science. We have convened workshops 
and worked collaboratively with representatives of the states of 
Arizona, Colorado, New Mexico, and Utah; Federal agencies in Mexico; 
the White Mountain Apache Tribe; the Forest Service; and independent 
scientists from both countries to review the biological information 
that will inform the development of the revised recovery plan. All four 
states have been extensively involved in recovery planning workshops, 
including biologists and legal counsel from the New Mexico Department 
of Game and Fish. Since December 2015, we convened five recovery-
planning workshops in the United States and Mexico; the four states 
participated in all five workshops, which are facilitated by the 
International Union for Conservation of Nature's (IUCN) Conservation 
Breeding Specialist Group. In addition, the New Mexico Department of 
Game and Fish participated as a Cooperating Agency in the Service's 
development of an Environmental Impact Statement (EIS) for the revision 
to the regulations for the nonessential experimental population of the 
Mexican wolf. That EIS was completed in November 2015.

    Question 7. Does the Service intend to introduce Mexican wolves 
into Colorado and Utah? If so, how would such introductions be 
justified when the Service itself identified only the southwest corner 
of New Mexico and southeast Arizona as the northern extent of its 
historic range?

    Answer. We have no plans to introduce Mexican wolves into Utah or 
Colorado. Only as a final resort, after full consideration of options 
south of I-40, would we consider looking north.

    Question 8. The OIG found that a Mexican wolf field team 
coordinator and her employees deliberately interfered in livestock 
predation investigations. Please provide the committee with an update 
about steps that the Service has taken to discipline and/or fire this 
employee. Please also provide the committee with information about how 
the Service plans to ensure similar interferences in predation 
investigations do not occur in the future.

    Answer. In 2013, prior to the OIG inquiry, the Service recognized 
that the Mexican Wolf Recovery Program was not performing adequately in 
some key functions pertaining to field operations and made decisive 
management changes to address those shortcomings, including personnel 
moves and hiring additional field staff. In order to resolve this, the 
Service reassigned the former Field Projects Coordinator to an 
administrative position based in Tucson, Arizona in August 2013. The 
current Field Projects Coordinator is now located in the Albuquerque, 
New Mexico office. The Field Projects Coordinator position now oversees 
not only the field operations in the current Mexican wolf population 
area, but also in the areas where the population is expected to expand, 
in accordance with the revised experimental population 10(j) Rule. This 
new organization will facilitate consistent management of all field 
operations under the Field Projects Coordinator as the Mexican wolf 
population expands. In 2015, the Service also hired an Interagency 
Field Team (IFT) Leader, who is located in the Alpine, Arizona IFT 
Office. This position directly supervises the Service staff in the IFT 
Office and reports to the Field Projects Coordinator. This position 
also coordinates directly with the other IFT staff and the local 
livestock producers, landowners, and communities to improve 
communications with stakeholders.
    Investigations of livestock depredations are typically conducted by 
staff of the U.S. Department of Agriculture-Wildlife Services (USDA-
Wildlife Services), who determine the cause of death. The Service is 
involved only if asked by USDA-Wildlife Services to assist. If the 
USDA-Wildlife Services confirms the cause of death as a wolf 
depredation, the Service and jurisdictional IFT lead (state or tribe) 
review radio telemetry data and recent observations to determine which 
wolves were in the area at the time of the depredation. This 
information enables the IFT to manage the situation to deter additional 
depredations using a suite of management actions including hazing, 
trapping and translocation, and removal of wolves from the wild if 
necessary to stop chronic depredations.

    Question 9. Is there evidence of hybridization of the Mexican wolf 
with domesticated dogs? How will the Service ensure that hybridization 
of the Mexican wolf will not occur with dogs, coyotes, and other wolf 
species? Please provide all genetic testing results that the Service 
has performed on Mexican wolves.

    Answer. The Service monitors the genetics of the wild Mexican wolf 
population by taking blood samples from every canid handled, as well as 
through the opportunistic collection and testing of hair and scat from 
some areas. All samples are sent to the Laboratory for Ecological, 
Evolutionary, and Conservation Genetics at the University of Idaho for 
species confirmation, meaning the samples are analyzed to determine if 
they are from a pure Mexican wolf, pure coyote, pure dog, or hybrid. 
The Laboratory also uses DNA analyses to determine the parentage of the 
animal.
    In the Mexican wolf experimental population, hybridization is a 
rare event. Three confirmed hybridization events between Mexican wolves 
and dogs have been documented since the reintroduction project began in 
1998. In the first two cases, hybrid litters were humanely euthanized. 
In the third case, four of five pups were humanely euthanized; the 
fifth pup, previously observed by project personnel but not captured, 
has not been located and its status is unknown (BRWRA Monthly Project 
Updates, June 24, 2011, https://www.fws.gov/southwest/es/mexicanwolf/
CEBRWRA.cfm). This pup likely died based on the age of the pup and the 
circumstances associated with this animal (after June of that year, the 
adult female was observed several times traveling alone, and the IFT 
was unable to document the survival of the pup. The pup was at an age 
(1-2 months) that would have made survival on its own highly unlikely. 
In July, the IFT captured and placed the female in temporary holding in 
an attempt to observe or capture the pup; the pup was not observed 
during this time frame or before the female was removed from the wild 
in December 2011, further indicating the pup had not survived).
    No hybridization between Mexican wolves and coyotes has been 
confirmed through our genetic monitoring of coyotes, wolves, and dogs. 
Our response to the three hybridization events with dogs has negated 
potential impacts to the genetic integrity of the experimental 
population from these events. Moreover, the likelihood of hybrid 
animals surviving, or having detectable impacts on wolf population 
genetics or viability, is low due to aspects of wolf sociality and 
fertility cycles.
    All genetic testing results for Mexican wolves in the wild 
population are included as an attachment. It should be noted, however, 
that the Service does not conduct these analyses. Samples are sent to, 
and the analyses are conducted independently by, the Laboratory for 
Ecological, Evolutionary and Conservation Genetics at the University of 
Idaho.

    Question 10. Please provide the total number of captive-released 
Mexican wolves that are alive in captivity and also the total number of 
captive-released Mexican wolves that are alive in the wild. What is the 
maximum possible number of Mexican wolves, including observed first-
year pups, that could be living in the wild today? Why did the Service 
stop reporting this graphically in annual IFT reports after 2002?

    Answer. As of July 2016, there were four Mexican wolves that were 
born in captivity, released to the wild, and now live again in 
captivity. They are M863, M1049, M1133, and F1046.
    Our best estimate is that there was a minimum of 97 wolves in the 
wild as of December 31, 2015.
    All of the wolves alive in the wild at the end of 2015 were born in 
the wild. Since then, we have cross-fostered six pups from captivity to 
the wild. These captive-born pups were removed from their natal dens in 
captivity at less than 10 days old, and two-each were placed into three 
similarly aged litters in the wild. If successful, cross-fostering 
allows for captive-born pups to be placed into wild dens and be raised 
by experienced wolves in the wild. Of the six captive pups placed into 
wild dens in 2016, we have confirmed at least two of them have 
survived. The IFT is continuing efforts to confirm the survival of 
additional cross-fostered pups.
    Mortality occurs throughout the year and is particularly high on 
young pups, so while we have documented reproduction, we will not have 
a complete idea of how many of these young pups and adults have died 
until the annual population survey conducted in the winter. Annual 
surveys are conducted in the winter because it is when the population 
is experiencing the least amount of natural fluctuation (i.e. in the 
spring the population increases dramatically with the birth of new pups 
and declines throughout the summer and fall as mortality is 
particularly high on young pups). Thus, we summarize the total number 
of wolves at a fairly static or consistent time of year. This allows us 
to establish comparable year-to-year trends at a time of year that 
accounts for most mortality and survival of young pups.
    The ``maximum'' population reported in 2002 represented the minimum 
documented population plus the addition of ``fate-unknown wolves'' 
(previously radio collared, but the radio collar failed and the signal 
was lost). Some of the fate-unknown animals were likely dead, while 
others could be alive, and still others were known to be alive but 
could no longer be monitored via telemetry due to collar failure. Thus, 
this ``maximum'' number was confusing and represents a combination of 
possible fates (likely dead, likely alive, etc.) for wolves. Further, 
the longer an animal is considered fate-unknown, the more likely it is 
that the animal is dead.
    After 2002, the IFT improved methods for counting wolves in the 
wild. The current technique includes the use of helicopters and trail 
cameras to count wolves. Through these methods, the IFT was able to 
obtain evidence of the fate-unknown animals that were alive with a 
failed collar, and those that were likely dead. Thus, it was no longer 
necessary to generate a maximum population estimate based on fate-
unknown animals. Further, the minimum population count represents the 
best trend in the population without the vagaries of fate-unknown 
animals accumulating through many years of a project. The IFT continues 
to expend significant resources counting the population, inclusive of: 
(1) fate-unknown animals that are determined to be alive; (2) 
uncollared animals that are associated with a collared pack; and (3) 
uncollared packs and single animals. The minimum population count, 
however, is a minimum and generally under-represents the true 
population by a small proportion of animals.

    Question 11. What is the average annual number of Mexican wolves 
that permanently disappear? Under what criteria does the Service 
presume a missing Mexican wolf is dead? Are Mexican wolves that are 
missing and documented as ``presumed dead'' tracked, tallied and 
compared against known mortalities? If not, please explain why.

    Answer. In general, the project has 2-3 radio-collared animals each 
year that are fate-unknown (radio-collared animals that have not been 
documented through radio telemetry or visual evidence for 3 months) and 
presumed dead. We base the presumption of death on loss of radio 
contact with no indication of transmitter failure, if subsequent bi-
weekly telemetry flights and bi-monthly search flights failed to locate 
the animal over a large area, and if the animal failed to be observed 
for at least 3 months through intensive monitoring efforts. These 
numbers are tracked relative to an overall failure rate (inclusive of 
wolves that are determined to be dead; fate-unknown and presumed dead; 
and removed from the wild) based on radio collar data and reported in 
each annual report since 2007. There is some uncertainty associated 
with whether or not these wolves have died, and there is complete 
uncertainty about the cause of death, so the number of mortalities does 
not include fate-unknown animals, but represents a minimum number of 
documented mortalities based on actual carcasses that are found.

    Question 12. How many confirmed wild-born, first-year Mexican wolf 
pups have been observed since 1998? How many of those pups died or 
disappeared within the first year of life? What percentage of those 
pups are still alive today?

    Answer. For the period covering 1998-2015, 383 pups have been 
documented as wild-born. Of those, for the period covering 2005 to 
2015, we have documented 323 pups, approximately 103 of which reached 
adulthood; and many of those have since died during adulthood. The 
project estimates that on average, 54 percent of the pups that are born 
die prior to reaching 1 year of age (consistent with most mammal 
populations). Much of this mortality occurs during the first 30 days of 
life, and prior to when the IFT counts pups. Overall, roughly 32 
percent of the pups we do count are expected to reach adulthood, and of 
those animals, 19 percent are expected to die during each year of 
adulthood. The 2015 end-of-year minimum population in the wild 
primarily consisted of wild-born wolves, ranging in age from ``young of 
the year'' (less than 1 year old) to 10 years old (two wolves were over 
10 years old).

                                 *****

The following document was submitted as an attachment to Mr. Guertin's 
response to Chairman Gohmert's Question 9. This document is part of the 
hearing record and is being retained in the Committee's official files:

    Table--Mexican Wolf Genetic Results as of October 2016

                  Questions Submitted by Rep. Dingell
    Question 1. On September 29, 2016, Judge Terrence Boyle in the 
Eastern District of North Carolina issued a preliminary injunction 
preventing the Fish and Wildlife Service from removing wolves from the 
landscape unless there is a showing of danger to people or property. In 
his order, Judge Boyle admonished the FWS regarding its duty to 
conserve red wolves in the wild. In light of this decision, will the 
FWS revisit its recent proposal on changes to red wolf management?

    Answer. No. The Service is committed to recovering the red wolf. We 
are moving forward with the implementation of a series of actions 
announced in September 2016 to secure the captive and wild red wolf 
populations. We believe this strategy is scientifically sound and will 
move us toward recovery.

    Question 2. What are your management plans from now until the fall 
of 2017 for the current wild red wolf population? Do you intend to 
remove wolves from Pocosin Lakes NWR to Dare County?

    Answer. We do not anticipate removing red wolves from private or 
public lands due to Judge Boyle's preliminary injunction. The Service 
will only authorize take of red wolves when there is a threat to human 
safety or to the safety of livestock or pets as dictated by Judge 
Boyle's order. When the preliminary injunction is lifted, the Service 
will resume managing red wolves in accordance with the existing 1995 
rule and its proposed course of action to refocus red wolf recovery 
actions on Federal lands.

    Question 3. How many red wolves are currently being held in 
captivity? How long have they been held?

    Answer. Currently, there are approximately 225 red wolves in over 
40 captive breeding facilities around the country. Red wolves have been 
held and bred in captivity at over 40 zoos and institutions around the 
country since 1969.

    Question 4. How many red wolves have been removed from the wild 
from 2014-2016?

    Answer. Since 2014, the Service removed nine wolves from the five-
county nonessential, experimental population area in eastern North 
Carolina.

                  Questions Submitted by Rep. Newhouse
    Question 1. The gray wolf is an important issue to my district in 
Central Washington, where as you said the gray wolf has recently 
expanded its range. I have been frustrated by the lack of movement by 
the Fish & Wildlife Service to delist the gray wolf in the lower 48 
states. In your testimony you state: ``Our goal, consistent with our 
legal mandates, is to recover wolves--so that they are no longer 
threatened or endangered--and return management of those recovered 
wolves to the states.'' However, since issuing a proposed rule to 
delist the gray wolf in 2013, the Service has not taken further action 
on the rule, which you state is due to several court decisions vacating 
the delisting decision. What is the status of the Federal Government's 
appeal in those cases? Additionally, if your goal is to ``return 
management of those recovered wolves to the states,'' what steps can 
the Service take in the interim to help states prepare to manage their 
own wolf populations?

    Answer. The Service has worked tirelessly to delist recovered 
populations of gray wolves and return management to the states. For 
nearly a decade now, these decisions have consistently been met with 
legal challenges. While the Northern Rocky Mountain population of gray 
wolves (except for wolves in Wyoming) has been delisted and under state 
management since 2012, the Service's 2011 and 2012 determinations 
delisting the recovered wolves in Wyoming and the recovered population 
in the Western Great Lakes (WGL), were vacated by separate D.C. 
District Court judges in 2014, reinstating Endangered Species Act 
protections for these wolves. The June 13, 2013, rule to which you 
refer was premised upon wolves in Wyoming and the WGL being both 
recovered and delisted. At the Service's recommendation the Department 
of Justice is actively appealing both of the 2014 court decisions and 
recently participated in oral arguments on September 23 and October 18, 
2016. We are now awaiting decisions from the court.
    The state wildlife agencies in Wyoming, Minnesota, Wisconsin and 
Michigan have more than sufficient experience managing wolf populations 
within their borders, as each was able to successfully implement their 
respective wolf management programs prior to the court reinstating 
Federal protections for wolves in their states. The Washington and 
Oregon wildlife agencies are currently actively managing the recovered 
and delisted wolf populations within the eastern one-third of their 
states and the Service is coordinating closely with these agencies and 
California Department of Fish and Wildlife to provide technical 
assistance, including identifying nonlethal measures (e.g., physical 
barriers, deployment of visual and auditory devices, and active 
hazing), to help prevent gray wolf depredations on livestock where 
wolves are federally protected. In addition, the Service administers 
the Wolf Livestock Demonstration Project Grant Program to provide 
grants to states and tribes to support livestock producers conducting 
proactive, nonlethal activities to reduce the risk of livestock loss 
due to predation by wolves and to compensate livestock producers, as 
appropriate, for livestock losses due to such predation. Washington was 
awarded funds in Fiscal Year 2015 and has been selected to receive 
funds for Fiscal Year 2016.

    Question 2. I am concerned that the Service is not treating the 
appeals process with enough urgency and is using the court decisions as 
a cop-out to not move forward with the 2013 proposed rule, which is 
strongly opposed by many environmental organizations. The proposed 
delisting rule states the Service ``evaluated the classification status 
of gray wolves currently listed in the contiguous United States and 
Mexico under the Endangered Species Act of 1973'' and found the ``best 
available scientific and commercial information indicates that the 
currently listed entity is not a valid species under the Act.'' Outside 
of appeals, what actions are you taking to ensure that sound science is 
being followed and that recovered species are being delisted from ESA?

    Answer. As you mention, the Service is actively participating in 
the appeals process and we anticipate receiving the court decisions in 
2017. If we prevail in these cases, the Service intends to take action 
on our 2013 proposal, because we find that gray wolves in the lower 48 
states, except for the Mexican wolf subspecies in the Southwest, are 
recovered and no longer warrant protection under the ESA. In the 
meantime, we find ourselves at the mercy of the courts with respect to 
the legal status of gray wolves in the lower 48 states under the ESA.
    The Service continues to make improvements to the implementation of 
the ESA. However, regardless of what we can do to improve 
implementation of the ESA, the fact is that recovery is not a simple or 
fast process. There will always be complicating biological and human 
factors to contend with. Recovery of listed species is often a lengthy, 
intricate process, reflective of the long periods of time that the 
species faced impacts leading to listing. As our world continues to 
evolve, climate change impacts are felt, and our economy and 
populations grow, species will face growing threats that will impact 
the recovery process. With limited resources available, it is important 
for the Service to balance multiple mandates under the ESA, including 
preventing species from going extinct and bringing them off the list 
through recovery efforts.

    Question 3. Recently, the Profanity Peak wolf pack in eastern 
Washington has drawn considerable attention. Since July 8, the 
Washington Department of Fish & Wildlife documented at least 13 
depredation events on livestock, including 8 confirmed and 5 probable 
depredations. The Profanity Peak pack is located in the eastern-third 
of Washington State, where the wolf is not federally listed. Washington 
Fish & Wildlife decided to initiate a lethal removal effort of the pack 
in August and has since removed a total of six wolves. Can you discuss 
how the U.S. Fish & Wildlife Service works with state-level wildlife 
management agencies to manage wolves located in areas that are not 
under Federal management? How is the Fish & Wildlife Service working 
with individual state agencies to prevent wildlife and livestock 
depredations?

    Answer. State wildlife agencies manage gray wolf populations that 
are no longer listed under the Endangered Species Act due to successful 
recovery efforts, including those in Montana, Idaho, eastern Washington 
and Oregon, and north central Utah. The Service's role in these areas 
has been to provide technical assistance to states when requested and 
to distribute Federal funds to prevent livestock depredations and 
compensate for livestock losses. The Service awards prevention and 
compensation funding to states and tribes through the Wolf Livestock 
Demonstration Project Grant Program, as described in P.L. 111-11. In 
2015 the Service awarded $900,000 in grants under this program 
distributed among eight states and the White Mountain Apache Tribe. In 
the coterminous United States where gray wolves are still listed as 
endangered, outside of Wyoming where wolves are listed as a 
nonessential experimental population, the Service's assistance to state 
agencies in managing wolves is currently limited to nonlethal measures.
    In federally-listed areas, the Service works closely with state 
fish and wildlife agencies to prevent livestock depredations. 
Specifically in Washington, the Service participates in the State's 
Wolf Advisory Group meetings and also meets with Washington Department 
of Fish and Wildlife (WDFW) leadership and USDA APHIS Wildlife Services 
on how depredation investigations will be handled in the listed portion 
of the state. In FY2016, the Service's Washington Fish and Wildlife 
Office obligated $65,000 from its Recovery budget to help WDFW provide 
technical assistance to landowners. This was in addition to the 
approximately $100,000 WDFW received from the Service for livestock 
depredation response efforts in FY2016. In the listed portion of 
Washington State, individuals can use nonlethal munitions, including 
cracker shells and rubber bullets, to haze wolves near livestock; the 
use of these tools must be done in coordination with WDFW and Federal 
authorities. The Service continues to work closely with landowners and 
WDFW and is taking steps to increase our capacity to provide assistance 
with wolf deterrents and nonlethal measures aimed at reducing wolf-
livestock conflicts in Washington.

    Other examples of the Service's works with state-level wildlife 
management agencies includes:

    <bullet> In the listed portion of Oregon, the Service has 
            authorized active hazing of wolves near livestock, 
            including the use of rubber bullets and other management 
            techniques that are ``not reasonably anticipated to result 
            in death or permanent disabling of the animal'' in helping 
            prevent depredation and other conflicts.

    <bullet> In Minnesota, where gray wolves are listed as a threatened 
            species, the Service has promulgated a special rule under 
            section 4(d) of the ESA, which allows state and Federal 
            Government agents to relocate or remove wolves that are 
            verified to have depredated on livestock.

    The Service works with each state to authorize and implement a 
state management plan that meets the state's needs. We understand that 
each state has unique circumstances and we work with our state partners 
on a state-by-state basis to address their specific needs.

    Question 4. Proponents of keeping a Federal ESA listing for the 
gray wolf often argue that the wolf plays a critical role in 
``ecosystem balance.'' However, one issue that is drawing increased 
attention is the impact the wolf has had on the Shiras Moose. When 
wolves were reintroduced in 1995 in the Northern Rocky Mountains, 
Federal estimates predicted the impact to these moose populations would 
be 7 percent to 13 percent. However, recent reports and studies have 
found that Shiras Moose populations have declined by almost 90 percent. 
What steps has the Service taken to address this growing problem and 
how do you plan to continue protecting the wolf, while also ensuring 
these moose populations do not decline further?

    Answer. Declines of the Shiras moose (moose) across its entire 
range, from Minnesota to the Northern Rockies, have been well studied 
over the past decade. The reasons for the decline of the moose are 
primarily loss of habitat and impacts associated with climate change 
(leading to parasite load issues directly impacting health and vigor), 
in conjunction with the secondary impact of predation. For example, 
research has demonstrated substantial declines in moose in many local 
areas where wolves do not exist and predation is not an issue. 
Consequently, the best available science does not support a cause-
effect relationship between wolf numbers and decline (or increase) of 
Shiras moose in Wyoming.
    In Wyoming, and the Jackson/Yellowstone area in particular, 
nutritional deficiencies and habitat loss have largely been responsible 
for the decline of the moose. Subsequently, wolves have been able to 
exploit vulnerable Shiras moose in this area and, thus, contributed to 
the decline. However, predation by wolves has been opportunistic and 
not the primary cause.
    Delisting has allowed significant state flexibility in its 
management of the gray wolf population in the Northern Rocky Mountains. 
While the delisting rule was vacated for gray wolves in Wyoming, that 
case is on appeal. It remains the Service's view that the entire 
Northern Rocky Mountains gray wolf population is biologically recovered 
and therefore management of the entire population should belong to the 
states. We remain confident that the states will be successful in 
achieving a reasonable balance between the needs of a recovered wolf 
population and other public needs.

    Question 5. In a state like Washington, with split management of 
gray wolves and a state plan with recovery goals in excess of Federal 
requirements, could a Section 4d exemption possibly help to add 
consistency and ensure that wolf populations across the state are all 
benefiting from successful state management?

    Answer. The WDFW is currently managing gray wolves in the eastern 
one-third of the state, which was delisted along with the rest of the 
Northern Rocky Mountain gray wolf population (except for Wyoming) in 
2012. The western two-thirds of the state and any wolves that may occur 
there are part of the broader gray wolf listing which has a legal 
status of endangered under the ESA. When a species is listed as 
endangered, all the take prohibitions (section 9) of the ESA apply. 
Section 4(d) does allow the Service to issue a rule that establishes 
specific prohibitions and exceptions that are tailored to the specific 
conservation needs of threatened species. Section 4(d) of the ESA 
applies only to species listed as threatened; this authority does not 
apply to species listed as endangered, such as the gray wolf.
    While a section 4(d) rule is not currently an option for 
consideration, the Service is actively working with WDFW and providing 
technical expertise regarding appropriate nonlethal measures (e.g., 
physical barriers, deployment of visual and auditory devices, and 
active hazing) that may be used to help prevent depredation on 
livestock within the state. In addition, the Service administers the 
Wolf Livestock Demonstration Project Grant Program to provide grants to 
states and tribes to support livestock producers conducting proactive, 
nonlethal activities to reduce the risk of livestock loss due to 
predation by wolves and to compensate livestock producers, as 
appropriate, for livestock losses due to such predation. Washington was 
awarded funds in Fiscal Year 2015 and has been selected to receive 
funds for Fiscal Year 2016.

                   Questions Submitted by Rep. Pearce
    Question 1. The Department of the Interior (DOI) Inspector General 
(IG) Report from June 29, 2016 states on page 8 that the IFT 
coordinator of the Mexican Gray Wolf Recovery Program (MGWRP) did not 
know the difference between an Alaskan Gray Wolf and a Mexican Gray 
Wolf, despite the significant differences.

    a. Why did the Fish and Wildlife Service (FWS) hire someone that 
could not even make this simple distinction?

    Answer. The statement in the OIG Report is: ``The former IFT member 
felt that the former IFT coordinator, who had worked with wolves in 
Alaska, had been unprepared to assume the role of coordinator because 
she did not understand the differences between Alaskan and Mexican 
wolves, but then did not listen to those who did understand and offered 
to help her.'' The context of this statement was to note that there are 
management differences between gray wolves in Alaska (where the Former 
IFT Coordinator managed them on a National Wildlife Refuge), and 
Mexican wolves on working landscapes in the Southwest.

    b. Is it a common practice for the FWS to hire coordinators that 
are not familiar with the species they are tasked with recovering?

    Answer. See response above.

    Question 2. In Director Ashe's letter addressed to me on September 
2, 2016 he claims that the current IFT coordinator spends roughly ``50 
percent'' of his time ``working on issues specifically related to Grant 
and Catron counties.'' However, in the travel logs sent by the FWS to 
my office it appears the IFT coordinator only made three visits to New 
Mexico from January 2014 through August 2016. He also made 49 trips to 
Arizona.

    a. Could you explain why he spends so much time in Arizona and not 
New Mexico?

    Answer. The Mexican Wolf IFT office has been located in Alpine, 
Arizona since the reintroduction program began in 1998. The Field 
Projects Coordinator (termed above as IFT Coordinator) usually stays in 
a hotel in Alpine, Arizona when he travels to work out of the IFT 
office. The Field Projects Coordinator's official travel location, 
therefore, is accurately shown as Alpine, Arizona. From the Alpine IFT 
office (which is located near the border of Arizona and New Mexico), 
the IFT manages wolves in both Arizona and New Mexico (although as of 
this year, the Arizona Game and Fish Department conducts most of the 
wolf management in Arizona out of an office in Pinetop, Arizona). The 
Arizona Game and Fish Department staff conducts most of the management 
of Mexican wolves in Arizona, and, following the departure of the New 
Mexico Department of Game and Fish Department from the recovery program 
in 2011, Service employees conduct most of the management of Mexican 
wolves in New Mexico. The Field Projects Coordinator spends additional 
time traveling to sites in New Mexico within a single day, which does 
not require travel expenses. The Coordinator also spends time talking 
to landowners, livestock producers, and others in New Mexico regarding 
Mexican wolf management issues by phone.

    b. How does the coordinator travel from Albuquerque, where he's 
stationed, to Arizona?

    Answer. The IFT Coordinator travels to the Alpine IFT Field Office 
and conducts field work from a government vehicle.

    c. When he travels to Arizona, does he stay overnight? If so, 
please provide logs for overnight stay.

    Answer. In general, the Field Projects Coordinator stays overnight 
when he travels to the Alpine Field Office. The travel log included in 
the Director's September 2, 2016 response, which was derived from the 
government's Concur travel program, provided the dates on which the IFT 
Field Projects Coordinator stayed overnight in Arizona. The travel log 
is included as an attachment.

                                 *****

The following document was submitted as an attachment to Mr. Guertin's 
response to Rep. Pearce's Question 2c. This document is part of the 
hearing record and is being retained in the Committee's official files:

    Table--Log of Current IFT Coordinator Travel

                   Questions Submitted by Sen. Tillis
    Question 1. A report on the Red Wolf Program recently released by 
the Office of the Inspector General found that the Fish and Wildlife 
Service violated its rule by releasing 132 wolves into the wild between 
1987 and 2013 when the rule had only provided for the release of 12 
wolves. Furthermore, many of these wolves were released on private 
lands without permission from the landowners, something the Fish and 
Wildlife Service maintained it was not going to do.

    a. Normally, if the shoe were on the other foot and it was a 
private landowner violating breaking a law or Federal regulation, there 
would be some sort of recourse.

    Answer. In 2014, the Service acknowledged it made some mistakes in 
its management of the Red Wolf Recovery Program. In those past 
instances, the Service only released wolves on private lands with 
agreements--either written or verbal--to do so. Since then, the Service 
has managed the nonessential, experimental population in eastern North 
Carolina in accordance with the 1995 rule (50 C.F.R. 17.84(c)). The 
Service is no longer releasing wolves on private lands.

    b. What action did Fish and Wildlife take to correct this clear and 
obvious violation of its own rules?

    Answer. Over the past 3 years, the Service has conducted 
comprehensive reviews of the Red Wolf Recovery Program, ensured the 
program is in compliance with enacted rules, and reorganized the 
program to avoid future deviations from the existing rules. The Service 
also is complying with Judge Boyle's order.

    Question 2. As Fish and Wildlife attempted to manage its 
nonexperimental population of wolves and secure that population on 
Federal lands, the Agency made the promise that it would remove Red 
Wolves found to be on private lands at the landowners' request. 
Additionally, the Fish and Wildlife Service has stated that it would 
issue private take permits to landowners for the landowners to trap the 
wolves to be returned to the Agency.

    a. How many landowners made requests to the Fish and Wildlife 
Service to have wolves removed from private lands?

    Answer. The Service has received six requests to remove red wolves 
from private lands as of October 2016. In previous years, the number of 
these requests has been less than 10 per year with the exception of 
2014 when the Service received 405 requests. In 2014, the Service 
received several petitions with multiple signatures requesting removal 
of red wolves from private properties. Upon contacting each requestor, 
the Service determined that many of the landowners had no evidence that 
red wolves were on their property. Several requestors also indicated 
that they were unaware of the purpose of the petitions.

    b. How many special take permits have been applied for?

    Answer. The Service does not issue trapping permits to private 
landowners for the removal of red wolves since the agency or agents of 
the Service, including private trappers, conducts the trapping 
operations. When trapping efforts are abandoned, the Service may issue 
an authorization to take a red wolf by lethal means.

    c. How many special take permits have been issued by the Agency?

    Answer. As of October 2016, the Service has issued five lethal take 
authorizations affecting three properties.

    Question 3. Mr. Myers' mentions in his testimony that the flooding 
at the Pocosin Lakes Wildlife Refuge may have adversely impacted its 
suitability to support the wild wolf population.

    a. What is the condition of that refuge now given the ongoing 
hydrology restoration efforts?

    Answer. The Service is taking a science-based approach working with 
hydrologists to restore the natural hydrology and rewetting pocosin 
peat soils at the Pocosin National Wildlife Refuge (Refuge). Since the 
Refuge was established in 1991, the Service has been working to restore 
the pocosin peat soils in three of the most significantly ditched and 
drained areas affecting nearly a third of the Refuge's 110,107 acres. 
Restoration activities include raising the elevation of existing berms 
and installing flashboard riser water control structures in strategic 
locations. The Service will then use this infrastructure to stop the 
artificial drainage of rainwater from the peat soils through the ditch 
system. The new infrastructure enables the Refuge to rewet historically 
drained peatlands and return lands to a natural, seasonally saturated 
condition. Within the restored area, low-lying areas where standing 
water may be present seasonally are expected and may be acceptable for 
foraging and hunting by terrestrial wildlife, including red wolves. The 
flooding recently experienced on the Refuge and adjacent private lands 
is the result of excessive amounts of rain falling on lands already 
saturated by repeated tropical events including Hurricane Matthew 
aggravating conditions in ditches, creeks, and sounds, already full 
from previous rain events. No management strategy would prevent 
localized flooding on or off the Refuge under these conditions. We are 
working diligently with adjacent landowners to ensure a better 
understanding of the hydrology restoration effort and to identify 
opportunities of mutual interest that have great potential to improve 
drainage conditions for these landowners.

    b. How many wolves are currently living on the Refuge?

    Answer. Five adult red wolves are known to use portions of the 
Refuge. We are uncertain as to the number of pups potentially born in 
2015 or 2016 that may use portions of the Refuge at this time.

    Question 4. It is my understanding that the Fish and Wildlife 
Service can account for less than 30 wild wolves with collars and have 
estimated that there are about 15 more wolves whose whereabouts are 
unknown.

    a. What steps will the Agency make to recover these 15 ``missing'' 
wolves?

    Answer. The current wild population estimate is approximately 45 
wolves, including the known number of animals (28 radio collared 
wolves) and a percentage of the number of observed puppies born this 
spring that were PIT tagged but not collared because they were too 
small. The exact number of these young animals that survive their first 
year of life will not be known until they are old enough to be safely 
trapped. However, trapping cannot occur until the existing Federal 
court injunction has been lifted. Additionally, there are a small, but 
unknown, number of animals that avoid being trapped and are undetected 
on the landscape, as well as animals that inhabit lands to which we do 
not have access.

    b. If the Agency already has difficulty tracking the collared 
wolves that are out there, how can I and private landowners be assured 
that a wolves will be accurately tracked and kept off private lands in 
any future non-experimental population site that are created?

    Answer. The Service is able to closely monitor the wild population 
when its biologists can trap and fit adult red wolves with tracking 
collars. In recent years, reduced access to private lands has limited 
the Agency's ability to find red wolf litters and conduct trapping 
operations that would allow for a more accurate account of the wild 
population and movement of red wolves on the landscape. Additionally, 
the recent injunction has further limited the Service's ability to trap 
wolves for monitoring activities.


                                 ______
                                 

    Mr. Gohmert. Thank you.
    At this time, Mr. Myers, you are recognized for 5 minutes.

 STATEMENT OF GORDON MYERS, EXECUTIVE DIRECTOR, NORTH CAROLINA 
     WILDLIFE RESOURCES COMMISSION, RALEIGH, NORTH CAROLINA

    Mr. Myers. Chairman Gohmert, Ranking Member Dingell, and 
members of the subcommittee, thank you for the opportunity to 
come before you today to provide testimony regarding red wolf 
management in North Carolina. Wolf management in North Carolina 
is currently at a key decision point.
    Let me first take you back four decades ago, when the U.S. 
Fish and Wildlife Service redirected its efforts to remove red 
wolves from the wild, from protecting animals in the wild, to a 
planned removal of the species from the wild, thus establishing 
the species survival captive breeding program. This extreme 
decision to forcibly extirpate wolves highlighted a clear and 
present danger of extinction, due to hybridization with 
coyotes. These steps were taken with hopes of identifying a 
future reintroduction site.
    In 1986, the Service promulgated rules that authorized 
taking wolves from the captive breeding program to establish a 
reintroduction experiment on Federal lands in northeastern 
North Carolina. The location was selected for the following key 
reasons: it met the recovery plan goal of abundant and Federal 
lands with habitat and prey-based characteristics, presumed to 
be suitable for red wolves; the surrounding area had a 
relatively low human population; and coyotes were practically 
non-existent on the landscape, which supported the recovery 
objective that the population be self-sustaining.
    The reintroduction was designated a nonessential 
experimental population in accordance with section 10(j) of the 
Endangered Species Act. It was nonessential because the red 
wolf was secure in the captive breeding program. Because of 
public comments about possible adverse impacts to the species 
by removing wolves from captivity, the Service's final rule 
stated they would limit their releases to no more than 12 
wolves.
    However, according to Service records, 165 wolves had been 
released between 1986 and 2014, of which 130 came from the 
captive breeding program and 64 were released onto private 
lands, an action that was also not authorized in the Service's 
rules, nor is it congruent with the goal of managing red wolves 
on Federal lands.
    In the 29-year period since the reintroduction, active 
management of red wolf habitat has been minimal. In fact, 
hydrology manipulation at Pocosin Lakes National Wildlife 
Refuge may very well have adversely impacted the use of those 
lands by wolves, the wolves that persisted predominantly on 
private lands, which is not in harmony with achieving the 
explicit goal to manage the red wolf experiment on Federal 
lands.
    Under the rules that applied to the red wolf 
reintroduction, the Service must remove unwanted wolves from 
private land upon which the landowner requests. The Commission 
has recently worked with the Service to try to fulfill this 
requirement. However, most efforts have proven ineffective, 
largely due to the tremendous challenges of capturing wolves 
and their propensity to quickly return to those private lands 
after being released again on Federal lands. It is essentially 
a revolving door.
    On September 12, 2016, the Service issued a new call to 
action as it announced recommended decisions in response to an 
ongoing evaluation of the red wolf recovery program. The 
Service's decision memorandum states the wild red wolf 
population is projected to crash in as few as 8 years. It 
further concedes the species is currently not secure in 
captivity, and recommends the captive breeding population be 
increased to approximately 400 animals with a minimum of 52 
breeding pairs.
    The Service has identified this change as its highest 
priority for the red wolf recovery program. As of January 1, 
2015, the captive population contained 207 wolves and 29 
breeding pairs, which is far short of identified needs. The 
Service's recommendation to maintain a small population of 
intensively-managed wolves on Federal lands in Dare County is 
inconsistent with the captive breeding population objectives.
    Today, nearly 30 years after the first reintroductions, and 
despite tubal ligations and vasectomies of coyotes, releases of 
165 wolves, including 58 in Dare County, there is only one 
known wolf pack occupying Federal lands. Meanwhile, in the 10-
year period from 2002 to 2012, reported numbers of coyotes 
trapped statewide has increased 2,600 percent in North 
Carolina. The degree of intensive management required to 
recapture wolves that leave Federal lands or to address the 
perpetual threat of hybridization with coyotes would encumber 
the critical and limited financial and human resources 
necessary to expand the capacity within the captive breeding 
program.
    The Commission believes there is once again a clear and 
present danger of species extinction, and the best decision to 
safeguard the red wolf is to capture the remaining wolves from 
northeastern North Carolina, safely secure them in a captive 
breeding program, and redirect available resources toward 
increasing the capacity of those facilities while sorting out 
the red wolf taxonomy.
    Once again, thank you very much for this opportunity to 
appear here today.
    [The prepared statement of Mr. Myers follows:]
Prepared Statement of Gordon Myers, Executive Director, North Carolina 
                     Wildlife Resources Commission
                              introduction
    Chairman Gohmert, Ranking Member Dingell, and members of the 
subcommittee, I am Gordon Myers, Executive Director of the North 
Carolina Wildlife Resources Commission (Commission), a state agency 
whose mission is to conserve North Carolina's wildlife resources and 
their habitats and provide programs and opportunities that allow 
hunters, anglers, boaters and other outdoor enthusiasts to enjoy 
wildlife-associated recreation. I am grateful for the opportunity to 
come before you to provide testimony regarding red wolf management in 
the state of North Carolina.
                               background
    During the fall of 1973, the U.S. Fish and Wildlife Service 
(Service) established a recovery program for the red wolf (Canis rufus) 
based on belief that a pure population of red wolves still existed in 
southeast Texas and adjacent areas of Louisiana. Field work revealed 
extensive hybridization with coyotes across the limited remaining red 
wolf range. Hybridization with coyotes threatened the continued 
existence of the species. Therefore, all recovery efforts were 
redirected from protecting animals in the wild to a planned extirpation 
of the species from the wild. This extreme decision to extirpate red 
wolves from the wild highlighted the immediate and significant threat 
of inter-specific breeding with coyotes. The removal of the species 
from the wild was accompanied by a long-range objective to eventually 
return the species to areas of its historic range.
    Between the fall of 1973 and July 1980, the Service captured and 
examined more than 400 wild canids from which only 14 animals became 
the founding stock for the Red Wolf Species Survival Captive Breeding 
Program (SSP). Red wolves were declared extinct in the wild in 1980. 
Today, 12 founder lines are represented in the wild and captive 
populations. As of January 1, 2015 the SSP included 207 wolves and 44 
institutions.
    After the species was believed to be safeguarded in captivity, the 
Service conducted small-scale reintroduction experiments in 1976 and 
1978. The Service then released mated pairs of red wolves onto Bulls 
Island, a 4,909-acre component of the Cape Remain National Wildlife 
Refuge near Charleston, South Carolina. The results of these releases 
indicated potential feasibility of establishing adult wild-caught red 
wolves in selected habitats in the wild.
              setting up the experiment in north carolina
    In 1986 the Service promulgated rules that would use wolves sourced 
from the SSP captive breeding program to establish a reintroduction 
experiment at Alligator River National Wildlife Refuge (ARNWR) located 
in Dare and Tyrrell Counties, North Carolina.

    ARNWR was selected as an experimental reintroduction site for the 
following key reasons:

  1.  Abundance of Federal lands with habitat and prey base 
            characteristics presumed to be suitable for red wolves

  2.  Relatively low human population

  3.  Absence of coyotes on the landscape

    The final special rule published in the Federal Register on 
November 19, 1986 provided guidelines and sideboards for the 
experimental reintroduction. Those rules designated the red wolf 
reintroduction as a nonessential experimental population (NEP) in 
accordance with section 10(j) of the Endangered Species Act (ESA). 
Under the ESA, the Secretary of the Department of the Interior is 
required to determine whether or not the population is essential to the 
continued existence the species. In the case of red wolf, it was 
determined that despite extirpation from the wild, the red wolf was 
secure in the SSP captive breeding program. Notably, in response to 
public comments expressing concern about potential adverse impacts 
resulting from removing animals from the SSP captive breeding program 
and introducing them into ARNWR, the Service responded in the final 
rules that they would limit their release of wolves to no more than 12 
animals. Further, the Service stated the refuge and adjacent U.S. Air 
Force lands could eventually sustain a red wolf population of 25 to 35 
animals. In 1995, the Service amended its special rule to include 
additional Federal lands. The Service stated the reintroduction area 
probably could not support 30 wolves for an extended period of time; 
however, the addition of Pocosin Lakes National Wildlife Refuge (PLNWR) 
would add approximately 112,000 acres to the reintroduction area. The 
Service estimated the additional refuge lands could support 15 to 25 
wolves. Thus, based on the 1995 rule, the Service estimated a total 
carrying capacity of 55 wolves on Federal lands.
    The Red Wolf Recovery Plan institutes the clear goal that the 
nonessential experimental population of red wolves introduced into 
northeastern North Carolina (NENC) should be managed on ``Federal 
lands.'' Further, the recovery plan explicitly states the objective 
that the population be ``self-sustaining.'' The Service's 1986, 1991, 
and 1995 special rules for the red wolf NEP incorporate this goal and 
objective.
              conducting the experiment in north carolina
    According to Service records 165 wolves were released into the NENC 
population between 1986 and 2014, 130 of which came from the SSP 
captive breeding program, far exceeding the 12 wolves noted in the 1986 
final rules. Further, of those releases, 64 occurred on private lands--
an action that is not authorized in the Service's rules nor is it 
congruent with the goal of managing wolves on Federal lands.
    In the 29-year period since the reintroduction of red wolves into 
NENC, active management of habitat for red wolves has been minimal. 
Consequently, wolves have persisted predominantly on private lands. As 
evidenced by research, red wolves are more likely to utilize 
agricultural fields than all other habitat types combined. Early 
successional fields comprise the second most likely utilized habitat 
type. Both of these habitat types are primarily found on privately-
owned lands within the reintroduction area. This well documented 
persistence on private land is not in harmony with achieving the 
explicit goal set forth in the Red Wolf Recovery Plan that the red wolf 
population in NENC should be managed on ``Federal lands.''
    Because the population of red wolves reintroduced to NENC was 
determined to be a nonessential experimental population in accordance 
with Section 10(j) of the ESA, the final special rules included 
circumstances under which take of the species was authorized. Those 
take provisions were promulgated in accordance with Section 4(d) of the 
ESA.
    Under the special rules that apply to the NENC NEP red wolf 
population, the Service stated ``programs to purposely reintroduce 
predators, such as the red wolf, must be accompanied by provisions to 
protect private property from the presence of such reintroduced animals 
if the landowner does not want them on his property.'' Accordingly, 
those rules incorporate the requirement that the Service remove 
unwanted wolves from private land upon request of the landowner. The 
Commission has worked closely with the Service to try to fulfill this 
requirement; however, most efforts have proven to be ineffective, 
largely due to the tremendous challenges associated with recapturing 
animals and the propensity for animals to return to the vicinity of 
their capture subsequent being released again on Federal lands.
    The special rules also allow direct and incidental take of red 
wolves by landowners under certain circumstances, including incidental 
take pursuant to lawful harvest of coyotes. Despite those explicit 
provisions, the Commission was sued in Federal court for adopting state 
regulations that allowed coyote hunting at night statewide. Ironically, 
a court ordered injunction provided greater Federal protection to non-
native coyotes than to the red wolf. Ultimately, the state entered into 
a settlement agreement that restored coyote hunting during daylight 
hours, but maintained a prohibition against hunting coyotes at night 
within the five-county reintroduction area.
                            lessons learned
    The NENC NEP is one of two attempts to reintroduce red wolves in to 
the wild. The other experiment in Great Smoky Mountains National Park 
located in the North Carolina-Tennessee mountains failed, in part, due 
to lack of access to key land areas, including private lands. The 
Service terminated the experiment in 1998 based on low pup survival and 
the inability of the wolves to persist on Federal lands.
    The NENC experiment and associated regulations were not designed to 
achieve a recovery scale population. Instead, the experiment provided 
an opportunity to test goals incorporated into the Red Wolf Recovery 
Plan. Specifically, the Federal lands in NENC provided a crucial living 
laboratory to test if red wolves could achieve wild reproduction, 
become self-sustaining, and persist on Federal lands.
    Perhaps one of the greatest accomplishments of the NENC NEP was to 
prove that captive red wolves could be introduced into and reproduce in 
the wild. Prior to the proliferation of coyotes on the landscape, there 
were some indications that the red wolf may become self-sustaining over 
time; however, coyote interactions drastically deceased if not 
eliminated this feasibility.
    With the continued expansion of coyote ranges in the continental 
United States, including eastern North Carolina, the threat of genetic 
introgression of coyotes into the NENC red wolf population increased 
throughout the 1990s and the first known hybridization event occurred 
in 1993. In 1999, similar to the 1970s, the Service declared 
hybridization with coyotes the greatest threat to red wolf recovery. 
North Carolina hunting and trapping records provide state-level indices 
of harvest. In the 10-year period from 2002 to 2012, reported numbers 
of coyotes trapped statewide increased from 133 to 3458, an increase of 
2600 percent. In the five counties comprising the red wolf 
reintroduction area, reported harvest increased from 0 to 138 coyotes 
between 2004 and 2012. For the foreseeable future, it appears the 
hypothesis that red wolves can become self-sustaining, particular 
within landscapes that include coyotes, has been disproven.
    There is an abundance of data that clearly indicates red wolves 
cannot be managed to stay on Federal lands. Furthermore, significant 
resources are necessary to attempt to meet such expectations and to 
date, no management scheme has proven effective to meet the 
expectations of private landowners. Today, nearly 30 years after the 
first reintroductions in Dare, there is one known wolf pack occupying 
Federal lands, despite releases of 58 wolves into Dare County. It is 
clear that any success future reintroductions must be accompanied by 
participation and support of private landowners. Realistic 
expectations, predictability, responsiveness, and accountability are 
essential to sustaining support.
                             current status
    On September 12, 2016, the Service announced recommended decisions 
in response to an ongoing evaluation of the Red Wolf Recovery Program. 
The Service's decision memo acknowledges growing concerns from private 
landowners regarding management of the Service's NENC project and the 
collaborative commitment between the Service and the Commission to 
develop a canid management strategy. The memo further outlines the 
actions taken by the Service in the past 3 years to evaluate the 
program.
    The decision memo describes decision options and recommendations 
for the overall Red Wolf Recovery Program and the NENC NEP. The memo 
includes important information regarding the current status of the SSP 
captive breeding population and the NENC NEP. This information from a 
report released June 10, 2016 by the Red Wolf Population Viability 
Analysis (PVA) workgroup is the most up-to-date information currently 
available.
    With regard to the NENC NEP, the Service recommends reducing the 
focus of the NENC NEP to Federal lands within Dare County, removing 
isolated wolf packs from lands to which the Service lacks access, 
incorporating those animals into the SSP captive breeding program, and 
to better manage the remaining animals to the Federal lands in Dare 
County.
    The June 10, 2016 PVA workgroup report indicates that under 
conditions modeled in the baseline scenario, the SSP captive breeding 
population has a moderate chance (65.7 percent) of maintaining the 
genetic diversity for at least 150 years as set forth in the Red Wolf 
Recovery Plan. Further, under conditions modeled for the NENC NEP in 
the baseline scenario, the population is projected to crash in as few 
as 8 years. The PVA workgroup modeled a range of permutations to 
examine options that would improve chances for success. Of the model 
simulations, the permutations that reflected an increase to 400 animals 
in the SSP captive population indicate the best chances for 
successfully maintaining red wolf genetics as set forth in the red wolf 
recovery plan. In fact, the scenario under which the SSP captive 
breeding program capacity is increased to 400 animals and all NENC NEP 
wolves are brought into program yielded a 91.2 percent chance of 
maintaining the genetic diversity for at least 150 years as set forth 
in the Red Wolf Recovery Plan. There were several other model scenarios 
that yielded a greater than 90 percent chance of success, but each 
scenario was based on the operational premise that captive breeding 
success could be increased more than 30 percent from 19 percent to 25 
percent.
    The Service's decision memorandum states the species is not secured 
in captivity and the SSP captive breeding population must increase to 
approximately 400 animals with a minimum of 52 breeding pairs. It 
further states this is the number one management priority for the red 
wolf recovery program and that if the situation is not managed 
immediately, the entire species would be in peril. It is notable that 
the fundamental basis of establishing the NENC NEP was the red wolf was 
secure in captivity.
    The Service's recommendation to maintain a small population of 
intensively managed wild wolves as part of an SSP captive breeding 
program meta-population is incongruent with this priority. Intensive 
management required to address the perpetual risks of hybridization 
with coyotes and to recapture wolves that leave Federal lands will 
encumber critical financial and human resources that should be used to 
expand capacity within the SSP captive breeding program. Recall that 
hybridization with coyotes was the impetus for forced extirpation of 
red wolves from the wild three decades ago. Further, the recent PVA 
report indicates the NENC NEP has a 2.38 times higher risk of mortality 
than the SSP captive population.
    The Commission believes there currently exists a clear and present 
danger of species extinction and the best decision for safeguarding the 
red wolf is to capture the remaining wolves in the NENC, safely secure 
them in the SSP captive breeding program, and redirect resources toward 
increasing the capacity of the SSP facilities.

                                 ______
                                 

  Questions Submitted for the Record by Sen. Tillis to Gordon Myers, 
         Director, North Carolina Wildlife Resources Commission
    Question 1. How closely do you believe the Fish and Wildlife 
Service is following its own rules and regulations pertaining to the 
program?

    Answer. The U.S. Fish and Wildlife Service (Service) and the North 
Carolina Wildlife Resources Commission (Commission) pledged to 
collaborate on management of canid species throughout the Albermarle 
Peninsula in November 2013. Although the Service leadership in the 
Southeast Region Office has demonstrated commitment to following the 
its own rules pertaining to the program during the past 3 years, it is 
very clear the Service's own rules pertaining to its nonessential 
experimental population of red wolves are fundamentally unrealistic. 
The Red Wolf Recovery Plan institutes the clear goal that the 
nonessential experimental population of red wolves introduced into 
northeastern North Carolina should be managed on ``Federal lands.'' 
Further, the recovery plan explicitly states the objective that the 
population be ``self-sustaining.'' The Service's 1986, 1991, and 1995 
special rules for the red wolf NEP incorporate this goal and objective. 
Both foundational elements have been undeniably disproven. Instead, red 
wolves predominantly persist on private lands.
    Further, the Service established in their 1986 rules that only 12 
wolves would be released from captivity; however, according to Service 
records 165 wolves were released into the NENC population between 1986 
and 2014, 130 of which came from the captive breeding program. Further, 
of those releases, 64 occurred on private lands--an action that is 
clearly not authorized in the Service's rules nor is it congruent with 
the goal of managing wolves on Federal lands.

    The following is excerpted from a Wildlife Management Institute 
(WMI) report from November 2014:

        ``We learned that program authority rested largely with local 
        staff. Decisions made at the local level . . . did not always 
        comply with the rules established for the reintroduction 
        program.''

        ``FWS staff reported to WMI that some red wolves were released 
        on private property . . . These actions appear to conflict with 
        the 10(j) Rule that stated red wolves would be released on the 
        Alligator River NWR property.''

        ``The 10(j) Rules also stated that, at the request of the 
        landowner, wolves would be captured on private property and 
        returned to the refuge property. WMI found that it was a common 
        practice to inform landowners that wolves would not stay on the 
        refuge and would probably return to private property. Some 
        wolves captured on private property were released on private 
        property rather than returned to the refuge lands. These 
        activities were contradictory to the 10(j) Rules established at 
        the onset of the recovery program. WMI concluded that the 
        authors of the rules were either misinformed about red wolf 
        dispersal behavior or were unconcerned if the rules were 
        violated. Local program staff was asked to comply with rules 
        that were untenable.''
    Question 1a. Has the Fish and Wildlife Service made good on the 
commitments it made to private landowners?

    Answer. In my opinion, the Service has not and cannot make good on 
the commitments it made to the private landowners.

    Question 2. Do you consider doubling the wolf population and 
identifying additional non-experimental population sites as a shutdown 
of the program?

    Answer. Doubling the wolf population and identifying additional 
locations to establish experimental populations is not in any way a 
``shutdown of the program.''

    Question 3. Based on the conclusions made in the Red Wolf report 
Fish and Wildlife Service released last week, what recommendation would 
the North Carolina Wildlife Resources Commission have made as to the 
future of the Red Wolf program?

    Answer. Based on information from the program evaluation conducted 
by WMI and released in November 2014; a recent scientific report 
regarding red wolf taxonomy released in July 2016; and a red wolf 
population viability analysis released in June 2016, the Commission 
recommends several actions for the Red Wolf Recovery Program, including 
the nonessential experimental population of red wolves located in 
northeastern North Carolina. Specifically, the Commission recommends 
the Service contract with an independent scientific organization such 
as the National Academy of Sciences to conduct a scientific review of 
the Red Wolf Recovery Program, including evaluation of red wolf 
taxonomy using whole-genome sequence analysis to determine uniqueness 
of red wolf ancestry and appropriateness of listing red wolf under the 
Endangered Species Act. Because the primary and existential threat to 
red wolf recovery is hybridization with coyotes, we believe the 
evaluation must also examine efficacy of methods to address the threats 
of hybridization with coyotes; and consider the extent and duration of 
conservation reliance needed to achieve recovery goals. Finally, the 
Commission recommends the Service terminate or suspend the Nonessential 
Experimental red wolf project in North Carolina and redirect available 
red wolf recovery resources to address deficiencies of the Red Wolf 
Species Survival Plan captive breeding program.

    Question 4. How well has the Fish and Wildlife Service worked with 
your Agency when it comes to making decisions regarding the management 
of the Red Wolf program?

    Answer. In the past 3 years, the Service leadership has been very 
forthright in its communication and collaboration regarding on the 
ground management of the nonessential experimental population of red 
wolves; however, it is not very clear if our perspectives related to 
future red wolf program management have been fully considered.

                                 ______
                                 

    Mr. Gohmert. Thank you very much.
    Director Moore, you are recognized for 5 minutes.

 STATEMENT OF VIRGIL MOORE, DIRECTOR, IDAHO DEPARTMENT OF FISH 
                     AND GAME, BOISE, IDAHO

    Mr. Moore. Thank you, Mr. Chairman and members of the 
committee. I will begin by describing Idaho's wolf management 
today after 5 years of state authority, post-delisting. It is a 
success. I will then share with you some insights from this 
journey to recovery and what it means for state management.
    In 2016, Idaho's wolf population continues to far exceed 
the Federal recovery criteria which were 10 breeding pairs and 
100 wolves in Idaho. Our state management plan is 15 pairs and 
150 wolves above that Federal standard. As our map shows--and 
you will see the graphic up here--I have one figure. Each of 
those circles represents a pack. Idaho's wolf population has 
more than 100 documented packs--now, remember, our goal was 100 
wolves--and nearly 800 wolves in the state of Idaho as a 
minimum population as of this year.
    In May of 2016, as I noted, that was the end of the Federal 
oversight for the 5-year monitoring period post-delisting in 
2011. So, not only do we celebrate the success of recovery, we 
can celebrate the fact that we have successfully done the 5-
year monitoring in both the states of Idaho and Montana.
    Idaho's biologist manages sustainable prolific wolf 
population in ways that address the conflicts with people, 
pets, livestock, and Idaho's other big game population, 
including our valuable deer, elk, and moose. We primarily 
manage wolves through public hunting and trapping, as we do 
with all game species.
    As Director, I also authorize additional control actions to 
respond to specific attacks on pets and livestock, and in 
situations where predation takes too big a toll on local elk 
herds and other big game populations. We have 29 elk zones in 
the state of Idaho; 9 of them are not achieving management 
criteria; 7 of those have been measured to be the result of 
predation.
    I would also point out that Idaho's management of elk, 
deer, and other wildlife gave the introduced wolves the food 
supply necessary for recovering, demonstrating the gray wolf's 
ability to reproduce and disperse across our state.
    Idaho's wolf population passed that 100 wolf recovery goal 
in 1998, within 3 years of reintroduction. The Federal 
Endangered Species Act and Federal wolf introduction into 
Central Idaho and Yellowstone were designed to achieve that 
outcome: a robust gray wolf population under state management. 
But the tortuous path on how we got to this point is certainly 
not a model, in my view, for species recovery.
    In fact, I am deeply disappointed that it took an Act of 
Congress to reinstate the Fish and Wildlife Service's decision 
to take wolves in Idaho and Montana off of the Endangered 
Species List, nearly 10 years after Federal and state agencies 
agreed, and the scientific community generally recognized, that 
the population met and later far exceeded Federal recovery 
criteria. Nonetheless, I am thankful to Congress for doing 
that.
    If species do not come off the endangered species list when 
science-based recovery criteria are achieved, states and local 
communities may have no incentive to be active participants. In 
fact, for species having high potential for human conflict, 
intensive management, and where costs are especially high, the 
marathon delisting processes may incentivize states and local 
communities to sit it out on the sidelines of the recovery 
process, to actively fight proposals to list species, or to 
avoid expansion of listed species into unoccupied habitat--all 
factors affecting us today.
    Certain advocacy groups sought to leverage legal road 
blocks to increase Federal requirements and minimum population 
size, hunting moratoriums, and other post-delisting management 
restrictions. This resulted in a lot of problems for the state 
of Idaho. Lawsuits also hampered our ability to use ESA tools 
for management.
    As our effort to improve this incredibly frustrating 
situation came to an impasse in late 2010, as a result of all 
of those legal and other actions, our governor chose to notify 
the Fish and Wildlife Service that we would no longer be 
involved in management of wolves in the state of Idaho. 
Fortunately, Congress intervened to reinstate the Fish and 
Wildlife Service's final rule to delist wolves in part of the 
Northern Rocky Mountains, including Idaho, in 2011.
    Under state management since 2011--I am going to run out of 
time here, so I will thank you for your time and move on.
    [The prepared statement of Mr. Moore follows:]
Prepared Statement of Virgil Moore, Director, State of Idaho Department 
                            of Fish and Game
    The Committee invited Idaho to share our state's perspective on 
Federal management of wolves. Let me begin, however, by describing 
wolves in Idaho today under state management. In 2016, Idaho's 
professional wildlife biologists manage a recovered wolf population 
that is sustainable and prolific, and we do so in way that addresses 
wolf conflicts with people, pets, livestock, and Idaho's other big game 
populations, including elk, deer, and moose.
    Idaho's wolf population continues to far exceed the recovery levels 
set by the U.S. Fish and Wildlife Service, which were 10 breeding pairs 
and 100 wolves in Idaho. As our map shows, Idaho has more than 100 
documented wolf packs, distributed across much of our state (see 
attached map depicting documented and suspected wolf packs at the end 
of 2015). That means we have more wolf packs than the Federal recovery 
goal was for individual wolves in our state.
    Under state management, we are able to maintain this robust wolf 
population and reduce conflicts, primarily through public hunting and 
trapping. Our Agency takes additional control actions to respond to 
specific attacks on pets and livestock, or situations where predation 
takes too big of a toll on local elk herds or other big game 
populations.
    In May 2016, Idaho marked the end of Federal oversight of wolf 
management in Idaho with our successful completion of the 5-year 
Federal monitoring period that follows delisting. At the end of 2015, 
about 800 wolves inhabited Idaho, based on intensive annual capture and 
radio-collaring, trail cameras, harvest reports, and reliable public 
observations. Similar maps of surrounding states would show a strong 
core population in Idaho, Montana, and Wyoming, with wolf dispersal and 
breeding packs well into Oregon and Washington and as far as 
California.
    The Federal Endangered Species Act and Federal wolf introduction 
into central Idaho and Yellowstone were supposed to achieve this 
outcome--a robust gray wolf population under state management. The 
tortuous path to how we ultimately achieved a state-managed, robust 
wolf population, however, is certainly not a model for species 
recovery.
    In fact, I'm deeply disappointed that we needed an Act of Congress 
to reinstate a U.S. Fish and Wildlife's decision to take wolves in 
Idaho and Montana off the endangered species list, nearly 10 years 
after Federal and state agencies agreed, and the scientific community 
generally recognized, that the population met, and later far surpassed, 
Federal recovery criteria.
    I say that as someone who has invested over 40 years--my entire 
professional career--as a trained biologist working for, and now 
leading, state wildlife management agencies, mostly in Idaho. I am the 
elected Vice-President of the Association of Fish and Wildlife 
Agencies, which represents state and territorial fish and wildlife 
management from across the U.S. states, as well as several Canadian 
provinces and Mexican states. I'm not representing AFWA today, but in 
my position with AFWA, I am aware of the choices my counterparts in 
other states face in how they engage in conservation of ESA-listed 
species.
    If species do not come off the endangered species list when 
science-based recovery criteria are achieved, states and local 
communities have no incentive to be active participants in recovery 
efforts. In fact, for species having a high potential for human 
conflict or other intensive management, where the costs of meeting 
Federal monitoring and management requirements are especially high, 
marathon delisting processes incentivize states and local communities 
to sit on the sidelines of the recovery process, to actively fight 
proposals to list species, or to avoid expansion of listed species into 
unoccupied habitat.
    If the Federal ESA delisting process is ultimately an exercise in 
moving the goalposts such that Federal restrictions never really end 
and the Federal Government prescribes how states manage populations 
well above recovery criteria, states and local communities will 
question why they should invest their time and money in the enterprise. 
That's simply not a good incentive program for wildlife conservation.
    Protracted administrative and legal delisting delays based on 
procedural technicalities and armchair quarterbacking, rather than 
legitimate scientific or management concerns, also fuel public 
resentments toward the species and the ESA.
    Now that Idaho has state management of a recovered, robust wolf 
population in Idaho, we sometimes forget where we were right before 
congressional intervention in 2011.
    Gray wolves were listed under the Endangered Species Act in 1974. 
In 1987, the U.S. Fish and Wildlife Service developed a Northern Rocky 
Mountain Wolf Recovery Plan, with recovery goals of 100 wolves and 10 
breeding pairs in each of the three states of Idaho, Montana, and 
Wyoming.
    In a controversial action, the Federal Government transplanted a 
total 66 wolves into Yellowstone and Central Idaho in 1995 and 1996, as 
a ``10j'' nonessential experimental population. The Federal Government 
provided assurances that there would be resources and mechanisms to 
address predation conflicts with livestock and elk and deer 
populations. These assurances did not come to fruition; what happened 
instead was over 10 years of largely unchecked population growth, while 
Federal restrictions limited our ability to address a corresponding 
increase in wolf-human conflicts with our agricultural community and 
with excessive predation impacts on elk herds.
    Idaho's management of elk, deer, and other wildlife gave the 
introduced wolves a good food supply. Demonstrating the gray wolf's 
ability to reproduce and disperse, Idaho's wolf population had already 
passed the 100-wolf recovery goal in 1998, within 3 years of 
introduction. By 2002, the Fish and Wildlife Service recognized that 
the Northern Rocky Mountain gray wolf population was recovered, and 
that delisting was appropriate. The Service eventually issued a final 
rule delisting the population in 2008, but a Federal district court 
ordered wolves back on the list, citing deficiencies in the Service's 
reliance on Wyoming's state management plan. The Service delisted the 
Northern Rocky Mountain wolf population outside of Wyoming in 2009, but 
the Federal district court ordered wolves put back on the list, again 
citing procedural deficiencies with the Federal agency delisting, 
rather than biological ones.
    Not only did lawsuits and protracted administrative process thwart 
the transfer to state management that was supposed to happen upon 
recovery, they also hampered our ability to use tools like the ESA's 
10j rule, which the Federal Government had said states would be able to 
use to respond to conflicts where predation was taking too big a toll 
on our elk herds.
    Certain advocacy groups sought to leverage legal and administrative 
roadblocks to increase Federal requirements for minimum population 
size, hunting moratoriums, and other post delisting management 
restrictions. Federal funding was insufficient to meet our wolf 
monitoring and management responsibilities. Advocacy group compensation 
programs for wolf predation on livestock were short lived and 
inadequate to cover all losses associated with the growing conflicts. 
After our efforts to improve this incredibly frustrating situation came 
to an impasse, in late 2010 Idaho's governor notified the Fish and 
Wildlife Service that we were ending our state's participation in wolf 
management until wolves were delisted.
    Fortunately, Congress intervened to reinstate the Fish and Wildlife 
Service final rule to delist wolves in part of the Northern Rocky 
Mountains, including Idaho, in 2011.
    Under state management, we have substantially reduced wolf 
predation on livestock. In 2010 there were 109 wolf depredation 
incidents on livestock in Idaho with 75 cattle and 148 sheep confirmed 
killed. In 2015 there were 55 depredation incidents with 35 cattle and 
125 sheep confirmed killed. We have demonstrated that a combination of 
regulated public wolf hunting and trapping seasons, and agency-directed 
control to address specific livestock predation situations, have been 
effective at reducing these conflicts. This is consistent not only with 
our state wildlife management policy, but also the original commitments 
of Federal wolf recovery to mitigate financial impact of wolf predation 
on ranching families.
    In contrast, where wolves remain under Federal management and under 
protection of the ESA in Wyoming, wolf depredations on livestock have 
continued to increase. In 2010, 26 cattle and 33 sheep were confirmed 
killed by wolves. That impact has grown to 105 cattle and 103 sheep 
killed in 2016 through the first week of September.
    In closing, I again draw your attention to the map I referred to at 
the beginning of my statement.
    As the map shows, the recovered wolf population under state 
management is distributed throughout Idaho's forest lands. The Federal 
recovery criteria was 100 individual wolves in Idaho, we have 100 
documented packs, roughly 800 wolves at the end of last year.
    In Idaho, we manage populations of both predator and prey species 
so they are sustainable, and so they do not need Federal protection. In 
Idaho, public hunting is important to our culture and our management. 
We sustainably manage elk, mule and white-tailed deer, moose, wolves, 
mountain lions, black bears, a variety of game birds, and many other 
species of fish and wildlife.
    Our Nation has long recognized that managing wildlife and conflicts 
between wildlife and people, as well as reconciling different public 
values about wildlife, is the traditional province of state police 
powers. Federal management of migratory birds, endangered species, and 
Federal enclaves such as Yellowstone National Park, serve as the 
exceptions and not the rule.
    It should not take an Act of Congress to return a species to state 
management once it is clearly no longer threatened or endangered. And 
if states and local communities know it is going to take an Act of 
Congress to return management decisions to them despite their investing 
a lot of energy and financial resources on a single species, most 
sensible people with lots of priorities to choose from are going to 
choose elsewhere. Wolf management in Idaho should be an ESA success 
story, but what it took to get to this point is also a cautionary tale 
for those of us who care deeply about wildlife conservation.

                               ATTACHMENT


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 
                                 

 Questions Submitted for the Record by Rep. Newhouse to Virgil Moore, 
              Director, Idaho Department of Fish and Game
    Question 1. Can you discuss the ways wolf management in Idaho has 
improved under state-level management? What are the major changes and 
benefits you have seen compared with Federal management of gray wolves 
in Idaho?

    Answer. Under state management, wolf predation incidents on 
livestock and domestic animals have declined. With state management of 
wolves, we have made improvement in some backcountry elk herds for 
which wolf and other predation has been a major factor in herd decline. 
Although less quantifiable, the ability to manage the wolf population 
through licensed, regulated hunting and trapping has generally improved 
attitudes toward wolves in communities within and near where wolves 
occur. It has likewise been important for the state to be able to take 
agency action as appropriate to address wolf predation on livestock and 
domestic animals or predation on elk and other ungulates, both in terms 
of predation management and public attitudes. Under state management, 
Idaho's wolf population has remained robust and well above Federal 
recovery criteria.

    Question 2. In your testimony you state that the failure to delist 
species that are no longer endangered or threatened removes the 
incentive for states and local communities to be active participants in 
recovery efforts. This has been a source of frustration for me due to 
the partial-listing in Washington State and the ongoing conflicts 
between wolves and livestock. I have been a staunch proponent of 
delisting the gray wolf and returning management to the individual 
states, which I believe are better prepared to manage the species. 
Through your experiences in Idaho, what advice would you give to 
communities in Washington that want to see a Federal delisting and 
return to state-level management? Additionally, what do you view as the 
biggest impediments to a Federal delisting actually occurring?

    Answer. I would defer to Washington to evaluate what solutions may 
work best for that state's unique circumstances. In Idaho, the biggest 
impediments to Federal delisting were lawsuits and protracted 
administrative processes, despite the wolf population being well above 
recovery standards soon after wolf introduction into central Idaho and 
Yellowstone in the mid-1990s. In Idaho's experience, some advocacy 
groups and legal organizations continue to pursue procedural 
litigation, administrative appeals, and political pressure to obtain or 
prolong listed status for species despite broad scientific support for 
delisting or non-listing. Their incentives for doing so appear to 
outweigh any disincentives. My prepared statement described the 
negative consequences of delisting paralysis.
    We found it valuable to make our case for delisting efforts in 
multiple forums. In addition to pursing and supporting the U.S. Fish 
and Wildlife Service's rulemaking for delisting, and defending those 
efforts in court, we also coordinated with our congressional 
delegation, state and local elected officials, the Western Governors 
Association, the Western Association of Fish and Wildlife Agencies and 
its national counterpart, and wildlife professional associations such 
as the Wildlife Society. We also found it important to provide 
scientific and professional wildlife manager perspectives to respond to 
misinformation spread by some advocacy groups. One example of a 
response is available at: https://idfg.idaho.gov/press/op-ed-idahos-
wildlife-professionals-advocacy-groups-stop-crying-wolf.

    Question 3. You discussed how wolf populations in Idaho have 
remained robust under state management, while also allowing for a 
reduction in conflicts between wolves and livestock populations. You 
also detail the exhaustive, marathon-like process Idaho had to go 
through to delist and return the wolf to state management. As I'm sure 
you're well-aware, Washington is currently confronting many of the same 
issues and problems that you have discussed today. In your opinion, 
will Washington be able to adequately address wolf predation while it 
remains federally listed under ESA? What steps could Washington take to 
improve this process absent a Federal delisting?

    Answer. Wolves in western Washington are federally listed as 
endangered. Endangered status significantly restricts management 
options to address wolf predation, and the U.S. Fish and Wildlife 
Service is the lead agency, not the state. Take of endangered species 
requires USFWS authorization, and the Endangered Species Act broadly 
defines ``take.''
    Wolves in northern Idaho were previously listed as endangered, and 
wolves introduced into central Idaho and Yellowstone were listed under 
a ``10j'' designation as a nonessential, experimental population. 
Federal 10j regulations were supposed to allow more flexibility for 
management, including the ability to respond to excessive predation on 
ungulate populations. However, that promised flexibility did not 
materialize to protect elk and other ungulate populations, again due to 
litigation and protracted administrative processes. So I would expect 
USFWS to offer little management flexibility as the lead agency for 
wolves listed as endangered.

                                 ______
                                 

    Mr. Gohmert. OK, thank you very much.
    Dr. Vucetich, you are recognized for 5 minutes.

  STATEMENT OF JOHN VUCETICH, ASSOCIATE PROFESSOR, SCHOOL OF 
     FOREST RESOURCES AND ENVIRONMENTAL SCIENCE, MICHIGAN 
          TECHNOLOGICAL UNIVERSITY, HOUGHTON, MICHIGAN

    Dr. Vucetich. Thank you, Mr. Chairman and the committee, 
for allowing me the opportunity to testify today. I think with 
a hearing, or a discussion, about wolves, it is appropriate to 
have some kind of broad context about where it is that we have 
been with respect to wolf management and how far it is that we 
have come.
    Wolves once inhabited most of the Lower 48. After more than 
a century of persecution by humans, their darkest hour led 
wolves to be just a few hundred living in the most remote 
portions of the state of Minnesota. Then, beginning in 
approximately the 1970s, and for the next four decades, we, the 
American people, made tremendous strides and advances in wolf 
conservation. Today, there are about 5,500 wolves living in the 
Lower 48. This represents about 15 percent of the former range 
over which wolves once lived.
    While we have made great progress, at the very same time 
there is still much work to do. I also think that continuing 
the work that needs to be done may indeed require some course 
correction in some of the directions that we have been going.
    Wolves are a complicated and diverse issue. There are 
wolves in, of course, the Northern Rockies and the Western 
Great Lakes. There are red wolves and there are Mexican wolves. 
In all of these cases, there are some issues that are very 
important. But distinct to those populations--for example, for 
red wolves--issues about hybridization are a great concern. In 
the Western Great Lakes, there are concerns about the 
application of distinct population segment policy.
    While there are these distinct differences among the 
geographic regions where we conserve wolves, there are also 
some common themes; and the common themes, of course, are 
familiar to everyone in the room, I think. They include 
conflicts with livestock, and they include conflicts with 
interest related to deer and elk hunting. They include 
perceived risks pertaining to human safety, and there are also 
some legal and policy issues. Those four items, while they are 
challenging, are also very, very manageable issues. And, not 
only are they manageable issues, humans are quite positive in 
their attitude about wolves, positive enough to allow us to 
overcome these challenges.
    But I think it is also fair to ask, if there are these 
challenges, why would we even bother trying to meet them? It is 
a hard thing to do. What is the interest? I think the interest 
is that the health of many of our Nation's ecosystems depends 
greatly on the presence of healthy, functioning wolf 
populations.
    Just as important, when Americans talk about wolves, we are 
not talking just about the four-legged creature. We are, at the 
very same time, talking about a symbol. We are talking about 
something that represents our understanding of how it is that 
we relate with nature on the whole. That is an unfortunate 
burden for wolves to have to bear. But, nevertheless, it is how 
we approach wolves. And what this means is that we have to get 
it right. If we don't get it right with wolves, we will be not 
getting it right with our relationship with nature on the 
whole.
    As a result, our treatment of wolves, and our treatment of 
the people who are impacted by wolves, is going to be a 
bellwether for how it is that we treat other natural resources 
in the United States, and it will be a bellwether for how it is 
that we treat other species under the Endangered Species Act. 
So, these are the two reasons that it is so important to get it 
very right.
    I think it is also important to appreciate that the 
American people are very supportive of this. They have the 
endurance for it, they have the energy for it. What we need 
most, I think, is better leadership, better leadership both 
from Congress, from the Fish and Wildlife Service, from state 
governments, and from NGOs to live up to the expectations that 
the American people have for how it is that we manage wolves.
    Thank you very much for the opportunity to share.
    [The prepared statement of Dr. Vucetich follows:]
    Prepared Statement of John A. Vucetich, Ph.D., School of Forest 
 Resources and Environmental Science, Michigan Technological University
    I am a professor in the School of Forest Resources and 
Environmental Science, Michigan Technological University. I have held a 
faculty position with Michigan Technological University since 1996. My 
scholarly expertise is population biology, most frequently examining 
wolves and their prey. I am also a scholar for certain topics 
pertaining to the human dimensions of conservation. I have authored or 
co-authored more than 80 peer-reviewed articles over the past two 
decades related to these and other subject areas, and have given more 
than 50 invited talks in the past 12 years.
    I have been studying wolves for about 25 years. My predation 
ecology research includes but is not limited to how predator 
populations affect their prey and how prey affect predators. The 
majority of my wolf-related scholarship has been in Isle Royale 
National Park, located in Michigan and surrounded by Lake Superior. I 
have been working on the Isle Royale wolf-moose project since the early 
1990s, and have been leading the project since 2001. It is also the 
longest running wolf study in the world and the longest study of any 
predator-prey system in the world.
                                overview
    Prior to persecution by humans, wolves inhabited most of the 
coterminous United States. By the 1960s, after more than a century of 
persecution, wolves in their darkest hour were reduced to perhaps a few 
hundred, living only in the remote northern reaches of Minnesota. Over 
the past four decades, however, we have made incredible progress toward 
the recovery of wolves. Today, approximately 5,500 wolves inhabit about 
15 percent of their historic range within the coterminous United 
States. That effortful progress is one of the success stories in 
American conservation. At the very same time, the job is not done. 
Important work remains. Moreover, if we are to be successful, then some 
adjustment to our present course is required.
    Essential background for many concerns about wolf conservation is 
conveyed through the series of annotated maps that are included as 
Supplementary Material #1 appended to the end of this testimony. The 
maps pertain to gray wolves (Canis lupus), including a subspecies known 
as the Mexican wolf (Canis lupus baileyi). Red wolves are not treated 
in that series of maps, but are addressed in a separate section of this 
testimony.
    The conservation and recovery of wolves entails a broad and 
disparate range of topics. In this testimony, I will highlight several 
of these topics.
    The essential issues surrounding wolves--livestock losses, 
interests pertaining to deer and elk hunting, perceived threat to human 
safety, and legal/political issues--these issues are all quite 
manageable.
    The health of many of our Nation's ecosystems depends on the 
presence of healthy, functioning wolf populations (see Supplementary 
Material #2 for a pictorial summary). Wolves are also important for a 
second reason. That is, wolves are important for what they represent. 
When we Americans talk about wolves we are speaking simultaneously 
about both the four-legged creature and a creature that represents our 
understanding for how we ought to relate to nature. If the bald eagle 
is sacred as a symbol of our national spirit, then wolves are sacred as 
a symbol of our relationship with nature on the whole.
    Consequently, our relationship with wolves is a bellwether for our 
relationship with nature and the Nation's natural resources. For 
similar reasons, our treatment of wolves through the U.S. Endangered 
Species Act, 1973 (ESA) is also a bellwether for how we will treat the 
ESA in general and for the hundreds of species whose well-being depends 
on ESA protection.
    For those two reasons, we must get it right by discovering a 
healthy relationship with wolves. We will be defined, in part, by the 
kind of relationship we forge with wolves and the fair treatment of our 
fellow citizens who are impacted by wolves in a genuinely negative 
manner. Those relationships, whatever they may be, will say much about 
the kind of people that we are.
    Opportunities to work through some important challenges of 
conservation are impaired if and when Congress intervenes by making 
decisions about individual species in the context of the ESA. Such 
intervention can seem like an expedited solution, but its larger effect 
is to inhibit progress on the broader issues. Congress, the Fish and 
Wildlife Service, state wildlife agencies, and NGOs can all do better 
to provide stronger leadership on these issues. The American people are 
supportive of this work and we are more than able to handle this work.
                       western great lakes wolves
    The Fish and Wildlife Service delisted gray wolves in the Western 
Great Lakes in December 2011. The decision was challenged in Federal 
court. In December 2014, the court rejected the Fish and Wildlife 
Service's delisting decision and ordered the Fish and Wildlife Service 
to restore ESA protections for gray wolves in the Western Great Lakes. 
An important basis for the court's decision was that a DPS cannot be 
designated for the purpose of delisting. Details of the court's opinion 
in this case and other related cases indicate that the root concern is 
considerably broader.
    The broader pattern of court decisions indicate that the ESA 
requires a species to be well-distributed throughout its historic 
range. That view is also well supported by conservation scholarship 
(e.g., Vucetich et al. 2006, Tadano 2007, Enzler & Bruskotter 2009, 
Geenwald 2009, Kamel 2010, Carroll et al. 2010, and Bruskotter et al. 
2014, and references therein). On those grounds, Western Great Lakes 
wolves should not be delisted.
    Failure to understand the legal definition of `endangered species' 
also lies at the heart of concerns for the management and delisting of 
gray wolves in the Northern Rocky Mountain DPS.

    Addressing these concerns would require the FWS to:

  1.  Develop policy on ``significant portion of range'' that is 
            consistent with the ESA. I believe the courts will 
            eventually decide that the current Fish and Wildlife 
            Service policy on this topic is inconsistent with the ESA. 
            (``Significant portion of its range'' is a key phrase in 
            the legal definition of endangered species.)

  2.  Develop a robust national plan for wolf conservation and 
            recovery.
                               red wolves
Background
    There are important scientific uncertainties about the taxonomic 
status of red wolves. Nevertheless, there is widespread agreement among 
experts that the red wolf is a listable entity under the ESA under any 
plausible scenario describing its evolutionary history (see, e.g., 
USFWS 2016). Consequently, a recovery program is required by law.
    The Fish and Wildlife Service had been managing red wolves through 
an ``adaptive management'' program that appears to have been effective 
in maintaining and growing the red wolf population. This adaptive 
management program included, among other strategies, sterilizing 
coyotes in order to reduce hybridization between wild red wolves and 
coyotes. Such hybridization adversely impacts the genetic constitution 
of the red wolf population and negatively impacts the ability of the 
red wolf population to grow and expand.
    The red wolf population has declined from more than 100 wolves to 
45 to 60 wolves in 2 years' time. The population is in extreme danger 
of extinction.
    Recently, the Fish and Wildlife Service ended its adaptive 
management program and reintroductions of red wolves on the landscape, 
while allowing landowners to request the removal of wolves by lethal 
and nonlethal means. Those circumstances will exacerbate an already 
dire situation.
    Concerns about the removal of wolves from private land need to be 
resolved because it is not possible to have a recovered red wolf 
population without red wolves living on private lands.
    Even though this red wolf population is designated as nonessential 
experimental, its loss would be a grave setback to red wolf recovery.
    Red wolves are adversely affected by poaching. Anti-poaching laws 
exist but are not enforced. Anti-poaching laws are not enforced through 
an informal policy known as the McKittrick policy. Under the McKittrick 
policy, prosecutors do not pursue cases of red wolf poaching if the 
defendant claims the killed animal was a coyote. Some additional 
background is provided in Cart (2013). The policy lends tacit support 
for poaching red wolves and is antithetical to red wolf recovery. In no 
other part of our American hunting heritage is mistaken identity a 
defense for poaching. The McKittrick policy should be discontinued.
Recovery Goals
    An explicit goal of the Fish and Wildlife Service's Red Wolf 
Recovery Plan is to grow the wild population of red wolves to 220 
individuals. With the population recently having declined significantly 
from approximately 100 animals to perhaps less than 50, management 
clearly is not moving toward, and may even be undermining, that 
established goal.
    Recent actions of the Fish and Wildlife Service are not moving 
toward that goal. These recent actions are more consistent with 
abandoning the conservation and recovery of the red wolf than with its 
advancement.
    In addition, these recovery goals were set 30 years ago and do not 
reflect the best available science about the size of a recovered 
population. Any formal scientific review of the recovery plan would 
undoubtedly recommend increasing the number of red wolves needed in the 
wild to qualify as recovered under the ESA. Until the recovery plan and 
the targets are updated, however, the Fish and Wildlife Service should 
work toward its established recovery goals.
    Last week the FWS announced significant adjustments in its approach 
to managing the red wolf recovery program. The announcement is 
explained in a memorandum (12 Sept 2016) to the Regional Director (of 
the FWS's Southeastern Region) from the Assistant Regional Director 
(USFWS 2016). The changes include a significant shift of effort away 
from the experimental population. The underlying rationale for the 
adjustment is ``maximizing efficient use of Services resources.'' In 
scholarly parlance, the rationale is ``conservation triage.''
    The concern is that conservation triage, when conducted according 
to the principles of best-available science, require a formal, 
explicit, and appropriately quantified analysis of the cost and 
benefits of various allocations of resources (e.g., Botrill et al. 
2008, McDonald-Madden et al. 2008). To my knowledge, no such analysis 
has been shared with the public.
    General concerns about the FWS's treatment of conservation triage 
were aptly summarized by Evans et al. (2016). They wrote that the Fish 
and Wildlife Service (FWS) has

        a prioritization system for analyzing trade-offs . . . [that] 
        includes 36 ranked categories grouped according to 4 factors: 
        degree of threat, potential for recovery, taxonomic uniqueness, 
        and conflict with human activities . . . However, it is well 
        established that FWS does not frequently use its system. 
        Instead, FWS's allocations are more often driven by political 
        and social factors [emphasis added], including congressional 
        representation, the number of employees in field offices, staff 
        workload, and opportunities to form partnerships and secure 
        matching funds. In addition, different regions and field 
        offices often use different allocation formulas.
        Without following a uniform and explicit system for 
        prioritizing recovery actions, FWS cannot efficiently allocate 
        its funding to meet recovery needs. That is partly why most 
        recovery funding has benefited only a small fraction of listed 
        species. Moreover, FWS cannot clearly articulate to Congress 
        and other stakeholders what recovery actions it will implement 
        with available funding and what additional achievements are 
        possible with more funding. As a result, the agency is poorly 
        positioned to request additional funding.

The authorship of Evans et al. (2016) included 18 scholars, including 
federally-employed scientists that collectively represent considerable 
ESA expertise.

    I am also concerned that the memorandum associated with 
announcement (i.e., USFWS 2016) seems to arrive at its conclusion, in 
part, through a misunderstanding or misrepresentation of some of the 
science that is cited (and should have been cited) in the memo, 
especially Gese et al. (2015), Murray et al. (2014), and Bohling et al. 
(2016; Evolutionary Applications).
    Because last week's announcement was (i) preceded by FWS actions 
that represent a significant shift in effort away from the experimental 
population and (ii) not accompanied by a formal and appropriately 
quantified analysis of the costs and benefits associated with various 
allocations of resources--for those two reasons, there is a concern 
that the announcement is an ad hoc explanation for the shift in focus 
and that the appropriateness of the announced shift was prejudged.
                             mexican wolves
    Mexican wolf recovery has faced a variety of challenges. I believe 
the three most important concerns at present are:
    The FWS has failed to fulfill its statutory obligation to develop a 
scientifically defensible recovery plan. In response to a legal 
challenge to FWS's failure to complete a recovery plan, the FWS 
committed in a settlement agreement to complete a recovery plan by 
November 30, 2017. More precisely, the Fish and Wildlife Service has 
been actively attempting to develop a science-based recovery plan for 
the past 15 years. On two occasions in the past 15 years, the Fish and 
Wildlife Service suspended the activities of the Mexican wolf recovery 
team just as the team was on the cusp of presenting its findings. The 
FWS is now working through a third effort. No stakeholder group thinks 
it is desirable for the recovery planning process to have taken so 
long. The delays have resulted in stakeholder mistrust and created 
opportunities to interfere with the scientific process, both of which 
ultimately impair Mexican wolf recovery. The delay in producing a 
recovery plan is clearly a problem in its own right, but it is also 
symptomatic of a deeper, chronic problem.
    The second challenge pertains to the reliable identification of 
best-available science as it pertains to the ESA. The challenge is 
illuminated, in part, by recent sociological research pertaining to 
grizzly bear recovery. The scholarship indicates that the problem is 
identifying best available science. Recent work shows that scientists 
``working for state or Federal wildlife agencies were 2-3 times more 
likely to recommend delisting grizzlies than those employed by academic 
institutions'' (Bruskotter et al. 2016). That paper goes on to say that 
these recommendations:

        were influenced not so much by an expert's knowledge or 
        assessment of risk but more so by their social environment; in 
        particular, the peers with whom an expert regularly interacts 
        and respects . . . our concern is that supposed scientific 
        judgments may well be heavily influenced by socially segregated 
        groups and their associated beliefs.

        Of course, it is not inherently problematic that an expert's 
        judgment is affected, in part, by how he or she expects 
        respected peers would judge a given circumstance. Nor is it 
        necessarily problematic that judgments about conservation 
        routinely depend on factors beyond science, like one's values 
        and emotions. Indeed, the dichotomy between facts and values 
        may well be a false dichotomy, as argued by the great American 
        philosopher Hillary Putnam . . .

        What's concerning here is that, as opposed to academic 
        scientists who are somewhat shielded from politics by tenure, 
        scientists in state and Federal agencies can face strong, top-
        down pressure to reach a particular decision.

    A full discussion of how to reliably identify the best-available 
science is beyond the scope of this written testimony. The relevance of 
this concern to Mexican wolf recovery planning is explained below.
    Recent deliberations in the development of a recovery plan may be 
of concern. In particular, state governments have been advancing the 
notion that recovery actions should be focused in Mexico. Other 
scientists on the recovery team believe that while Mexico is an 
important partner in wolf restoration, prudent recovery planning should 
remain focused on efforts in the United States. The concern is that the 
political expediency may end up being mistaken for a genuine spirit of 
state-Federal collaboration and the Fish and Wildlife Service will 
focus recovery efforts in Mexico when doing so is otherwise not 
justified. Details of this concern appear below.
    Focusing recovery efforts for Canis lupus baileyi in Mexico is 
unlikely to be successful because the lands in Mexico where recovery 
efforts might be focused are dominated by private land, higher 
densities of livestock, and the abundance of wild prey is not reliably 
known. Because the Fish and Wildlife Service wouldn't focus wolf 
recovery efforts on such lands if they existed in the United States, 
the Service should not find it wise to do so in Mexico.
    By contrast, recovery efforts would be successful if they focused 
on selected regions in Arizona, New Mexico, southern Colorado and 
possibly southern Utah. Details for this claim are presented in draft 
documents prepared about 2 years ago by the scientific sub-team of the 
Mexican wolf recovery team.
    Mexico is a valuable partner in efforts to restore Mexican wolves. 
However, the largest share of the task in recovering Mexican wolves 
will almost certainly fall within the borders of the United States.
    Two concerns that are sometimes expressed about efforts to recover 
C. lupus baileyi in the United States are:

  1.  The historic range of C. lupus baileyi did not extend as far 
            north as northern Arizona and northern New Mexico, and

  2.  C. lupus baileyi is physically smaller than other subspecies of 
            gray wolf; as such they are not well adapted to survive on 
            elk. Rather they are better suited to surviving on smaller 
            prey like deer and javelina.

    The concerns are addressed by noting:

  1.  The best-available science indicates that the historical 
            distribution of gray wolf subspecies involved wide zones of 
            overlap such that the traditional notion of historical 
            range, with sharp boundaries, does not apply well.

  2.  C. lupus baileyi living for many years on the Blue Range (in 
            Arizona and New Mexico) demonstrate that they are more than 
            capable of surviving very well on elk.
                     northern rocky mountain wolves
    Many of the issues surrounding recovery and management of wolves in 
the Northern Rocky Mountain DPS are identified and discussed in other 
sections of this testimony.
    In 2011, wolves in Montana and Idaho were delisted by an Act of 
Congress, i.e., a congressional rider to the ``Department of Defense 
and Full-Year Continuing Appropriations Act.'' That action compromised 
important opportunities for critical concerns and challenges to be 
worked out and addressed by key stakeholders (e.g., the Fish and 
Wildlife Service, state governments, NGOs, etc). Congressional 
delisting did not ameliorate those concerns and challenges.
                  human attitudes pertaining to wolves
    Attitudes pertaining to wolves are important for at least two 
reasons:

  1.  If attitudes of Americans were, on the whole, negative; then the 
            values and expressed values of Americans may be at odds 
            with the ESA's mandate to conserve and recover wolves.

  2.  If attitudes of Americans are, on the whole, supportive of wolf 
            recovery; then negative attitudes by smaller segments of 
            American society represent an important concern deserving 
            attention.

    Americans' attitudes toward large carnivores, including wolves, are 
largely positive. Those attitudes have also become increasingly 
positive over the past four decades (George et al. 2016; See also 
Supplementary Material #3). And, only 10 percent of Americans have 
significantly negative attitudes about wolves (George et al. 2016; See 
also Supplementary Material #3).

What accounts for the false impression of low tolerance for wolves?

        Some sociological studies suggest that attitudes toward wolves 
        have become more negative over time; these studies tend to 
        focus on hunters and rural residents living within wolves' 
        range (e.g. Treves et al. 2013, Ericsson & Heberlein 2003). 
        While it is important to address these attitudes (see below), 
        they are not representative of the interests of most Americans.

        Other research indicates that biased media coverage gives the 
        impression of low and deteriorating tolerance for wolves. For 
        example, Houston et al. (2010) examined North American news 
        coverage about wolves over a 10-year time period (1999-2008). 
        Of the 6,000 stories they analyzed, 72 percent of the news 
        media represented negative attitudes about wolves. They also 
        found that these negative expressions had increased 
        significantly over time. The concern is that media coverage 
        does not accurately represent Americans' attitudes (see George 
        et al. 2016).

        In 2003 the Utah Division of Wildlife Resources hosted a series 
        of scoping meetings concerning wolf management. About 80 
        percent of the 900 people who attended those meeting identified 
        `do not allow wolves in Utah' as a management priority. At the 
        same time (i.e., in 2003), a systematic study of attitudes 
        toward wolves found that 74 percent of Utahans exhibited 
        positive attitudes toward wolves.

    This case illustrates that state agencies can get the false 
impression of low support for wolves on the basis of their contact with 
the public. The concern is that agencies' contact with the public is 
not always representative of the public's attitude on the whole, or 
even of those who care about wildlife conservation issues. This 
circumstance is regrettable, but understandable, given that scoping 
meetings, for example, are often attended disproportionately by 
stakeholders who are especially upset about an issue. This case and 
these circumstances are detailed in Bruskotter et al. (2007).
    Psychological research indicates that intolerance for wolves (and 
other large carnivores) may originate from negative emotional reactions 
toward these species (Slagle et al. 2012) that are at gross odds with 
scientific knowledge about these species (Johannson et al. 2012). Other 
sociological research makes the case that negative attitudes about 
wolves are associated, less so with the negative impact of wolves, and 
more so with ``deep-rooted social identity'' (Naughton-Treves et al. 
2003; see also Heberlein 2012).
    While it is important to ameliorate the adverse impacts of wolves 
for those few individuals who are actually impacted, doing so is not 
likely to cause those individuals to have more positive attitudes, as 
was demonstrated by Naughton-Treves et al. (2003).
    Existing data indicate that public support for the ESA is 
widespread and strong. A sociological study concludes that most 
Americans (84 percent) are supportive of the ESA (Czech & Krausman 
1997). That study also indicated that 49 percent of respondents 
believed that ESA should be strengthened. And, only 16 percent believed 
it should be revoked or weakened.
    Recent polling data give the same positive impression. One poll, 
conducted in 2015, indicates that approximately 80 to 90 percent of 
Americans are supportive of the ESA (Harris Interactive 2011). Another 
poll, conducted in 2011, indicates that support for the ESA transcends 
political ideology. That is, support for the ESA by self-identified 
liberals, moderates, and conservatives is 96 percent, 94 percent, and 
82 percent, respectively (Tulchin Research 2015).
Conclusion
    The values and willpower of the American people, on the whole, 
support the ESA and wolf conservation. We are also a sufficiently 
resourceful and generous people to fairly redress the concerns and 
negative attitudes held by a small segment of Americans.
                              wolf hunting
    Wolf hunting in several states is intensive enough to raise the 
following concerns:

  1.  The Findings section of the ESA (Sec 2.(a)(3)) indicates that 
            species are valuable to the Nation and its people, in part, 
            for their ``ecological'' value. The primary ecological 
            value of wolves is largely associated with their influence 
            on deer and elk populations, including preventing deer and 
            elk from becoming overabundant. The ecological value of 
            wolves is impaired if they are hunted too intensively. 
            There is considerable evidence that deer and elk are 
            overabundant in numerous places where wolves are 
            intensively harvested or where wolves once lived but no 
            longer live (e.g., McShea et al. 1997, Bradford and Todd 
            2008; Dickson 2015). Overabundant deer and elk are 
            detrimental to human safety, agriculture, and forestry.

  2.  An important prospect for wolves achieving recovery is through 
            dispersal and range expansion from areas where wolf 
            populations are already established. The concern is that 
            range expansion is, at least, significantly curtailed by 
            intensive hunting of wolves.

  3.  Intensive hunting of wolves will likely impair the adequate 
            genetic connectedness of subpopulations in the Northern 
            Rocky Mountain gray wolf population. The importance of 
            adequate genetic connectedness is memorialized through 
            recovery criteria. (This concern is not ameliorated by the 
            feasibility of human-assisted dispersal. For details, see 
            the FWS's scientific peer-review of Wyoming's state 
            management plan conducted in December 2011.)

    Four important motivations for wolf hunting:

  1.  Hatred of wolves is an important motivation to hunt wolves. In 
            the past, hatred has motivated programs designed to 
            eliminate certain populations of wildlife. But, never 
            before in the history of America's hunting heritage has 
            hatred been an acceptable or ethical basis for hunting.

  2.  Wolf hunting is motivated, in part, by state game and fish 
            agencies' interest to satisfy elk and deer hunters. This 
            motivation may be sensible when all of the following 
            conditions hold: (i) wolves cause elk and deer abundance to 
            decline; (ii) wolf hunting (as implemented) results in a 
            significant increase in elk or deer abundance without 
            impairing the health and functioning of the wolf 
            population; (iii) increased elk or deer abundance will 
            translate to hunters' satisfaction with their hunting 
            experience; and (iv) interests to increase ungulate 
            abundance outweigh interest to decrease ungulate abundance. 
            In many cases, it is far from reasonably certain that all 
            of these conditions hold.

  3.  Some argue that wolf hunting is important for building tolerance 
            for wolves. However, sociological evidence suggests that 
            tolerance is not built by legal killing of wolves (e.g., 
            Treves et al. 2013, Browne-Nunez et al. 2015, Hogberg et 
            al. 2015).

  4.  Wolf hunting is also, in some cases and at least to some extent, 
            a kind of trophy hunt.

    Concerns raised by the above-mentioned motivations:

    Our treatment of wolf hunting is importantly connected to hunting 
in general. American participation in hunting has been declining for 
several decades. The demographic forces behind that decline are 
expected to continue into the foreseeable future. Those trends are of 
great concern to state wildlife agencies, and they are searching for 
ways to reverse those trends.
    While participation in hunting is low and declining, support for 
hunting by non-hunters is high. However, that support depends on the 
reason that is offered for why hunting takes place. For example, 85 
percent of Americans support hunting when motivated by the acquisition 
of meat. But only about 26 percent of Americans support hunting 
motivated by the acquisition of a trophy. For details, see Duda and 
Jones (2008).
    Because motivation for hunting affects support for hunting by non-
hunters and because the motivations for wolf hunting are weak, wolf 
hunting is liable to harm the honor of America's hunting tradition. We 
should not be surprised to see that wolf hunting works against 
interests to promote hunting in a society with waning participation in 
hunting.
    I believe that Congress, the Fish and Wildlife Service, and state 
wildlife agencies could be effective agents for better promoting our 
American hunting heritage.

            livestock, lethal control and conflict avoidance

    According to a 2011 USDA report on cattle death loss, wolf 
depredation represents less than half of 1 percent of all losses (USDA 
2011). For context, about half of all losses are health-related (e.g., 
digestive problems, respiratory problems, metabolic problems). Losses 
due to dogs are almost three times as common as wolf-related losses. 
Losses due to poisoning and theft are six times as common as wolf-
related losses. These statistics are similar within each of the states 
inhabited by wolves, i.e., Michigan, Minnesota, Wisconsin, Montana, 
Idaho, Wyoming, Washington, Arizona and New Mexico. Wolves are not a 
threat to the livestock industry.

    In certain instances, wolves compete with the interests of 
individual livestock owners. Those instances are important. The 
American people share a burden to assist in these instances. To this 
end, the states, the Fish and Wildlife Service, the Department of 
Agriculture and non-profit organizations all have programs to assist 
ranchers financially or with tools and management techniques to reduce 
conflicts with wolves. Several varieties of these programs exist, 
focusing variously on: compensation for livestock losses; cost-share 
and technical assistance for the use of nonlethal tools that reduce 
conflict; and incentive payments such as payment for presence. Where 
there is a need to improve these programs, they should be so improved.
Lethal and Non-Lethal Control
    Scientific evidence indicates that lethal control may be less 
effective than is commonly supposed (reviewed in Treves et al. 2016).
    Lethal control is also a source of public controversy, as it is 
shunned by some stakeholders. A critical component of meeting the 
challenges represented by lethal control (both the establishment of 
lethal control policy and the aftermath that can follow some instances 
of lethal control) is a robust multi-stakeholder committee, such as the 
Wolf Advisory Group in the state of Washington. The establishment and 
maintenance of such bodies is effortful, but also very important.
    Non-lethal methods are often effective for preventing depredation 
and avoid conflict before considering lethal control. There is a suite 
of nonlethal methods and strategies that have been effectively used in 
the Northern Rockies and the Southwest to do just this. These include: 
nonlethal predator deterrents such as livestock guarding dogs, fencing 
and fladry; increasing human presence on the landscape through range 
riders; use of scare tactics and alarms; best management practices for 
livestock and land such as changing grazing strategies and removing 
carcasses.
    Those tools have been used effectively, for example, in a 
community-based project in the Wood River Valley of Idaho--an area with 
between 10,000 to 22,000 sheep grazing per year. During the first 7 
years of the project (which began in 2007) fewer than five sheep were 
killed per year.
                              human safety
    Except in the very rarest of circumstances, wolves are not a threat 
to human safety. Incidents of wolves harming people are incredibly 
rare. Wolves generally avoid people and in almost all cases people have 
nothing to fear from wolves in the wild.
    In the 21st century, only two known deaths have been attributed to 
wild wolves in all of North America. There have been no deaths from 
wolves in the conterminous United States. Far more Americans are killed 
by bees or dogs than by wolves. Far more Americans are killed in deer-
car collisions. Our overall response to any threat to human safety 
should be, in part, commensurate with the risk of that threat.
    On the extraordinarily rare occasions when a wolf has appeared to 
be even potentially problematic, the appropriate agency (state or 
Federal) has moved swiftly to address any possible threat. For example, 
in May 2015, the Mexican Wolf Interagency Field Team lethally removed a 
wolf that was exhibiting unusual activity near residents and 
populations in Catron County, New Mexico.
    The false impression that wolves are a threat to human safety is 
fostered by the interaction between (i) a public that is easily and 
overly impressed by certain kinds of fear and (ii) those who fabricate 
or exaggerate the threat that wolves represent. The seriousness of 
these exaggerations is illustrated with two examples from Michigan:

    --A state Senator conveyed a ``horrifying and fictional'' account 
            of wolves threatening humans. That account was included in 
            a 2011 resolution urging the U.S. Congress to remove ESA 
            protections for gray wolves in Michigan. Later the Senator 
            conceded that the account was not true. See Oosting (2013) 
            for details.

    --Adam Bump, an official from the Michigan Department of Natural 
            Resources, ``misspoke'' when he was interviewed by Michigan 
            Radio (a National Public Radio affiliate) in May 2013. Bump 
            apparently said to the interviewer: ``You have wolves 
            showing up in backyards, wolves showing up on porches, 
            wolves staring at people through their sliding glass door 
            while they're pounding on it exhibiting no fear.'' Later, 
            Bump conceded that this did not happen. See Barnes (2013) 
            for details.
                             cited sources
Barnes, J. 2013. Michigan's wolf hunt: How half truths, falsehoods and 
one farmer distorted reasons for historic hunt. Nov 3rd, 2013. URL: 
http://www.mlive.com/news/index.ssf/2013/11/
michigans_wolf_hunt_how_half_t.html.

Bottrill MC, et al. 2008. Is conservation triage just smart decision 
making? Trends in Ecology & Evolution, 23(12), pp.649-654.

Bradford JB, Hobbs NT. 2008. Regulating overabundant ungulate 
populations: an example for elk in Rocky Mountain National Park, 
Colorado. Journal of Environmental Management, 86(3), 520-528.

Browne-Nunez C, et al. 2015. Tolerance of wolves in Wisconsin: a mixed-
methods examination of policy effects on attitudes and behavioral 
inclinations. Biological Conservation 189: 59-71.

Bruskotter JT, et al. 2007. Are attitudes toward wolves changing? A 
case study in Utah. Biological Conservation 139, 211-218.

Bruskotter JT, et al. 2014. Removing protections for wolves and the 
future of the U.S. Endangered Species Act (1973). Conservation Letters 
7(4):401-7.

Bruskotter JT, et al. 2016. Of bears and biases: scientific judgment 
and the fate of Yellowstone's grizzlies. The Conversation (June 21st, 
2016). URL: http: / / theconversation.com / of-bears-and-biases-
scientific-judgment-and-the-fate-of-yellowstones-grizzlies-59570.

Carroll C, et al. 2010. Geography and recovery under the U.S. 
Endangered Species Act. Conservation Biology 24(2):395-403.

Cart, J. 2013. U.S. sued over policy on killing endangered wildlife. LA 
Times 29 May 2013 URL: http: / / articles.latimes.com /2013 /may /29 /
local /la-me-0530-endangered-species-lawsuit-2013053.

Czech, B., Krausman, P.R. 1997. Public opinion on species and 
endangered species conservation. Endangered Species Update 14, 7-10.

Dickson, T. 2015. Shouldering its responsibility: FWP proposes 
additional hunting seasons to reduce the size of its burgeoning elk 
herds in parts of Montana. Montana Outdoors, Nov-Dec 2015. URL: http://
fwp.mt.gov/mtoutdoors/HTML/articles/2015/
ShoulderSeason.htm#.V9Voxecgkhc.

Duda, M. D., M. Jones. 2008. Public opinion on and attitudes toward 
hunting. Pp. 180-199 in Transactions of the North American Wildlife and 
Natural Resources Conference, Phoenix, Arizona, 23-28 March 2008 
(Wildlife Management Institute Publications Department, eds.). Wildlife 
Management Institute, Washington, DC.

Enzler SA, Bruskotter JT. 2009. Contested Definitions of Endangered 
Species: The Controversy Regarding How to Interpret the Phrase A 
Significant Portion of a Species Range. Va. Envtl. LJ, 27, 1.

Ericsson G, Heberlein TA. 2003. Attitudes of hunters, locals, and the 
general public in Sweden now that the wolves are back. Biological 
Conservation 111, 149-159.

Evans DM, et al. 2016. Species recovery in the united states: 
increasing the effectiveness of the endangered species act. Issues in 
Ecology Dec 1, 2016 (20).

George KA, et al. 2016. Changes in attitudes toward animals in the 
United States from 1978 to 2014. Biological Conservation 201, 237-242.

Goble DD, et al. 2012. Conservation-reliant species. BioScience, 
62(10), 869-873.

Greenwald D. 2009. Effects on species' conservation of reinterpreting 
the phrase ``significant portion of its range'' in the U.S. Endangered 
Species Act. Conservation Biology 23(6):1374-1377.

Harris Interactive (2011), Available at URL: https://www.defenders.org/
publications/endangered_species_act_poll.pdf.

Heberlein, T.A. 2012. Navigating environmental attitudes. Oxford 
University Press.

Hogberg J, et al. 2015. Changes in attitudes toward wolves before and 
after an inaugural public hunting and trapping season: early evidence 
from Wisconsin's wolf range. Environmental Conservation, doi 10.1017/
S037689291500017X.

Houston MJ, et al. 2010. Attitudes Toward Wolves in the United States 
and Canada: A Content Analysis of the Print News Media, 1999-2008. 
Human Dimensions of Wildlife 15:389-403.

Johansson M, et al. 2012. Factors governing human fear of brown bear 
and wolf. Human Dimensions of Wildlife 17, 58-74.

Kamel A. 2010. Size, biology, and culture: persistence as an indicator 
of significant portions of range under the Endangered Species Act. 
Ecology LQ, 37, 525.

McDonald-Madden, E.V.E., et al. (2008). Subpopulation triage: how to 
allocate conservation effort among populations. Conservation Biology, 
22(3), 656-665.

McShea WJ, et al. 1997. The science of overabundance: deer population 
ecology and management. Smithsonian Institution Press, Washington DC, 
USA.

Naughton-Treves L, et al. 2003. Paying for tolerance: The impact of 
livestock depredation and compensation payments on rural citizens' 
attitudes toward wolves. Conservation Biology 17, 1500-1511.

Oosting, J. 2013. Michigan Senator apologizes for fictional wolf story 
in resolution: `I am accountable, and I am sorry'. Mlive New Media, 
Nov. 7th, 2013. URL: http://www.mlive.com/news/index.ssf/2013/11/
michigan_senator_apologizes_fo.html.

Slagle KM, et al. 2012. The Role of Affect in Public Support and 
Opposition to Wolf Management. Human Dimensions of Wildlife 17, 44-57.

Tadano NM. 2007. Piecemeal delisting: Designating distinct population 
segments for the purpose of delisting gray wolf populations is 
arbitrary and capricious. Wash. L. Rev., 82, 795.

Treves A, et al. 2013. Longitudinal Analysis of Attitudes Toward 
Wolves. Conservation Biology 27:315-323.

Treves A, et al. 2016. Predator control should not be a shot in the 
dark. Frontiers in Ecology and the Environment, 14(7), 380-388.

Tulchin Research (2015), Available at URL: http://earthjustice.org/
sites/default/files/files/PollingMemoNationalESASurvey.pdf.

USDA 2011. Cattle Death Loss. (May 12, 2011). URL: http://
usda.mannlib.cornell.edu/usda/current/CattDeath/CattDeath-05-12-
2011.pdf.

USFWS 2016. Memorandum to the Regional Director, Southeast Region, 
dated 12 Sept 2016. RE: Recommended Decisions in Response to Red Wolf 
Recovery Program Evaluation. URL: https: // www.fws.gov/redwolf/docs/
recommended-decisions-in-response-to-red-wolf-recovery-program-
evaluation.pdf.

Vucetich JA, et al. 2006. The normative dimension and legal meaning of 
endangered and recovery in the U.S. Endangered Species Act. 
Conservation Biology 20(5):1383-90.

      SUPPLEMENTARY MATERIAL #1: A SERIES OF THREE ANNOTATED MAPS

Map 1--Approximate Range (Historic and Current) of Gray Wolves in the 
        Conterminous United States
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        
        
        
        

    .epsBefore human persecution, gray wolves occupied most of the 
conterminous United States (blue regions on the map). Currently, gray 
wolves occupy about 15 percent of their former range (purple regions on 
the map). The map is taken from Bruskotter et al. (2014) which explains 
how it would be feasible for wolves to inhabit more geographic range 
than they currently do. The blackened counties represent areas where 
wolves and humans would likely not co-exist well, owing to higher human 
population density. (Note: This map overestimates the size of areas 
where human population density exceeds 142 people/km<SUP>2</SUP>.)

Map 2--Distinct Population Segments of Gray Wolves Established by the 
        U.S. Fish and Wildlife Service on April 1, 2003

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        

    .epsA ``distinct population segment'' is a listable entity under 
The Endangered Species Act (ESA). According to FWS policy (61 Fed. Reg. 
4722, Feb. 7, 1996) determinations regarding the management of DPSs are 
to be based on the population's discreteness, its significant to the 
species to which it belongs, and whether the population would be deemed 
endangered or threatened if treated as a species.

    The DPS provision offers flexibility in recovering species that 
occupy large geographic ranges. For example, if gray wolves living in 
the Eastern DPS had reached recovery, but wolves in the southwest DPS 
had not reached recovery, then wolves in the Eastern DPS could be 
removed from the list of endangered species and wolves from the 
southwest DPS could continue receiving the ESA protection necessary for 
recovery. The DPS policy can also enhance FWS's ability ``to address 
local issues (without the need to list, recover, and consult rangewide) 
[and] result in a more effective program.'' Id.

    The DPSs represented on the map above depict the gray wolves' 
historic range. The dark hatched areas within the Western DPS and the 
Southwestern DPS on the map represent areas in which FWS manages gray 
wolves as nonessential, experimental populations under section 10(j) of 
the ESA. That provision authorizes the release of an endangered or 
threatened species or subspecies outside their current range ``if the 
Secretary determines that such release will further the conservation of 
such species.'' Section 10(j)(B). Moreover, species managed under 
Section 10(j) do not receive the full protection otherwise provided by 
the ESA. For example, an experimental population deemed ``not essential 
to the continued existence of the species,'' and which is not located 
within the National Refuge or National Park systems, is treated as a 
species proposed for listing and the FWS may not designated critical 
habitat for that population. Section 10(j)(C)(i)-(ii).

Map 3--Revised Distinct Population Segments of Wolves Established by 
        the U.S. Fish and Wildlife Service

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
        

    .epsThe Northern Rocky Mountain DPS was created in April 2009 (74 
FR 15123). Except for the state of Wyoming, gray wolves are delisted in 
this DPS.

    The Western Great Lakes DPS was created in December 2011 (76 FR 
81665). The Fish and Wildlife Service also delisted wolves in this DPS 
in December 2011. Three years later, in December 2014, a Federal court 
ordered the Fish and Wildlife Service to reinstate full ESA protection 
for wolves living in this DPS.

    The most recent census of the wild Mexican wolf population living 
in Arizona and New Mexico, conducted in December of 2015, found only 97 
individuals. Mexican wolves are listed as a subspecies. The Fish and 
Wildlife Service has been actively working on a recovery plan for 
Mexican wolves for the past 15 years.

    Red wolves are not represented on this map, but are discussed in 
section 3 of this testimony.

                       SUPPLEMENTARY MATERIAL #2

    The figure below, is taken from Ripple et al. 2014, which was 
published in Science. The figure represents a conceptual summary of 12 
scientific publications, and is a conceptual representation of what is 
known about how wolves influence the health of ecosystems.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                     SUPPLEMENTARY MATERIAL #3

    The figure below is taken from George et al. (2016).
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
 
                                 
                                 

Questions Submitted for the Record by Rep. Dingell to John A. Vucetich, 
 Ph.D., School of Forest Resources and Environmental Science, Michigan 
                        Technological University
    Question 1. You state in your testimony that when Congress 
legislates species listings and delistings under the ESA it inhibits 
progress on both conservation of and co-existence with wildlife. Will 
you please explain what you mean by that?

    Answer. When Congress passed the Endangered Species Act (ESA), it 
set a standard for conserving and co-existing with wildlife that a 
large majority of Americans clearly support. That widespread support 
would seem to be on a short-list of ideas that unify Americans in 
today's divisive political climate. For some species on some occasions, 
meeting the conservation standards of the ESA is a little more 
challenging--not overwhelming, just a little more challenging. 
Americans still support the ESA, even in those more challenging cases.1
    Moreover, the Fish and Wildlife Service (FWS) has the expertise and 
mandate to manage individual species in the context of the ESA and to 
mount any challenges that may arise along the way in a manner that is 
both fair-minded and scientifically sound. If the FWS should ever fall 
short of standards set forth by the ESA, then the Federal courts are 
the proper place for rectifying such a shortcoming. These processes--
led by the FWS and corrected when necessary by the courts--take time. 
The goodness of government is manifest when those processes are 
afforded the necessary time.
    In contrast to that honored model of governance, Congress has 
increasingly made efforts to influence the management of individual 
species in the context of the ESA. These efforts have been motivated by 
local and special interests aiming for outcomes that do not meet the 
conservation standards of the ESA. As such, they eviscerate the 
essential purpose of Federal governance and the ESA, which is to 
conserve species insomuch as doing so is a national interest. The most 
constructive role that Congress can play in these circumstances is to 
encourage and further enable the FWS to fulfill its mandate.
    In this way, congressional legislation focused on individual 
species inhibits progress toward conservation.
    These concerns--expressed above in general form--are exemplified by 
the management of wolves under the ESA and detailed in the subsequent 
pages of this Q&A section.

    Question 2. Can you please speak to the claim that wolves 
negatively impact deer or other ungulate populations?

    Answer. Wolves are not negatively impacting the health or vitality 
of any deer or elk population. Several considerations indicate that 
concerns over the impact of wolves on deer and elk hunting are 
overstated:

  1.  Healthy wolf populations are vital to the health of ecosystems 
            inhabited by ungulates, as summarized by the image included 
            with my written testimony (see page 53). The figure 
            represents a conceptual summary of 12 scientific 
            publications, and is a conceptual representation of what is 
            known about how wolves influence the health of ecosystems.

  2.  Ungulates are widely acknowledged--even by scientists working for 
            state wildlife agencies--to be overabundant in many 
            portions of current and historic wolf range. Overabundant 
            ungulate populations are widely understood to be of 
            significant detriment to agriculture, forestry, private 
            property, and human safety (deer-vehicle collisions).

  3.  Ungulate hunting is successful in all states where wolves live. 
            For example, in 2015 Idaho experienced record high harvest 
            of white-tailed deer and the highest harvest of elk since 
            1996. The high numbers were not attributed to the state's 
            control of wolf predation, but instead to a series of mild 
            winters (Idaho Fish and Game 2016). Moreover, hunters' 
            dissatisfaction with ungulate harvest, where it occurs, is 
            likely connected less with any discernable effect of wolves 
            and more with ill-informed perceptions of how wolves impact 
            ungulate populations, lack of trust in state wildlife 
            agencies, and unrealistic expectations concerning the 
            harvest levels. It would be valuable for state wildlife 
            agencies to tend those likely sources of dissatisfaction.

  4.  In many places where ungulates are less abundant, poor habitat is 
            believed to be the limiting factor, not wolf predation.

  5.  It is normal and healthy for ungulate populations to fluctuate in 
            response to many factors--the most important factors being 
            winter severity, habitat quality, and human hunting. It is 
            a deeply unrealistic expectation to think that ungulate 
            abundance would not fluctuate over time.

           Moreover, observing a decline in ungulate abundance is not 
        evidence that wolf predation is the cause of decline. For 
        example, during a congressional oversight hearing held on 
        September 21, Rep. Benishek seemed to suggest that wolf 
        predation was the reason the Michigan Department of Natural 
        Resources has allowed for fewer opportunities to hunt 
        antlerless deer in Upper Michigan in recent years. However, the 
        Michigan Department of Natural Resources indicates those 
        decisions were a response to a string of severe winters that 
        were the primary cause of recent decline in deer abundance (MI-
        DNR 2016). Three of the last four winters in Upper Michigan 
        have been severe.

  6.  Wolf predation is a relatively small source of ungulate 
            mortality. For example, information provided by the 
            Wisconsin DNR indicates that hunters kill approximately 
            nine times as many deer than do wolves, vehicle-deer 
            collisions kill approximately the same number of deer as do 
            wolves, starvation in a typical winter kills nearly four 
            times more deer than do wolves. In many cases wolves are 
            killing deer that are less fit and vulnerable to 
            starvation. In the absence of wolves, more deer would 
            likely die of starvation (Wisconsin Department of Natural 
            Resources 2009). Finally, poachers and hunters who do not 
            retrieve the deer they shoot likely kill considerably more 
            deer than do wolves.

           This assumes that wounding losses are about 10 percent of 
        the harvest and that rates of poaching are on the order of 4 
        percent. Those rates of wounding loss and poaching are 
        consistent with peer-reviewed literature (e.g., Unsworth et al. 
        1993, Van Deelen et al. 1997, Nixon et al. 2001, Mayer et al. 
        2002, Grovenburg et al. 2011, McCorquodale et al. 2011). By 
        those rates (10 percent and 4 percent), these sources of deer 
        death are approximately 40-50 percent more than what wolves 
        kill, when considered in conjunction with information presented 
        in Wisconsin DNR (2009).

  7.  Finally, the views of Carter Niemeyer seem appropriate. Mr. 
            Niemeyer is an avid hunter and served for 6 years as the 
            wolf recovery coordinator for the U.S. Fish & Wildlife 
            Service. He was also a long-time trapper with USDA Wildlife 
            Services, and involved with both lethal and nonlethal 
            control of wolves. Mr. Niemeyer stated in an interview with 
            Outdoor Idaho: ``. . . I don't think [wolves are] any 
            excuse for not being a successful hunter. There's 
            tremendous numbers of game animals available to sportsman 
            and with a little effort and sleuth, you still have great 
            potential to collect a wild animal from hunting. I don't 
            know what the excuse was before wolves, but it has become 
            the main excuse now for unsuccessful hunters. I mean, there 
            are just so many other issues involved in why hunters are 
            not successful, but the wolf is a lame excuse.''

    Question 3a. Is the wolf population increasing in the Great Lakes?

    Answer. According to records collected and kept by Michigan, 
Minnesota, and Wisconsin, wolf abundance in the Great Lakes region (MI, 
WI, MN) has either been stable since 2011 or there is some evidence to 
suggest that abundance has declined slightly over that time frame. 
There is no evidence to suggest that wolf abundance in the Great Lakes 
region has increased since 2011.This perspective of wolf abundance 
emerges from state-specific trends in wolf abundance as reported by 
state wildlife agencies in Michigan, Wisconsin, and Minnesota:

  1.  Wisconsin wolves (representing 20 percent of the Great Lakes 
            population) having increased in by an estimated 16 percent 
            over recent years.

  2.  Michigan wolves (representing 20 percent of the Great Lakes 
            population) having been likely stable in recent years. 
            (Though point estimates of abundance have declined slightly 
            by about 10 percent between 2012 and 2016, from 687 wolves 
            to 618 wolves.)

  3.  Minnesota wolves (representing 60 percent of the Great Lakes 
            population) having likely declined by approximately 24 
            percent in recent years (2008-2013).

    No less important than the abovementioned patterns are the 
following ideas:

  1.  There are unresolved concerns pertaining to the methods used in 
            Wisconsin for estimating wolf abundance. These concerns 
            give reason to doubt the increase in wolf abundance 
            reported by the state of Wisconsin. These concerns are 
            explained, in part, in Treves et al. (2013).
  2.  Intense persecution by humans was likely an important contributor 
            to decline in Minnesota. That decline has brought the 
            number of wolves in Minnesota close to state's minimum goal 
            of 1,600 wolves and close to the Federal recovery goal of 
            1250 to 1400 wolves. That circumstance raises concern about 
            the existence of adequate regulatory mechanisms which is a 
            requirement for delisting.

  3.  Wolf management should be focused on treating the regularly 
            raised concerns about wolves--livestock depredation, 
            interests pertaining to deer and elk hunting, and perceived 
            threat to human safety. The magnitude of those concerns are 
            not well correlated with fluctuations in wolf abundance. 
            Focusing efforts to manage those concerns on attempts to 
            influence wolf abundance, per se, through hunting or 
            trapping are liable to be ineffectual. For details, see 
            Vucetich et al. (2013).

    Question 3b. Are wolves really a threat to livestock in the Great 
Lakes region, or in other areas where wolves are present?

    Answer. According to a 2011 USDA report on cattle death loss, wolf 
depredation represents less than half of 1 percent of all losses (USDA 
2011). For context, about half of all losses are health-related (e.g., 
digestive problems, respiratory problems, metabolic problems). Losses 
due to dogs are almost three times as common as wolf-related losses. 
Criminal losses, due to poisoning and theft, are six times as common as 
wolf-related losses. These statistics are similar within each of the 
states inhabited by wolves, i.e., MI, MN, WI, MT, ID, WY, WA, OR, AZ 
and NM. Wolves are not a threat to the livestock industry in any state 
or region of the country.
    One response to the facts described just above is to argue that no 
industry of any kind should accept losses on the order of 0.5 percent. 
That response would represent a basic misunderstanding of the 
circumstance. The circumstance is: Of the lost cattle, about 0.5 
percent are attributable to wolvesOf existing head of cattle, some 92 
million head, wolves kill approximately one hundredth of 1 percent--
tantamount to a rounding error.
    An industry interested in managing its losses would tend to focus 
on larger, higher-ranking sources of loss. Of the 20 categories of loss 
tracked by the USDA, wolves are the 6th least important. For example, 
even domestic dogs and vultures are each more important sources of 
loss.
    Disturbing images of wolf-killed livestock are sometimes presented 
as evidence for the failure of efforts to manage wolf-livestock 
conflicts. This is analogous to presenting emotion-laden images of a 
car accident as evidence that the Nation's transportation system is, on 
the whole, a failure. A car wreck and a lost head of livestock are 
certainly both unfortunate events, but neither is evidence of 
widespread or systematic failure.
    In certain instances, wolves compete with the interests of 
individual livestock owners. Those instances are important. The 
American people share a burden to assist in these instances. To this 
end, the states, the FWS, the Department of Agriculture and non-profit 
organizations all have programs to assist ranchers financially or with 
tools and management techniques to reduce conflicts with wolves (e.g., 
range riders, moving female livestock to give birth in safer locations, 
cleaning up stillborn young, electric fencing, electrified fladry or 
guard animals). Several varieties of these programs exist, focusing 
variously on: compensation for livestock losses; cost-share and 
technical assistance for the use of nonlethal tools that reduce 
conflict; and incentive payments such as payment for presence of live 
wolves. These programs are very beneficial. Where there is a need to 
improve these programs, they should be so improved.
    Related to this concern, the legalized killing of carnivores to 
prevent livestock loss does not have a strong record of effectiveness 
(Treves et al. 2016). Most studies on the topic conclude that the 
killing has no positive effect and in some cases a counter-productive 
effect. Two studies of lethal control offer a countervailing sense. One 
of these studies concluded that lethal control had a slight effect in 
reducing depredation (Herfindal et al. 2005) and the other reported a 
significant reduction (Bradley et al. 2015). The concern is that those 
results are not reliable because both studies are associated with non-
trivial methodological shortcomings (Treves et al. 2016).
    Treves et al. (2016) also reviewed studies aimed at assessing the 
efficacy of nonlethal control. Of the studies reviewed, only two were 
robustly designed (i.e., random assignment of treatments) and thereby 
capable of providing reliable inference. One of these studies involved 
livestock-guarding dogs and the other involved ``fladry,'' a visual 
deterrent. In both studies the nonlethal control method resulted in 
reduced depredation.

    Question 4. Can you address the premise that liberalizing the 
culling or trophy hunting of wolves will reduce poaching and livestock 
loss, and improve the population status of native carnivores?

    Answer. Some advocates of wolf hunting assert that increased 
allowances for legal wolf killing (hunting, lethal control, culling) 
will reduce poaching and improve attitudes about wolves--thereby 
improving the conservation status of wolves. This view is not supported 
by the best-available science nor is it supported by basic moral 
values.
    Best-available science--For example, sociological research focused 
on hunters and livestock owners living within the geographic range of 
Wisconsin wolves indicates that those groups were, on the whole, as 
inclined to poach wolves before the liberalization of legal wolf 
killing as afterward (Browne-Nunez et al. 2015). These groups also had 
similarly negative attitudes about wolves, before and after the 
liberalization of legal wolf killing. The same conclusion is supported 
by a different study using different research methods (Hogberg et al. 
2015). A third study, relying again on different research methods, also 
found that tolerance for wolves declined and inclination to poach 
increased throughout an 8-year period during which legal wolf killing 
was liberalized (Treves et al. 2013). Surveys conducted by the Montana 
Dept. of Fish and Game also indicate that tolerance for wolves among 
hunters was similarly low before and after wolf hunting (Pauley 2013).
    Those studies focusing on attitudes and behavioral intentions are 
bolstered by ecological studies suggesting that rates of poaching 
increased with the liberalization of legal killing in Wisconsin 
(Chapron and Treves 2016; Treves et al. 2016a). Moreover, the claim 
that liberalized legal killing of wolves would improve the conservation 
status of wolves is not supported by the tendency of wolf populations 
to have declined in response to states' management of legal wolf 
killing.
    Related to this concern, the legalized killing of carnivores to 
prevent livestock loss does not have a strong record of effectiveness 
(Treves et al. 2016b). Most studies on the topic conclude that the 
killing has no positive effect and in some cases a counter-productive 
effect. Two studies of lethal control offer a countervailing sense. One 
of these studies concluded that lethal control had a slight effect in 
reducing depredation (Herfindal et al. 2005) and the other reported a 
significant reduction (Bradley et al. 2015). The concern is that those 
results are not reliable because both studies are associated with non-
trivial methodological shortcomings (Treves et al. 2016b).
    Treves et al. (2016b) also reviewed studies aimed at assessing the 
efficacy of nonlethal control. Of the studies reviewed, only two were 
robustly designed (i.e., random assignment of treatments) and thereby 
capable of providing reliable inference. One of these studies involved 
livestock-guarding dogs and the other involved ``fladry,'' a visual 
deterrent. In both studies the nonlethal control method resulted in 
reduced depredation.
    Basic moral values [This section is a synopsis of a portion of 
Vucetich and Nelson (2014)]--Some advocates of wolf hunting believe 
that legal wolf hunting would be beneficial to wolf conservation 
because it would lead to a reduction in rates of poaching by inspiring 
respect for wolves among those who are currently intolerant. This view 
is at odds with basic moral values for several reasons:
    First, many instances of wolf poaching are wrong because they are 
primarily motivated by hatred of wolves. These instances of poaching 
qualify as wrongful deaths, if not a hate crime against nature. To 
legalize such killings does not make them any less wrong. Moreover, 
people who threaten to poach wolves unless wolf killing is legalized 
are engaging a kind of ecological blackmail by threatening harm to 
wolves unless their demands to kill wolves are met. If poaching is 
wrong because it represents an adequate reason to kill, then it is not 
made right simply by legalizing the killing of wolves.
    Second, this argument is a perverse misinterpretation of the 
relationship between respect and hunting. Hunting reinforces or deepens 
respect for the deer because the hunter knows the deer sacrificed its 
life for the sustenance of the hunter. In this relationship, respect 
exists before the hunting; the hunting did not generate respect ex 
nihilo. In other words, the hunter respects the deer in spite of 
killing him, not because she killed him. By contrast, the wolf-hater's 
a priori attitude is hatred, not respect. Thus, his killing the wolf is 
an exercise of hatred--he would likely celebrate the killing. Without 
moral concern for the wolf, the wolf's sacrifice cannot be recognized. 
For hunters, recognition of sacrifice is necessary for the realization 
of respect.
    Third, there is a perverted sense in which allowing those who hate 
wolves to hunt wolves would result in respect for wolves. That is, 
hatred is sometimes dissolved when the hater becomes familiar with his 
victim, and hunting provides an opportunity to become familiar with the 
victim. However, if this reasoning were generally appropriate, killing 
would be a commonly prescribed therapy for unjustified hatred. It is 
not.
    Wolf intolerance is likely not distinct from other irrational 
intolerances (such as racism or sexism). That is, no one expects 
individual wolf haters to change their attitudes. Instead, over time 
their behaviors become less tolerated and their attitudes become less 
common. To paraphrase Martin Luther King, the long arc of history bends 
toward justice.

    Question 4 makes reference to whether trophy hunting, in 
particular, is a proper management tool for wolves. In general, 
wildlife management is proper when it can provide robust answers to 
three questions: What is the goal?, Why is the goal appropriate?, and 
How will planned management actions achieve that goal?. These questions 
have not been robustly answered in any of the lower 48 states where 
wolf hunting has occurred. Those instances represent improper wildlife 
management.
    Michigan illustrates the concern, where the stated reason for wolf 
hunting was to protect livestock and human safety. While protecting 
human safety and livestock are laudable goals, there is little reason 
to think that wolf hunting as planned would have alleviated either 
concern. The weakness of those reasons for wolf hunting lead a 
reasonable person to believe that the real (unstated) reason to hunt 
was to mollify hatred for wolves held by a small minority. Hatred is 
not an acceptable reason to hunt any creature. For a formal account of 
this perspective on Michigan wolf hunting, see Vucetich et al. (2016).
    The properness of wildlife management might also be judged by the 
North American Model of Wildlife Conservation, which is held in high 
regard by many hunting organizations, wildlife professionals, and state 
agencies. A detailed analysis of wolf hunting in Michigan clearly 
indicates that wolf hunting violates four of the seven principles of 
the North American Model--i.e., wildlife should only be killed for a 
legitimate purpose, wildlife is a public trust, and principles of 
democracy and best-available science. For details, see Vucetich et al. 
(2016).

    In other states, wolf hunting has been motivated, in part, by state 
game and fish agencies' interest to satisfy a segment of the hunting 
community. This motivation may be sensible when all of the following 
conditions hold:

    <bullet> wolves cause an appreciable decline elk or deer abundance;

    <bullet> wolf hunting (as implemented) results in a significant 
            increase in elk or deer abundance without impairing the 
            health and functioning of the wolf population;

    <bullet> increased elk or deer abundance will translate to 
            appropriate levels of hunters' satisfaction with their 
            hunting experience; and

    <bullet> interests to increase ungulate abundance outweigh interest 
            to decrease ungulate abundance.

    That all those conditions routinely do not hold is indicated by the 
following circumstances:

    <bullet> Ungulate populations in many portions of current and 
            former wolf range are overabundant to the point of causing 
            detriment to agriculture, livestock, forestry, private 
            property, and human safety (deer-vehicle collisions). This 
            circumstance is widely acknowledged by state and Federal 
            wildlife agencies.

    <bullet> Of the elk populations deemed by state wildlife agencies 
            to be under-abundant, poor habitat rather than predation is 
            thought (by state biologists) to be the concern.

    <bullet> Some state plans for wolf hunting, if implemented, might 
            reduce wolf abundance to the point of increasing ungulate 
            abundance, but would also risk reducing wolf abundance to 
            the point of falling below minimum levels (Wyoming is an 
            example). Other state plans entail essentially no such 
            risk, but also have essentially no chance of resulting in 
            increased ungulate abundance (Michigan is an example).

    <bullet> Hunting success is relatively high in states such as Idaho 
            and Montana.

    Question 5. Are wolves a threat to humans?

    Answer. Except in the very rarest of circumstances, wolves are not 
a threat to human safety. Incidents of wolves harming people are 
incredibly rare. Wolves generally avoid people and in almost all cases 
people have nothing to fear from wolves in the wild.
    During the oversight hearing held on September 21, 2016, Rep. 
LaMalfa (CA) mentioned an incident in New Mexico, where parents placed 
their children in ``cages'' on the roadside while waiting to be picked 
up by a school bus. Associate Professor Daniel MacNulty, wolf expert 
and close colleague, said of this episode (Berlin 2013),

        ``. . . I think people are over-reacting here, as is often the 
        case with wolves . . . wolves are not going to be attacking 
        children at the bus stop. The suggestion that they would is 
        fear-mongering and unhinged from the facts. I think the ``kid 
        cages'' are a publicity stunt designed to stoke opposition to 
        Mexican wolf recovery in general and to the Federal Government 
        in particular.''

    I agree with that assessment and I am unaware of any one 
knowledgeable of wolves who disagrees with that assessment.
    Even a casual perusal of press coverage plainly reveals that these 
``cages'' had, prior to any concern about wolves, been serving as 
``shelters'' to protect children from inclement weather (see for 
example a Fox News report by Miller 2013). The shelters were 
transformed in the public's mind into notorious ``cages'' after they 
were portrayed as such by special interests with an opposition to 
wolves that is not rooted in an accurate understanding of wolves.
    In the 21st century, only two known deaths have been attributed to 
wild wolves in all of North America. There have been no deaths from 
wolves in the conterminous United States. Far more Americans are killed 
by bees or dogs than by wolves. Far more Americans are injured or 
killed in deer-vehicle collisions (U.S. Dept of Transportation). Our 
overall response to any threat to human safety should be, in part, 
commensurate with the risk of that threat. Moreover, it should be 
acknowledged that large carnivores are, on the whole, beneficial to 
human safety by helping to reduce the number of deer-vehicle collisions 
(Gilbert et al. 2016).
    On the extraordinarily rare occasions when a wolf has appeared to 
be even potentially problematic, the appropriate agency (state or 
federal) has moved swiftly to address any possible threat. For example, 
in May 2015, the Mexican Wolf Interagency Field Team lethally removed a 
wolf that was exhibiting unusual activity near residents and 
populations in Catron County, New Mexico.

    The false impression that wolves are a threat to human safety is 
fostered by the interaction between (i) a public that is easily and 
overly impressed by certain kinds of fear and (ii) those who fabricate 
or exaggerate the threat that wolves represent. The seriousness of 
these exaggerations is illustrated with two examples from Michigan:

    -- A State Senator conveyed a ``horrifying and fictional'' account 
            of wolves threatening humans. That account was included in 
            a 2011 resolution urging the U.S. Congress to remove ESA 
            protections for gray wolves in Michigan. Later the Senator 
            conceded that the account was not true. See Oosting (2013) 
            for details.

    -- Adam Bump, an official from the Michigan Department of Natural 
            Resources, ``misspoke'' when he was interviewed by Michigan 
            Radio (a National Public Radio affiliate) in May 2013. Bump 
            apparently said to the interviewer: ``You have wolves 
            showing up in backyards, wolves showing up on porches, 
            wolves staring at people through their sliding glass door 
            while they're pounding on it exhibiting no fear.'' Later, 
            Bump conceded that this did not happen. See Barnes (2013) 
            for details.

    Question 6. Can you further explain why you think wolves should not 
be delisted?

    Answer. A species should not be delisted until it is recovered. A 
species is recovered when it no longer fits the legal definition of an 
endangered species, i.e., when it is not ``in danger of extinction 
throughout all or a significant portion of its range'' and when the 
species is unlikely to fit the definition in the foreseeable future. 
The quoted text is the legal definition of an endangered species as 
specified in the Endangered Species Act (ESA). That legal definition 
means that the ESA has at least some restorative mandate beyond 
ensuring that a species is merely not at risk of extinction. Recovery 
requires a species to be broadly distributed throughout portions of its 
historic range.
    Those views of recovery are well supported by considerable 
scholarship (e.g., Vucetich et al. 2006, Tadano 2007, Enzler & 
Bruskotter 2009, Geenwald 2009, Kamel 2010, Carroll et al. 2010, and 
Bruskotter et al. 2014, Nelson et al. 2016, and references therein), 
congressional intent (H.R. Report 412, 93rd Congress, 1973), the 
history of endangered species legislation in the United States (see the 
section entitled ``Why Focus on Significant Portion of Range? '' 
Vucetich et al. 2006), the Findings section of the ESA (see second from 
last paragraph of Nelson et al. 2016), and are consistent with numerous 
decisions made by several Federal courts (e.g., Enzler and Bruskotter 
2009).
    By this view of recovery, wolves in the conterminous United States 
are not recovered and should not be delisted because wolves occupy only 
about 15 percent of their former range.
    During the oversight hearing held on September 21, 2016, Rep. 
Benishek (MI) seemed to indicate that this view of recovery requires a 
species to occupy all of its former range. The explanation offered 
above indicates that this plainly not true. Moreover, no one working to 
better understand the legal meaning of recovery has ever suggested this 
to be the case. For additional discussion on this point see Nelson et 
al. (2016).
    Some have argued that this view of recovery requires a species to 
occupy all of its former range. The explanation offered above indicates 
this plainly not true. Moreover, no one working to better understand 
the legal meaning of recovery has ever suggested this to be the case. 
For additional discussion on this point see Nelson et al. (2016).
    The FWS recently argued, in a proposed rule, that wolves should be 
delisted because they currently occupy all of the range that they can 
possibly occupy (78 Fed. Reg. 35,664). There are two concerns with this 
position. First, the inability to achieve recovery is not a reason to 
delist. Second, abundant evidence indicates that wolves could feasibly 
occupy portions of their former range that they do not currently 
occupy. For details, see Bruskotter et al. (2014).
    The Director of the FWS seems to suggest, in a letter to the editor 
of the New York Times (September 4, 2014) that limited resources 
available to the FWS are a reason to delist wolves and that delisting 
wolves would allow the FWS to focus resources on other species in 
greater need of attention. Limited resources is not an adequate reason 
to delist a species prior to its being recovered. If limited resources 
prevent the FWS from actively recovering a species, that species should 
remain protected by the ESA until the FWS has sufficient resources to 
actively recover that species. For details, see Nelson and Vucetich 
(2014).
    No less important than the legal meaning of endangerment, is that 
recovery requires the existence of adequate regulatory mechanisms (Sec. 
4(a)(1)(D) of the ESA). There are significant concerns that such 
mechanisms are not in place. These concerns are reflected, in part, by 
two Federal courts decisions, one pertaining to Minnesota and Wyoming 
(HSUS et al. v. Jewell et al. 2014. U.S. District Court, D.C. and 
Defenders of Wildlife et al. v. Jewell et al. U.S. District Court, 
D.C.). Related concerns have been raised for wolves in Wisconsin. [Dr. 
Adrian Treves of University of Wisconsin and colleagues sent an open 
letter to the FWS in 2014, describing concerns about use of the best 
available science in the state of Wisconsin's post delisting monitoring 
report on gray wolves. http://faculty.nelson.wisc.edu/treves/reports/
Letter%20to%20USFWS/Response_to_Acting_Director_Wooley_USFWS.pdf.]

    Adequate understanding of what constitutes wolf recovery will 
require the FWS to:

  1.  Develop policy on ``significant portion of range'' that is 
            consistent with the ESA. I believe the courts will 
            eventually decide that the current FWS policy on this topic 
            is inconsistent with the ESA.

  2.  Develop a robust national plan for wolf conservation and 
            recovery.

    Question 7. What are public attitudes currently toward large 
carnivores, such as wolves?

    Answer. Americans' attitudes toward large carnivores, including 
wolves, are largely positive. Recent research indicates that attitudes 
toward wolves have become increasingly positive over the past four 
decades (George et al. 2016). In fact, 3 in 5 Americans hold a positive 
attitude toward wolves only 1 in 10 Americans have significantly 
negative attitudes about wolves (George et al. 2016; see figure 
included with my written testimony (see page 54). Even those living in 
wolf range have a largely positive attitude about wolves. For example, 
only 18 percent of non-tribal residents living within the geographic 
range of wolves in Wisconsin had a very unfavorable view of wolves 
(Shelley et al. 2011).
    Despite widespread positive attitudes about wolves, some have a 
false impression that the public has a low tolerance for wolves. There 
are at least three explanations for this misimpression. First, some 
sociological studies suggest that attitudes toward wolves have become 
more negative over time; however, these studies tend to focus on 
hunters, those familiar with hunting, and rural residents living within 
wolves' range (e.g. Treves et al. 2013, Ericsson & Heberlein 2003). [A 
poll of attitudes about wolves was conducted by the state of Montana in 
2012. The plurality of respondents in that poll expressed being very 
intolerant of wolves (Montana Fish, Wildlife & Parks 2012). 
Methodological details of that poll have not, to our knowledge, been 
subjected to scientific peer-review. A concern with that poll is that 
the results are an artifact of disproportionate or misrepresentative 
sampling.] While it is important to address these attitudes, they are 
not representative of the interests of most Americans.
    Second, other research indicates that biased media coverage gives 
the impression of low and deteriorating tolerance for wolves. For 
example, Houston et al. (2010) examined North American news coverage 
about wolves over a 10-year time period (1999-2008). They found 72 
percent of 30,000 paragraphs they analyzed, represented wolves 
negatively. They also found that these negative expressions had 
increased significantly over time. Yet, media's coverage of wolves does 
not accurately represent Americans' attitudes, and such media bias 
could lead to distorted perceptions of public opinion (see George et 
al. 2016).
    Third, the perceptions of wildlife professionals working for state 
agencies may be distorted by interactions with individuals who are not 
representative of the broader public or even the interest groups to 
which they belong. An example serves to illustrate: In 2003 the Utah 
Division of Wildlife Resources hosted a series of scoping meetings 
concerning wolf management. About 80 percent of the 900 people who 
attended those meeting identified ``do not allow wolves in Utah'' as a 
management priority. At the same time (i.e., in 2003), a systematic 
study of attitudes toward wolves found that 74 percent of Utahans 
exhibited positive attitudes toward wolves.
    This case illustrates that state agencies can get the false 
impression of low support for wolves on the basis of such interactions. 
The concern is that agencies' contact with the public is not always 
representative of the public's attitude on the whole, or even of those 
who care about wildlife conservation issues. This circumstance is 
regrettable, but understandable, given that scoping meetings, for 
example, are often attended disproportionately by stakeholders who are 
especially upset about an issue. This case and these circumstances are 
detailed in Bruskotter et al. (2007).
    With respect to the small segment of Americans with negative 
attitudes about wolves and other carnivores, there is value in 
understanding the details of those attitudes. Psychological research 
indicates that intolerance for wolves (and other large carnivores) may 
originate from negative emotional reactions toward these species, and 
perceptions of wolves' impacts that are grossly at odds with scientific 
knowledge about these species (Slagle et al. 2012, Johannson et al. 
2012).
    Other sociological research makes the case that poor attitudes 
about wolves are associated, less so with the perceived negative impact 
of wolves, and more so with ``deep-rooted social identity'' (Naughton-
Treves et al. 2003; see also Heberlein 2012).
    While it is important to ameliorate the financial losses caused by 
wolves for those few individuals whose animals are actually harmed, 
doing so is not likely to cause those individuals to have more positive 
attitudes, as was suggested by Naughton-Treves et al. (2003) and 
demonstrated longitudinally by Treves et al. 2013, Browne-Nunez et al. 
2015, and Hogberg et al. 2015.
    A basic principle of wildlife management is that it be based on 
sound science. For that reason, it would be poor governance to manage a 
wildlife population on the basis of attitudes about wildlife that are 
profoundly untethered from scientific knowledge about wildlife. The 
proper role of government in a case like this is to work to ease the 
misperceptions of that small segment of Americans.
    Unfortunately, there are notable examples of state governments 
working to fuel hatred of wolves and inflame tensions between interest 
groups. For example, days after Congress delisted wolves in Idaho and 
Montana, the governor of Idaho declared wolves to be a ``disaster 
emergency'' (Zuckerman 2011). That phrasing, ``disaster emergency,'' is 
usually reserved for truly tragic events such as catastrophic 
hurricanes and tornadoes.
    No less important than positive attitudes about wolves are 
attitudes about the Endangered Species Act (ESA). Existing data 
indicate that public support for the ESA is widespread and strong. An 
earlier, sociological study concluded that four of every five Americans 
are supportive of the ESA (Czech & Krausman 1997). That study also 
indicated that 49 percent of respondents believed that ESA should be 
strengthened. In contrast, only 16 percent believed it should be 
revoked or weakened.
    Some advocates of delisting wolves are concerned that continuing to 
protect wolves under the ESA will erode public support for the ESA. 
However, recent polling suggests that attitudes toward the ESA have 
remained positive over the past two decades. In particular, one poll, 
conducted in 2015, indicates that approximately four of every five 
Americans are supportive of the ESA (Harris Interactive 2011). Another 
recent poll indicates that support for the ESA transcends political 
ideology. That is, support for the ESA by self-identified liberals, 
moderates, and conservatives is 96 percent, 94 percent, and 82 percent, 
respectively (Tulchin Research 2015). Finally, data collected in 2014 
by the research firm GfK indicates that attitudes toward the ESA 
similarly positive in wolf recovery areas and the remainder of the 
country (see figure below, J.T. Bruskotter, The Ohio State University, 
unpublished data).

         Support for the Endangered Species Act (ESA) by Region
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
         



    .epsThe values and willpower of the American people, on the whole, 
support the ESA and wolf conservation. We are also a sufficiently 
resourceful and generous people, committed to fairly redressing the 
concerns and negative attitudes held by a small segment of Americans.

                            LITERATURE CITED

The literature list for this Q&A section is part of the hearing record 
and is being retained in the Committee's official files.

                                 ______
                                 

    Mr. Gohmert. Thank you, Doctor.
    At this time, the Chair recognizes Director Sandoval for 5 
minutes.

     STATEMENT OF ALEXANDRA SANDOVAL, DIRECTOR, NEW MEXICO 
        DEPARTMENT OF GAME & FISH, SANTA FE, NEW MEXICO

    Ms. Sandoval. Good afternoon, Chairman Gohmert, Ranking 
Member Dingell, members of the subcommittee. Thank you for the 
opportunity to appear today to discuss the status of the 
Federal Government's management of wolves, specifically the 
Mexican gray wolf.
    The state of New Mexico, through the New Mexico State Game 
Commission and the Department, exercises trust ownership and 
control over New Mexico's wildlife, including the duty to 
safeguard the wildlife in the interest of the public.
    In our quest to conserve our state's wildlife and recover 
federally-listed imperiled species, what has proven to be an 
unnecessary yet significant hurdle is a cloud of uncertainty 
and added challenges to state self-governance resulting from 
the U.S. Fish and Wildlife Service's failure to implement 
section 6 of the Endangered Species Act.
    Section 6 mandates that the Service ``cooperate to the 
maximum extent practicable with the states.'' As written, 
section 6 contemplates a significant role for the states in the 
management and conservation of threatened and endangered 
species, a role that has yet to be fully recognized in the 
state of New Mexico.
    As you may be aware, the Mexican wolf was first added to 
the list of endangered species in April of 1976, over 40 years 
ago. Over these 40 years, the Service has spent over $25 
million on the recovery of the sub-species, which to date has 
not been declared recovered. At last count, less than 100 
wolves exist in the wild. While no single factor is to blame 
for the lack of success recovering the Mexican wolf, one factor 
looms larger than others: the Service's failure to cooperate 
with the states.
    The Service's various cooperative failures can be broken 
down into three main categories: first, the imposition of 
Federal decisions and objections over New Mexico's repeatedly 
stated concerns; second, the lack of cooperation pertaining to 
an awareness of social and cultural considerations; and third, 
the lack of cooperation on wolf releases.
    Regarding the first issue, New Mexico has absolutely no 
confidence that the Service takes seriously the state's 
concerns, and the only recovery plan for the Mexican wolf, a 
plan crafted in 1982, the recovery goal was defined as at least 
100 wolves in the wild. However, in June of 2013, the Service 
published a proposed revision to the nonessential experimental 
population of the Mexican wolf. During that rule revision 
process, the Department continually asked the Service for a 
population objective, and was told on every occasion that this 
number would not be presented until a new recovery plan had 
been finalized.
    Despite the Service's promise that the revised rule would 
not contain a population objective, the rule, which was 
finalized in 2015, did contain a numerical target of 300 to 325 
wolves across New Mexico and Arizona. The Service not only 
chose to ignore our concerns, but they also chose to publish a 
population goal, despite promising New Mexico they would take 
no such action.
    Second, as with any well-planned program, fundamental to 
its long-term success, is stakeholder support. This is another 
arena in which the Service has failed. Stakeholder support is 
particularly paramount when working to recover a carnivore 
species that can negatively impact livestock operations, 
wildlife species management, and a host of related issues. The 
Service has failed in this regard. And, frankly, it is a fatal 
flaw.
    Regarding the third issue, the Service began releasing 
Mexican wolves in New Mexico in 1998. Releases back then at 
least had a colorable argument that they were guided by the 
1982 recovery plan. Modern releases now occur under the 
guidance of the 2015 rule. However, that rule itself provides 
no guidance on the definition of recovery. If a population of 
325 wolves is accomplished, would that trigger a delisting? 
Nobody knows.
    New Mexico has zero confidence that, once 325 wolves exist 
in the wild, the Service will not announce a recovery target of 
600 or maybe even 1,000 wolves on the landscape. For years, the 
Service has moved forward with introduction of the Mexican wolf 
without the guidance of a current comprehensive science-based 
recovery plan to frame and inform the effort, and without 
dedicating sufficient financial or other resources to the 
program to ensure its success. New Mexico encourages the U.S. 
Fish and Wildlife Service to re-examine section 6 of the 
Endangered Species Act and then redouble its effort at 
implementation of the cooperative mandate.
    Thank you for the opportunity.
    [The prepared statement of Ms. Sandoval follows:]
    Prepared Statement of Alexandra Sandoval, Director, New Mexico 
                      Department of Game and Fish
                              introduction
    Chairman Gohmert, Ranking Member Dingell, members of the 
subcommittee, thank you for the opportunity to appear today to discuss 
the status of the Federal Government's management of wolves, 
specifically, the Mexican gray wolf (Canis lupus baileyi).
    The state of New Mexico, through the New Mexico Game Commission and 
the Department of Game and Fish, exercises trust ownership and control 
of New Mexico's wildlife, including ``the duty of safeguarding this 
property in the interest of the public.'' Cognizant of its trust 
obligations, the New Mexico legislature has enacted a comprehensive 
statutory scheme to conserve, manage, and protect New Mexico's 
wildlife.\1\ Together, the Commission and the Department actively 
manage wildlife across the state, including carnivore species such as 
the bear and cougar; ungulate species such as deer, elk, bighorn sheep 
and antelope, which serve as prey to carnivores; and numerous other 
fish and wildlife species. With over 100 years of experience in 
restoring and managing wildlife populations across the state, the 
Department excels at wildlife conservation.
---------------------------------------------------------------------------
    \1\ State ex rel. Sofeico v. Heffernan, 41 N.M. 219, 227 (1936); 
N.M. Stat. Ann. Sec. Sec. 17-1-1 and 17-1-14; see N.M. Stat. Ann. 
Sec. Sec. 17-1-1 through 17-6-11.
---------------------------------------------------------------------------
    In 1973 Congress established a program for the conservation of 
threatened and endangered species and a means whereby the ecosystems 
upon which those species depend may be conserved--the Endangered 
Species Act (the Act). See 16 U.S.C. Sec. 1531(b). It is as true today 
as it was in 1973, and arguably always has been, that the creation with 
which we share this earth--fish, wildlife, plants, etc.--are of 
aesthetic, ecological, educational, historical, recreational, 
scientific, and I would add spiritual value to our Nation and its 
people.
    We New Mexicans value our wildlife resources and strive to be 
excellent stewards of this incredible natural resource. One of the 
species that we are most proud of in New Mexico is the desert bighorn 
sheep. In 1980, New Mexico's desert bighorn population totaled less 
than 70 and could only be found in two isolated mountain ranges, 
prompting the state to add the species to its list of endangered 
species. Since then, through the tireless efforts of numerous New 
Mexicans to conserve and increase the number of self-sustaining 
populations, New Mexico now boasts a population of over 1,000 desert 
bighorns across at least seven mountain ranges. In 2011 we removed the 
species from the state endangered species list. Various other once 
imperiled or extinct resident New Mexican species now thrive or on the 
path to recovery. We know how to conserve wildlife and, when necessary, 
recover imperiled species.
    In the quest to conserve our wildlife and recover federally listed 
imperiled species, what has proven to be an unnecessary yet significant 
hurdle is the cloud of uncertainty and added challenges to state self-
governance resulting from the U.S. Fish and Wildlife Service's 
(Service) failure to implement Section 6 the Endangered Species Act. 
Section 6 mandates that the Service ``cooperate to the maximum extent 
practicable with the states.'' \2\ Section 6 contemplates a significant 
role for the states in the management and conservation of threatened 
and endangered species, a role that has yet to be fully realized.
---------------------------------------------------------------------------
    \2\ 16 U.S.C. Sec. 1535(a).
---------------------------------------------------------------------------
    The constitutional scholar Erwin Chemerinsky identified ``state 
experimentation'' as one of the main functions served by the Federalist 
division of political authority in the United States.\3\ The Service's 
failure to implement Congress' mandate to cooperate with the states has 
unnecessarily stymied more robust state experimentation in the realm of 
species recovery. More often than not, through its sans-cooperation 
implementation of the Endangered Species Act, the Service co-opts 
species recovery efforts, leaving little or no opportunity for the 
states to pursue recovery on terms that fit state exigencies and 
eccentricities. The Mexican wolf recovery program is the cover story in 
the Service's failure to cooperate story.
---------------------------------------------------------------------------
    \3\ Erwin Chemerinsky, Enhancing Government: Federalism for the 
21st Century 99 (2009).
---------------------------------------------------------------------------
                               background
The Mexican Wolf
    The Mexican wolf is the smallest gray wolf subspecies in North 
America, with an adult weight of 50 to 90 pounds, a length of 5 to 6 
feet, and a height at shoulder of 25 to 32 inches. Mexican wolves are 
typically a patchy black, brown to cinnamon, and cream color, with 
primarily light underparts. The Mexican wolf's smaller stature is a 
product of the habitat it occupies. The Mexican wolf historically 
occupied central and northern Mexico with small reaches into portions 
of the American Southwest.
    As defined by the Service in its 1982 Mexican wolf Recovery Plan, 
the core historical range of the subspecies was in Mexico, while core 
historical habitat in the United States was limited to the very 
southwest corner of New Mexico and the southeast of Arizona. When 
initially releasing wolves into the wild in 1998 the Service recognized 
that the reintroduction site in the Blue Range Wolf Recovery Area was 
at the northern extent of an expanded historical range for the 
subspecies.
    The Mexican gray wolf subspecies was listed as endangered under the 
Endangered Species Act on April 28, 1976.\4\ Subsequently, on March 9, 
1978, the entire gray wolf species (Canis lupus) in North America south 
of Canada was listed as endangered, except in Minnesota where it was 
listed as threatened.\5\ The listing of the gray wolf in the contiguous 
United States and Mexico therefore subsumed the separate listing of the 
Mexican gray wolf subspecies.\6\ In February 2012, the Service 
recommended that the listing of the entire gray wolf species be revised 
to reflect the distribution and status of various gray wolf 
populations. On June 13, 2013, the Service published a proposed rule to 
delist the gray wolf and maintain protections for the Mexican gray wolf 
by listing it as an endangered subspecies.\7\ The final rule listing 
the Mexican gray wolf subspecies as endangered was issued on January 
16, 2015.\8\
---------------------------------------------------------------------------
    \4\ 41 Fed. Reg. 17740 (Apr. 28, 1976).
    \5\ 43 Fed. Reg. 9607 (Mar. 9, 1978).
    \6\ Id.
    \7\ 78 Fed. Reg. 35664 (Jun. 13, 2013).
    \8\ 80 Fed. Reg. 2488 (Jan. 16, 2015).
---------------------------------------------------------------------------
Recovery Planning
    The Mexican Wolf Recovery Plan (``Recovery Plan'') was adopted in 
1982. The Recovery Plan's ``prime objective'' is ``[t]o conserve and 
ensure the survival of Canis lupus baileyi by maintaining a captive 
breeding program and re-establishing a viable, self-sustaining 
population of at least 100 Mexican wolves in the middle to high 
elevations of a 5,000-square mile area within the Mexican wolf's 
historic range.'' \9\ The Recovery Plan does not contain objective and 
measurable recovery criteria for delisting as required by section 
4(f)(1) of the ESA, other than the 100-wolf and 5,000-square-mile goals 
referenced above.
---------------------------------------------------------------------------
    \9\ Recovery Plan at 23.
---------------------------------------------------------------------------
    The Service has initiated various failed efforts to revise the 
Recovery Plan. First, in 1995, the Service reported its intent to 
release a draft revised recovery plan in 1998.\10\ A 1998 draft revised 
Recovery Plan never came to fruition. Later, in 2003, the Service again 
attempted a revision of the 1982 Recovery Plan, which effort was 
abandoned. The 2003 effort was followed by a 2010 attempt, which also 
failed to produce a revised plan. Finally, in 2015, the Service invited 
the states of New Mexico, Arizona, Colorado, and Utah as well as a 
variety of independent and contract scientists to a series of working 
group meetings to contribute to the development of a revised recovery 
plan. According to the terms of a settlement agreement, which the court 
has yet to approve, the Service has announced its intention to publish 
a revised Recovery Plan by the end of November 2017.
---------------------------------------------------------------------------
    \10\ 63 Fed. Reg. 1752, 1753 (Jan. 12, 1998).
---------------------------------------------------------------------------
    While New Mexico is optimistic that the current recovery planning 
effort will ultimately produce a revised plan, until a revised recovery 
plan is finalized, the 1982 Recovery Plan will remain the only 
completed recovery plan for the species, and the now obsolete 100-wolf 
and 5,000-square-mile objectives will remain the only objective and 
measurable recovery criteria guiding recovery. Given the lack of 
current measurable and objective recovery criteria, New Mexico remains 
in the dark about important recovery questions--how many wolves 
constitute a recovered population and where these wolves will occur. 
Forty years into the program, New Mexico should not be as in the dark 
on these issues as it is.
Captive Breeding and the 1998 Rule
    A binational captive-breeding program between the United States and 
Mexico was established in the late 1970s, with the capture of the last 
remaining Mexican wolves in the wild. Referred to as the Mexican Wolf 
Species Survival Plan, the captive breeding program's ultimate 
objective is to provide healthy offspring for release into the wild, 
while conserving the Mexican wolf subspecies genome.\11\ The captive 
breeding program originated with seven founding wolves, and has grown 
to approximately 248 wolves in 55 facilities in the United States and 
Mexico.\12\ The wolves in the captive population are the only source of 
animals for release into the wild. The success of the captive breeding 
program has resulted in surplus animals, allowing the Service to 
undertake efforts to reintroduce populations of the Mexican wolf into 
the wild.
---------------------------------------------------------------------------
    \11\ Environmental Impact Statement for the Proposed Revision to 
the Regulations for the Nonessential Experimental Population of the 
Mexican Wolf (``Final EIS'') (Nov. 2014) at 4.
    \12\ Id.
---------------------------------------------------------------------------
    On January 12, 1998, the Service published a final rule 
establishing the Mexican Wolf Experimental Population Area (``MWEPA'') 
in central Arizona, New Mexico, and a small portion of northwestern 
Texas.\13\ In March of 1998, the Service released 11 Mexican wolves 
from the captive breeding program into the wild.
---------------------------------------------------------------------------
    \13\ 63 Fed. Reg. 1752 (Jan. 12, 1998) (``1998 Rule'').
---------------------------------------------------------------------------
    Under the 1998 Rule, the wolves were released into the Blue Range 
Wolf Recovery Area (``Blue Range'') of Arizona and New Mexico, which is 
within the MWEPA. Mexican wolves released into the Blue Range and their 
offspring are designated as a nonessential experimental population, 
which allows for greater management flexibility to address wolf 
conflict situations such as livestock depredations and nuisance 
behavior. The Blue Range is a defined geographic area that encompasses 
the entire Apache and Gila National Forests and is divided into primary 
and secondary recovery zones. Under the 1998 Rule, wolves are not 
allowed to establish territories on public lands wholly outside the 
Blue Range boundary and must be retrieved by the Service. At the end of 
2014, the Service estimated that 110 wolves inhabited the United States 
in central Arizona and New Mexico, which count exceeded the criteria 
set out in the Recovery Plan.
The 2015 Rule
    When the Service announced its intention to revise the 1998 Rule, 
the Department communicated its objection to the proposed revision. New 
Mexico explained that it was nonsensical to modify the 1998 Rule 
without first updating the now obsolete 1982 Recovery Plan. How could 
the Service propose a rule that might contemplate hundreds of wolves 
when the Recovery Plan did not venture beyond 100? The Department 
stressed to the Service the importance of revising the Recovery Plan to 
establish what contribution would be required of Mexican wolf 
historical range in New Mexico and Arizona toward Mexican wolf 
recovery. The Service moved forward with its revision of the 1998 Rule 
despite New Mexico's objection.
    On January 16, 2015, the Service issued a final rule revising the 
1998 Rule.\14\ As explained by the Service, the revisions were needed 
to help ``enhance the growth, stability, and success of the 
experimental population.'' \15\ The 1998 Rule required that Mexican 
wolves stay within the Blue Range, leading to the removal of wolves 
that strayed into the larger MWEPA. According to the Service, the 1998 
Rule ``constrained the number and location of Mexican wolves that can 
be released from captivity into the wild,'' ``constrain[ed] the growth 
of the wild population,'' and ``required [the Service] to implement 
management actions that disrupt social structure.'' \16\ The Service 
issued the 2015 Rule to modify the geographic boundaries in which 
Mexican wolves are managed, as well as the management regulations that 
govern the initial release, translocation, removal, and take of Mexican 
wolves.\17\ In the 2015 Rule, the Service established a population 
objective of 300 to 325 Mexican wolves within the MWEPA throughout both 
Arizona and New Mexico.\18\ The 2015 Rule includes a population 
objective that is triple that included in the Recovery Plan for the 
species and establishes a vastly expanded experimental population area. 
Whereas the 1998 Rule established an approximately 7,000-square-mile 
area within which the species could disperse, the 2015 Rule expanded 
the area by more than an order of magnitude to approximately 154,000 
square miles.
---------------------------------------------------------------------------
    \14\ 80 Fed. Reg. 2512 (Jan. 16, 2015) (``2015 Rule'').
    \15\ Id. at 2518.
    \16\ Id.
    \175\ Id. at 2512.
    \18\ Id. at 2517.
---------------------------------------------------------------------------
              cooperation under the endangered species act
    Section 6(a) of the Act requires that in carrying out the 
activities authorized by the ESA, the Service cooperate to the maximum 
extent practicable with the states.\19\ Through Section 6, Congress 
incorporated into the Act principles of cooperative federalism 
memorialized in the U.S. Constitution. That is, the powers delegated to 
the Federal Government are few and defined and those which remain in 
the state governments are numerous and indefinite and extend to all the 
objects which concern the lives, liberties, and properties of the 
people, and the internal order, improvement, and prosperity of the 
states.
---------------------------------------------------------------------------
    \19\ 16 U.S.C. Sec. 1535(a).
---------------------------------------------------------------------------
    Section 6 contemplates a much different cooperative scheme than 
that posited by the U.S. Fish and Wildlife Service in the Mexican Wolf 
Recovery Program. The Act's legislative history tells us that 
Congress's intent in drafting Section 6 was not purely academic. 
Consider the statement from Senator Tummey (D. Cal), when he called 
Section 6 ``perhaps the most important section'' and a similar 
statement from Senator Stevens (R. AK) when he called Section 6 ``the 
major backbone of the Act.'' The substance of the provision cannot, or 
should not, be dismissed by the Service as mere aspirational policy.
    The Conference Report for the 1973 Act lends insight into what 
Congress intended Section 6 to accomplish--``[t]he successful 
development of an endangered species program will ultimately depend 
upon a good working arrangement between the Federal agencies, which 
have broad policy perspective and authority, and the state agencies, 
which have the physical facilities and the personnel to see that state 
and Federal endangered species policies are properly executed.'' While 
the Act no doubt places ultimate authority in the Federal Government, 
that authority comes with strings attached, specifically, the strings 
of relationship building and cooperative interaction with the several 
states.
    The Service appreciates the legal obligations flowing from Section 
6 and recognizes them, at least on paper. Consider the Service's 
pronouncements in its ``Revised Interagency Cooperative Policy 
Regarding the Role of State Agencies in Endangered Species Act 
Activities,'' published February of this year (2016)--``[s]tates 
possess broad trustee and police powers over fish, wildlife, and plants 
and their habitats within their borders. Unless pre-empted by Federal 
authority, states possess primary authority and responsibility for 
protection and management of fish, wildlife, and plants and their 
habitats.'' In that same publication, the Service announced a ``renewed 
commitment by the Service and state fish and wildlife agencies to work 
together in conserving America's imperiled wildlife.''
    When it comes to putting its words into action, however, the 
Service often fails to satisfy the cooperative mandate of Section 6, 
opting instead to shoehorn its square peg version of species recovery 
into the states' round hole.
               the mexican wolf, a failure in cooperation
    As noted above, the Mexican wolf was first added to the list of 
endangered species in April of 1976, over 40 years ago. Very few 
species have held endangered status for as long as the Mexican wolf. 
Over those 40 years, the Service has spent over $25,000,000 on the 
recovery of the subspecies.\20\ Forty years and $25,000,000 later, one 
might anticipate that the subspecies is recovered, or in the least 
something more than a mere 100 wolves in the wild, yet that is all the 
Service has to show for its time and money. And while no one single 
factor is to blame for the lack of success recovering the Mexican wolf, 
one factor looms larger than others, the Service's failure to cooperate 
with the states. For the sake of brevity, I have categorized the 
Service's various cooperative failures into three relatively broad 
categories--(1) lack of cooperation on wolf releases; (2) lack of 
cooperation pertaining to and awareness of social and cultural 
considerations; and (3) the imposition of Federal decisions and 
objectives over New Mexico's stated concerns and objections.
---------------------------------------------------------------------------
    \20\ Estimated Funds Expended by Lead Agencies for Mexican Wolf 
Recovery and Reintroduction, available at https://www.fws.gov/
southwest/es/mexicanwolf/pdf/MW_Project_Costs_to_ Date.pdf.
---------------------------------------------------------------------------
Wolf Releases
    The Service first began releasing Mexican wolves in New Mexico in 
1998. Releases back then at least had a colorable argument that they 
were guided by the 1982 Recovery Plan. However, in the context of more 
recent releases, the Recovery Plan is all but irrelevant. Modern 
releases occur under the guidance of the 2015 Rule. However, the Rule 
provides no guidance on the definition of recovery. If a population of 
325 wolves is accomplished, would that trigger a delisting? No one 
knows. Can New Mexico have any confidence that once 325 wolves exist in 
the MWEPA, the Service will not announce a recovery target of 600 or 
1,000 wolves across the entire state? No, New Mexico can have zero 
confidence that such a scenario will not occur because the Service has 
not, despite numerous requests over the last decade from New Mexico, 
defined what recovery will look like.
    While it would seem logical that the Service define its recovery 
objective prior to implementing a recovery program that contemplates 
the release of wolves into a state wary of the program, that is not how 
the Service has managed its program. Somewhat backwardly, the Service 
opted to release Mexican wolves in Arizona and New Mexico without first 
defining its recovery objective. Not surprisingly, this caused problems 
for the states, specifically New Mexico. Time and again the Service 
failed to reach agreement with the New Mexico Department of Game and 
Fish, the experts on New Mexico prey densities and awareness of which 
areas would be most suitable and those most impacted by wolves, 
regarding release locations.
    While New Mexico plugged its nose for the first decade of the 
release program, in 2011 New Mexico decided enough was enough and 
declined to participate further in the Service's objectiveless program, 
meaning it would no longer lend human or financial resources to aid the 
program. New Mexico simply could not support a program without 
certainty about what the program sought to achieve. Certainly, the goal 
was recovery, but what did recovery look like in New Mexico. Would 
Mexican wolves be limited to the Blue Range or did recovery contemplate 
wolves across the state? Questions of great import to New Mexico and 
Mew Mexicans, but seemingly little to the Service.
    While New Mexico declined, beginning in 2011, to participate in the 
recovery program, the Service's own regulation, specifically 43 CFR 
24.4(i)(5)(i), still required that the Service comply with New Mexico's 
permitting requirements prior to releasing wolves in the state. New 
Mexico continued to grant the Service importation and release permits 
up until 2015 when, on the heels of the controversial 2015 Rule, the 
state denied the Service's request to import and release up to 10 
wolves into New Mexico. The state's denial was premised on the lack of 
a current species management plan, i.e. recovery plan, and on the 
Director's inability to determine that the Service's intended releases 
would not conflict with the state's conservation management efforts. 
While the Service's request was to release up to 10 wolves in the 
state, without a recovery plan informing New Mexico how many more 
releases were likely necessary and where in the state the Service 
intended to recover the subspecies, New Mexico was no longer willing to 
authorize releases.

    Upon review of my decision to deny the Service the requested 
permits, the Game Commission succinctly stated the state's position on 
wolf releases in New Mexico:

        While the Commission sympathizes with the Service's position--
        that the denial of release permits effectively slows certain 
        aspects of Mexican wolf recovery--the recovery of Mexican 
        wolves in New Mexico requires careful planning and 
        consideration of myriad issues and the Director's decision that 
        plowing ahead with releases of additional Mexican wolves in New 
        Mexico without first delineating the contours of how, when, 
        where, and how many Mexican wolves will be introduced in New 
        Mexico, i.e. the information that will be developed in a fully 
        vetted recovery plan under the Endangered Species Act, cannot 
        be found to be arbitrary or capricious.

    New Mexico's denial of the Service's requested permit did not sit 
well with the Service. In September of 2015, Director Ashe communicated 
to New Mexico that ``Given the denial of our permit applications, we 
are left with no option except to continue to move forward with wolf 
recovery efforts.'' He continued, ``the Service has concluded that it 
has independent legal authority . . . to engage in all activities 
regarding the reintroduction of the Mexican wolf in New Mexico. 
Exercising this authority will allow the Service to import, export, 
hold and transfer Mexican wolves in the state of New Mexico; and to 
release wolves on Federal lands in New Mexico without a state permit.''
    Troubled by the Service's intentions, on April 20, 2016, New Mexico 
filed a notice of intent to sue the Service to prevent violations of 
state and Federal law. Three days after receiving New Mexico's notice 
of intent, and just 2 months after announcing its renewed commitment to 
working cooperatively with the states, on April 23, 2016, the Service, 
at perhaps the height of its uncooperative approach, imported two 
Mexican wolf pups into New Mexico and released them into the wild of 
Catron County, New Mexico.
    One might assume that the Service had at least notified New Mexico 
about how many wolves would be imported, where they would be released, 
when they would be released, etc. No such communication occurred. New 
Mexico only learned of the releases after they occurred and only 
because a colleague with the Arizona Department of Game and Fish 
notified us and because a local media outlet sought New Mexico's 
comment on the matter. Upon learning of the releases I promptly called 
the Service's Southwest Regional Director to confirm what I had heard. 
The Regional Director apologized that I was only just learning of the 
releases, stating that he had intended to notify the state earlier.
    Promptly following the unlawful releases, New Mexico filed a 
complaint in the U.S. District Court for the District of New Mexico 
along with a request to enjoin the Service from conducting further 
releases in violation of state and Federal law. On June 10, 2016, the 
court granted New Mexico's request and enjoined the Service from 
releasing any wolves in the state without first complying with state 
permitting requirements.
    In its ruling, the court pointed to the language of the Service's 
own regulation, which requires that the Service, in carrying out 
``programs involving reintroduction of fish and wildlife'' ``shall . . 
. consult with the states and comply with state permit requirements . . 
. except in instances where the Secretary of the Interior determines 
that such compliance would prevent him from carrying out his statutory 
responsibility.'' \21\ The court disagreed with the Service's argument 
that it had satisfied the regulation when it applied for the permit, 
and held that the ``clear meaning of compliance with state permitting 
requirements requires actually receiving a permit and not merely 
applying for one.'' Answering the Service's argument that it was exempt 
from complying with state permitting requirements because doing so 
would prevent it from fulfilling its statutory duty under the 
Endangered Species Act to conserve the Mexican wolf, the court held 
that the Service had no statutory obligation to release a nonessential 
experimental population. While Section 10(j) of the Act authorized the 
Service to conduct releases, such was not a statutory responsibility.
---------------------------------------------------------------------------
    \21\ 43 C.F.R. 24.4(i)(5)(i).
---------------------------------------------------------------------------
    Had the Service been more cooperative years ago when New Mexico and 
others demanded a revised recovery plan prior to the Service moving 
forward with releases and had the Service been more responsive to state 
concerns and ideas about when, where, and how many wolves to release, 
we would likely be at a different place today than where we are--a 
court ordered injunction preventing the Service from releasing wolves 
in New Mexico in violation of state and Federal law.
Consideration and Understanding of Local Social and Cultural Issues
    As with any well-planned program, fundamental to its long-term 
success is stakeholder support. This is particularly paramount when 
working to recover a carnivore species that can negatively impact 
livestock operations, wildlife species management, and a host of 
related issues. The Service, since its first release of wolves into the 
recovery area, has failed to adequately recognize local and state 
interests, a fatal flaw for the recovery of any species, let alone a 
carnivore, and has consequently failed to educate relevant stakeholders 
and ultimately failed to achieve a meaningful level of stakeholder 
support.
    Effective communication and cooperation with local communities has 
been so greatly deficient that the Office of Inspector General for the 
U.S. Department of the Interior (OIG) released an investigate report on 
the Service's Mexican wolf program earlier this year.\22\ Of the 
allegations of misconduct OIG investigated, failure to communicate 
effectively with the communities impacted by Mexican wolf recovery was 
one among several others. Without obtaining some level of social 
tolerance within the communities directly impacted by a recovery 
program, the program will continue to collapse, as is clearly apparent 
with the Mexican wolf.
---------------------------------------------------------------------------
    \22\ Office of Inspector General: U.S. Department of the Interior; 
Investigative Report of the U.S. Fish and Wildlife Service's Mexican 
Gray Wolf Program; July 11, 2016.
---------------------------------------------------------------------------
    The Department has a record of conserving carnivores, oftentimes in 
less than friendly environs. When the Department set out to recover and 
increase populations of bears and cougars across the state, a program 
that successfully restored these populations from the low hundreds to 
now thousands, it built programs that recognized impacts to local 
communities and worked with those communities to find appropriate, 
workable solutions. We understood that there would be instances in 
which bears and cougars would kill livestock and in turn we would have 
to work with the impacted producers to alleviate losses, including, 
when appropriate, lethal control. As noted in the OIG report, the 
Service has truly failed in its handling of the nuisance wolf issue, 
which failure has set in stone a deep-rooted mistrust and rejection of 
the Service's program.
    The Department understands much better than the Service does the 
issues impacting New Mexican communities where Mexican wolf recovery is 
occurring. Department employees live within impacted communities, 
raising families, building relationships, and gaining an appreciation 
for the New Mexican way of life. While the Department and local 
communities may not always see eye to eye, there is an appreciation 
that actions have impacts and we have learned to mutually empathize 
with one another. There is a mutual respect and trust that has 
developed over a near century of interaction and relationship building. 
This mutual respect is born from the fact that we are a part of the 
communities in which we operate and know that we must work 
cooperatively and not through imposition. The Service must recognize 
that social tolerance and engagement with local and state-level 
partners in an honest and transparent manner is the only path to 
recovery of the Mexican wolf.
The Service's Imposition of its Version of Recovery on New Mexico
    Webster's Dictionary defines cooperation as ``a situation in which 
people work together to do something; the actions of someone who is 
being helpful by doing what is wanted or asked for.'' The same source 
defines imposition as ``a demand or request that is not reasonable or 
that causes trouble for someone.'' Through years of exposure to the 
Service's Mexican Wolf Recovery Program, it appears that the Service 
confuses cooperation with imposition. It is the normal course for the 
state to communicate a concern to the Service or to request some 
action, e.g. ``you should update the Recovery Plan,'' and for the 
Service to do exactly what the state had requested it not do or to 
entirely ignore the stated concern. Consider as an example the 
Service's effort to revise the 1998 Rule.
    On June 13, 2013, the Service published a Proposed Revision to the 
Nonessential Experimental Population of the Mexican Wolf. During the 
associated EIS development and rule revision process the Department 
continually asked the Services for a population objective and was told 
on every occasion that this number would not be presented until a new 
recovery plan was finalized. As the steward of New Mexico's wildlife 
resources, the state importuned the Service for the information it 
needed to appropriately assess the Service's proposed revisions to the 
1998 Rule. The Department could not adequately analyze all ``proposed 
alternatives'' and ``proposed revisions'' during review of the 
preliminary EIS or proposed rule revisions without knowledge of a 
population objective. However, nowhere in the draft rule or preliminary 
EIS did the Service include a target number of wolves to be released 
into New Mexico or Arizona or an objective of wolves that would 
eventually inhabit New Mexico and Arizona. Despite the Service's 
promise that the revised rule would not contain a population objective, 
the 2015 Rule did contain a numerical target of 300-325 wolves across 
New Mexico and Arizona.
    Where the Service allegedly recognizes that New Mexico ``possesses 
broad trustee and police powers over fish, wildlife, and plants and 
their habitats within their borders'' as well as the ``primary 
authority and responsibility for protection and management of fish, 
wildlife, and plants and their habitats,'' and is committed to working 
cooperatively with the states, one might assume that the Service 
arrived at the target of 300-325 through consultation and cooperation 
with New Mexico. That would be a bad assumption. The Service did not 
consult with New Mexico about the target population. New Mexico learned 
that the final 10(j) Rule would include a target population of 300-325 
wolves in late 2014 after years of asking the Service to release that 
target number.
    The 2015 Rule was not a product of cooperation, but rather an 
example of Federal imposition. The Service decided how it wanted to 
manage wolves in New Mexico, and deliberately ignoring New Mexico's 
concerns and requests, pounded away on the square peg of Mexican wolf 
recovery.
                               conclusion
    Late last year, the New Mexico Game Commission sat in review of my 
denial of the Service's permit application. In a submission to the 
Commission the Service communicated a thinly veiled threat. It said:

        The Supremacy Clause of the United States requires that state 
        laws that `interfere with or are contrary to,' Federal law be 
        invalidated . . . To the extent that the state's denials of 
        these permits interfere with the Service's ability to in any 
        way manage Mexican wolves in the state of New Mexico, those 
        denials should be overturned. The Secretary would prefer to 
        consult and cooperate with the state of New Mexico regarding 
        this issue and thus apply for and be issued applicable state 
        permits. However, should the Commission decide to not overturn 
        the denials of the Director, and if the Director makes similar 
        decisions in the future, the Secretary could decide that 
        compliance with New Mexico permits applicable to Mexican wolves 
        will prevent her from carrying out her statutory 
        responsibilities.

    Echoing what the Commission said in response, it is my observation 
that the Service employs a definition of cooperation entirely distinct 
from the term as employed in New Mexico. To the Service, cooperation is 
applying for and being issued, without question from the state, the 
applicable state permits, and threatening pre-emption when it does not 
issue. What is cooperative about threatening preemption if a state does 
not issue a permit or ignoring New Mexico's legitimate concerns about 
the Mexican Wolf Recovery Program and repeated requests for an updated 
recovery plan? To New Mexico, cooperation involves a dialogue where the 
Service sees a permit denial for what it is, a big red flag that 
cooperation has broken down and perhaps an opportunity to 
introspectively examine the status of your program.
    For years the Service has moved forward with introduction efforts 
in New Mexico without the guidance of a current, comprehensive, 
science-based recovery plan to frame and inform the effort and without 
dedicating sufficient financial or other resources to the program to 
ensure its success. New Mexico withdrew from the recovery program 
because it grew weary of being an accomplice to an undefined and 
objectiveless effort. For years New Mexico has implored the Service to 
develop a recovery plan that would both frame recovery and provide the 
state with real, objective information that could inform and guide the 
state's positions and undertakings relative to New Mexico wildlife, 
including the Mexican wolf.
    The Service has repeatedly declared that it is not obligated to 
develop a revised recovery plan and that legally, the 1982 plan need 
not be revised. At the same time, however, the Service has acknowledge, 
from the outset of the 1982 Recovery Plan, that it was inadequate as a 
recovery document and that revision was necessary. In New Mexico we are 
not interested in the legal nuances of whether the Service is obligated 
to develop a recovery plan for the Mexican wolf. What we are interested 
in is recovering the species in its historic range and until a valid 
recovery plan is developed, that will be nothing more than a 
permanently elusive dream.
    The 93rd Congress envisioned an implementation of the Endangered 
Species Act far different from the Service's current approach with the 
Mexican wolf. Section 6 of the Act requires the Service to ``cooperate 
to the maximum extent practicable with the states'' and those Members 
of Congress in 1973 that spoke of Section 6 as ``perhaps the most 
important section'' and ``the major backbone of the Act'' certainly 
envisioned something more significant and meaningful in terms of 
cooperation than the Service applying for a state permit but then 
barreling forward without it when it did not issue.
    New Mexico objects to the Service's historical dismissiveness of 
New Mexican ideas and concerns regarding the recovery of the Mexican 
wolf in our state; to its illegal attempt to release Mexican wolves in 
our state without state approval; and to attempting to recover the 
Mexican wolf without first developing a fully vetted, science-based 
recovery plan to guide and frame recovery efforts.
    In short, New Mexico encourages the U.S. Fish and Wildlife Service 
to re-examine Section 6 of the Endangered Species Act and then redouble 
its efforts at implementation of the cooperative mandate.

                                 ______
                                 

    Mr. Gohmert. Thank you, Director. At this time, Mr. Bean, 
you are recognized for 5 minutes.

STATEMENT OF BRIAN BEAN, OWNER, LAVA LAKE LAND & LIVESTOCK LLC, 
                  AND LAVA LAMB, HAILEY, IDAHO

    Mr. Bean. Chairman Gohmert, Ranking Member Dingell, and 
members of the committee, thank you for the opportunity to 
testify.
    Wolves kill nearly double the number of the sheep than any 
other type of livestock in the Northern Rockies. The Wood River 
Wolf Project, a collaborative consisting of producers, county 
commissioners, wildlife managers, wildlife advocates, public 
lands managers, and wildlife services, was created to determine 
if we could proactively use nonlethal tools and techniques to 
significantly reduce losses of sheep to wolves, while reducing 
lethal control of wolves across a large, rugged, and primarily 
forested landscape.
    Our goal was to evaluate the holistic strategy of 
increasing human presence, providing more diligent sheep 
management, utilizing a variety of nonlethal techniques in a 
proactive and adaptive fashion. We used a range of nonlethal 
deterrents, including multiple livestock guardian dogs, 
temporary fencing, lighting, sound devices, and more, depending 
on the situation.
    Over the 7-year study period, 10,000 to 20,000 sheep grazed 
annually in the project area. On average, fewer than five sheep 
were killed by wolves per year. Sheep depredation losses to 
wolves were 3.5 times higher in the adjacent non-protected area 
than in the project area. No wolves were lethally controlled 
within the project area, and sheep depredation losses to wolves 
were just 0.02 percent of the total number of sheep present, 
the lowest loss rate among sheep grazing areas in wolf range, 
statewide.
    The Wood River Wolf Project, therefore, provides evidence 
that proactive use of a variety of inexpensive, nonlethal 
techniques can significantly minimize livestock losses on 
large, open rangeland operations. If a coalition with limited 
resources can produce these results on the ground, I believe 
similar outcomes are possible in other western states, where 
wolf and livestock conflicts exist.
    Why should a producer be interested in learning about 
nonlethal techniques? The phone call to request a lethal 
control action is essentially free to the producer. The costs 
of lethal control are considerable, but are not borne by the 
producer, but by Federal taxpayers and, in at least one case, 
state taxpayers. Although there are disturbing exceptions, a 
lethal control request is legitimized if livestock have been 
killed.
    Has the producer then incurred an economic loss? Certainly. 
But Federal funding, typically administered by state agencies, 
is available to compensate the producer for those livestock 
losses. If fully compensated, the producer has not incurred a 
net economic loss for livestock killed by wolves, and has not 
participated at all in the cost of lethal control. In essence, 
then, from the producer's perspective, current policy makes it 
low-risk, easy, and free to request lethal control.
    But it is not really free, is it? The ratio of the cost of 
lethal control of wolves to the value of livestock killed can 
range from 2-to-3 or 4-to-1 to 35-to-1 or more. Furthermore, 
depredation by coyotes on sheep is a much greater economic 
issue for most range sheep operators than depredation by 
wolves. For Lava Lake, that ratio approaches 10 animals killed 
by coyotes to 1 animal, on average, killed by wolves.
    Consider what producers would do if they were required to 
pay for lethal control of wolves on public land. Would they 
continue to request lethal control and incur those costs, or 
would they try nonlethal and prevent or reduce depredation in 
the first instance?
    In my experience, sheep and cattle producers that operate 
on public lands believe two things that are relevant to this 
subcommittee. Number one, their Federal congressional 
delegations have been largely successful over many decades in 
protecting their grazing preferences on public lands, and are 
likely to continue to be effective going forward. Number two, 
they need not be concerned about economic backlash from 
consumers of their products if they request lethal control. I 
believe that the latter is largely true.
    In most circumstances, it would be exceedingly difficult 
and time-consuming for the concerned consumer to boycott 
protein products derived from livestock raised by producers who 
elect to request lethal control actions on wolves. The former, 
however--that is, Federal congressional delegations continuing 
to be effective in protecting grazing preferences--bears closer 
examination. I think that we are increasingly at risk of a 
disenfranchisement by the public in terms of our public grazing 
use; and that disenfranchisement would be catastrophic for 
producers, because nearly every operator that I know would not 
be able to continue to operate on their deeded lands alone.
    Thank you again for the opportunity to testify.
    [The prepared statement of Mr. Bean follows:]
   Prepared Statement of Brian S. Bean, President, Lava Lake Land & 
                             Livestock, LLC
    I co-founded and co-own Lava Lake Land & Livestock, which raises 
sheep and cattle on 875,000 acres of public and private rangeland in 
south-central Idaho near Craters of the Moon. I co-founded and co-own 
Lava Lake Lamb, which sells 100% grass-fed and grass-finished lamb 
nationally. I serve as President of the Lava Lake Institute for Science 
& Conservation, an Idaho 501(c)(3) which serves as the fiscal agent for 
the Wood River Wolf Project, a collaborative whose mission is to reduce 
or eliminate wolf depredation on sheep and consequently reduce or 
eliminate lethal control requests on wolves in our Project Area.
                        wood river wolf project
    Collaborative approaches to preventing wolf depredation on 
livestock, like the Wood River Wolf Project (a sheep-centric project in 
south-central Idaho), reduce the effort and cost attendant to 
protecting livestock from apex predators.
    To date, there have been few landscape-scale trials of nonlethal 
deterrents in overlapping wolf and livestock range, and none that 
involved thousands of sheep in rugged national forest conditions. 
Because wolves kill nearly double the number of sheep than any other 
type of livestock in the northern Rockies, including in Idaho (USFWS 
2015) \1\, the goal of the Wood River Wolf Project was to determine if 
we could proactively and adaptively use nonlethal tools and techniques 
to significantly reduce losses of sheep to wolves while reducing lethal 
control of wolves across a large, rugged and primarily forested 
landscape. Based on data generated by the Project, we compared the rate 
of sheep lost to wolf depredation in a project area where nonlethal 
preventative measures were implemented, and a non-protected area, over 
7 years starting in 2008. The Project Area and adjacent Non-Protected 
Area were comparable in that both were on National Forest lands in 
areas occupied by wolves and with a history of wolf depredation on 
sheep.
---------------------------------------------------------------------------
    \1\ https://www.fws.gov/mountain-prairie/es/species/mammals/wolf/
2016/FINAL_Table7b-7c_Dep-State_2015%20(1).pdf.
---------------------------------------------------------------------------
    Our goal was not to evaluate any single tool but rather to evaluate 
the holistic strategy of increasing the presence of humans, more 
diligent management of sheep and utilizing a variety of nonlethal 
techniques in a proactive and adaptive fashion. As such, we used a 
range of common-sense nonlethal deterrents including multiple livestock 
guardian dogs, temporary fencing, lighting, sound devices and more, 
depending on the situation.
    Over the 7-year study period, of the 10,000 to 20,000 sheep grazed 
annually in the Demonstration Project Area, on average fewer than 5 
sheep were killed by wolves per year--less than 30 sheep in total. 
Furthermore, sheep depredation losses to wolves were 3.5 times higher 
in the Non-Protected Area than in the Project Area. In addition, no 
wolves were lethally controlled within the Project Area and sheep 
depredation losses to wolves were just 0.02 percent of the total number 
of sheep present, the lowest loss rate among sheep grazing areas in 
wolf range statewide.
    The Wood River Wolf Project provides evidence that proactive use of 
a variety of inexpensive nonlethal techniques used adaptively can help 
significantly minimize livestock losses on large open rangeland 
operations. As such, the Project has been endorsed by Blaine County and 
is ongoing today (the ninth season) under the fiscal agency of the Lava 
Lake Institute for Science & Conservation.
    If a coalition consisting of local sheep producers, county 
commissioners, wildlife conservation organizations, Federal land 
managers, the state wildlife management agency and Federal biologists 
working collaboratively with limited resources can produce these 
results on the ground, then I believe similar outcomes are possible in 
other states where wolf and livestock conflicts exist.
                                 sheep
    Clearly, based on the results of the Wood River Wolf Project as 
outlined above, nonlethal preventive measures, including tools and 
behaviors, can be effective in western states to prevent or reduce wolf 
depredation on sheep.
                                 cattle
    Figuring out how to prevent wolf depredation on cattle on western 
rangelands has proven more difficult and has taken longer than similar 
efforts with sheep. Nevertheless, much progress has been made over the 
last 4 or 5 years.
    Sheep exhibit a banding instinct and are typically accompanied by 
herders on western rangelands. Cattle do not have the same banding 
instinct and are typically pastured, not herded. Over the course of 80 
years or so of raising cattle in country that no longer supported 
wolves, cattle largely lost their defensive behaviors when confronted 
by that reintroduced or re-colonizing predator. In addition, polled 
(hornless) cattle breeds are preferred by most producers today, 
reducing the ability of cattle to defend themselves against wolves.
    ``Re-wilding'' cattle refers to the reinforcement of defensive 
behaviors, including bunching, in the face of wolf depredation. In 
addition, range riding has proven effective in the Tom Miner Basin and 
Centennial Valley in Montana. (In the latter location, range riding 
also involves protecting cattle from depredation by grizzly bears.) As 
with sheep, the costs per head associated with nonlethal control may be 
reduced through collaborations involving several producers.
    Range riding is yielding an unexpected additional economic benefit: 
sick or injured cattle, including calves, are typically found and 
treated earlier, reducing normal death loss. In addition, range riders, 
if properly trained, are able to move cattle and make better use of 
forage resources, resulting in fewer ``hot spots'' and more even range 
utilization.
                          behavioral economics
    Generally speaking, livestock production is a low margin business. 
Participants in low margin businesses typically have limited capacity 
to assume incremental risk and are therefore more risk averse, 
generally, than participants in high margin businesses. Producers 
perceive changes in production protocol to be inherently risky. 
Learning how to effectively deploy nonlethal deterrents to wolf 
depredation is clearly a change in protocol. As a consequence, 
nonlethal buy-in is seen as risky and is resisted by many producers as 
a consequence.
    Why should a producer be interested in learning about nonlethal 
techniques, training his herders, or cowboys (including range riders), 
investing in equipment and deploying tools in the field? Why, indeed. 
The phone call to request a lethal control action is essentially free 
to the producer. The costs of lethal control are considerable but are 
not borne by the producer, but by Federal and, in at least one case, 
state taxpayers. Although there are disturbing exceptions, a lethal 
control request is legitimized if livestock have been killed. Hasn't 
the producer then incurred an economic loss? Certainly. But Federal 
funding, typically administered by state agencies, is available to 
compensate the producer for those livestock losses. If fully 
compensated, the producer has not incurred a net economic loss for 
livestock killed by wolves, and has not participated at all in the cost 
of lethal control.
    In essence, then, from the producer's perspective, it is low-risk, 
easy and free to request lethal control.
                       emphasis on lethal control
    After Federal (legislative) delisting (under ESA) of the northern 
Rockies' (tri-state) ``experimental, nonessential'' (reintroduced) gray 
wolf population, the emphasis on ``managing wolves'' has been a de 
facto emphasis on killing wolves--as opposed to the implementation of 
nonlethal control measures. For example, in Idaho, the Wolf Depredation 
Control Fund, administered by a Board consisting largely of members 
appointed by Idaho's governor or by those appointed by the governor, 
expressly stipulates that every dollar of this $2,000,000 appropriation 
(involving $400,000 authorized by the state legislature every year for 
5 years) must be used to kill wolves. In other words, the Wolf 
Depredation Control Fund can not be used to support the use of 
nonlethal measures.
    There are several sources of funding for the Wolf Depredation 
Control Fund; I note that some funding comes from producers' livestock 
and wool sales, so that even those operators who have found nonlethal 
deterrents to be effective, and prefer to use them, such as Lava Lake 
Land & Livestock, for economic or ecological reasons, find that they do 
in fact economically support killing wolves in response to depredation 
events whether they wish to or not.
    Notwithstanding the above, some states recently colonized by gray 
wolves do place more emphasis on the implementation of nonlethal 
measures to reduce or prevent wolf depredation on livestock.
    Oregon has been among the most progressive states in wolf 
conservation and management in the United States. ``Under the Oregon 
Wolf Plan, in all phases of wolf management, nonlethal preventive 
measures to prevent wolf-livestock conflict remain the first choice of 
Oregon wildlife managers. These nonlethal preventive measures are 
required in all phases of wolf management before ODFW [Oregon 
Department of Fish and Wildlife] would consider lethal control of 
wolves due to livestock depredation.'' See: http://www.dfw.state.or.us/
wolves/faq.asp.
    The Oregon Wolf Plan ``mandates focusing on nonlethal efforts 
before lethal removal is considered. Though the wolf population has 
increased significantly over the last 7 years, depredation events and 
livestock losses have stayed relatively stable.'' The 2015 Oregon Wolf 
Annual Report states: ``Overall, confirmed incidents of depredation 
decreased in 2015 from the previous year (9 vs. 11), and the number of 
losses also decreased . . . Confirmed losses in 2015 were 3 cattle, 10 
sheep, and 1 livestock working dog . . .'' (2015 Oregon Wolf Annual 
Report).
    The Department's dedication, hard work and genuine transparency 
have demonstrated that wolves and livestock can co-exist with minimal 
losses when nonlethal methods and strategies are effectively 
implemented.
                     lethal control on public lands
    In my experience, sheep and cattle producers that operate on public 
lands believe two things that are relevant to this testimony: (i) that 
their Federal congressional delegations have been largely successful 
over many decades in protecting their grazing preferences on public 
lands and are likely to continue to be effective and (ii) they needn't 
be concerned about economic backlash from consumers of their products 
if they request lethal control.
    The latter is true, in my opinion; despite USDA's Source 
Verification program, which theoretically allows a consumer or FSIS 
(USDA's Food Safety and Inspection Service) to retrace a T-bone steak 
back to the rancher who raised the steer, this is usually quite 
difficult, at least for the consumer. Ask yourself, ``How would I go 
about finding out where the cut steak in the meat case in my local 
market or butcher shop came from? '' It's one thing for Michael Pollan 
to trace steer No. 534 downstream, quite another to swim back upstream 
and finger the producer that raised the animal. As a consequence, it 
would in most circumstances be exceedingly difficult and time consuming 
for the concerned consumer to boycott protein products derived from 
livestock raised by producers who elect to request lethal control 
actions on wolves--unless those producers are publicly associated with 
a particular brand, which would likely be economic suicide.
    The former, however, bears closer examination. It is true that the 
congressional delegations of western states have been largely effective 
in protecting the interests of public lands grazers since the Taylor 
Grazing Act was passed in 1934, or earlier. In my opinion, it is not 
necessarily the case that that support will continue to be as 
effective. At the end of the day, public lands grazers operate on the 
public domain at the discretion of the public. This isn't the early 
19th century when most Americans lived on the farm, nor the early 20th 
century when 30 percent of Americans were still tied to agricultural 
pursuits. Today, in the early 21st century, fewer than 2 percent of 
Americans are farmers or ranchers.
    Notwithstanding the fact that tens of millions of Americans have 
never stepped foot on a farm or ranch and some believe that milk comes 
from a carton, the majority of Americans like wildlife and believe that 
predators deserve a place on the landscape. These Americans will stand 
up for wildlife--including wolves and other apex predators--and vote 
their beliefs.
    The shrewd producer, in my opinion, recognizes the risk of public 
lands grazing disenfranchisement by a public that in frustration 
concludes that the only way to eliminate behaviors they find 
objectionable is to dismantle the whole shebang--politically. The facts 
that a lethal control request is free to the producer and that 
producers in many states are compensated for livestock lost to wolves 
in no way make up for the risk of losing it all, because most public 
lands grazing operations could not survive solely on their deeded 
(privately owned) lands.
                depredation and lethal control economics
    The Profanity Peak Pack (Washington State) kill order contemplates 
the lethal control of all 11 wolves in the pack. From July 8 to 
September 16, 2016, 13 cattle were killed or injured by wolves (8 
confirmed and 5 probable). Six wolves (5 adults and 1 pup) have so far 
been killed.
    A steer or heifer at a finished slaughter weight of roughly 1,350 
lbs on average was worth $1,553 per hd at $1.15 per live-weight lb (as 
of August 25). The cost of killing a wolf varies. If a USDA APHIS 
Wildlife Services trapper tasked with executing the kill mandate 
requested by an affected producer and authorized by the cognizant state 
wildlife management agency is lucky and kills a wolf on the ground with 
a rifle, the expense is salary and benefits, fuel, overhead and the 
cost of a bullet, a few hundred dollars to a few thousand. If, as is 
often the case, a wolf is killed via aerial gunning, costs would 
include roughly $1,500 per hour for the aircraft, plus the cost of the 
pilot and sharpshooter, etc. The cost of lethal control by aerial 
gunning can be $11,000 per wolf. A reasonable estimate of cost is 
$7,000 per wolf killed, but can be much higher. $7,000 (paid by the 
taxpayer) divided by $1,553 (when reimbursed, also paid by the 
taxpayer) is 4.5<greek-e>. Let's reduce that to 4<greek-e>.
    In practice, depredation events involving wolves that result in the 
loss of a few head of livestock increasingly result in kill mandates, 
typically executed by Wildlife Services, that contemplate the removal 
of entire packs. I refer to this phenomenon as ``disproportionate 
response.'' To illustrate, if seven sheep are killed by wolves in a 
single depredation event or multiple events involving the same 
operator, and those sheep (running-age ewes or lambs, as the case may 
be) are worth $200 each, for a total of $1,400 in economic loss, the 
kill order may involve all seven wolves in a pack and may cost 
taxpayers as much as $50,000 or more. The dollar ratio in this 
illustration is 35:1.
    Continuing the illustration, let's say that the same producer has 
10,000 breeding ewes which produce, on average, 1.4 lambs. Thus, the 
producer is managing about 24,000 animals during the spring and summer 
grazing season. It is not unreasonable to assume a disappearance loss 
(lambs only) of 4.5 percent (630 lambs) during the grazing season, 
mostly from predators and most of that from coyotes. In this 
illustration, if 85 percent of the disappearance loss is due to 
depredation and 70 percent of the depredation loss is inflicted by 
coyotes, that producer has lost 375 lambs to coyotes before weaning. If 
that producer suffered as many as 20 lambs killed by wolves that same 
season, the ratio of loss due to coyote depredation to loss due to wolf 
depredation would be more than 18 to 1. The uncomfortable reality is 
that depredation by coyotes on sheep (including ewes) is a much greater 
economic issue for most range sheep operators than depredation by 
wolves.
    Pause to consider what producers would do if they were required to 
pay for lethal control of wolves on public land. Continue to request 
lethal control? Or try nonlethal and prevent or reduce depredation in 
the first place? I assume here that producers would still be 
compensated for livestock lost to wolves.
    I raise these questions because a debate is raging in the media 
today about killing wolves on public land. As is usually the case where 
the gray wolf is concerned, the debate is dogmatic, polarized and 
frequently vitriolic. The topics of discussion vary from the rationale 
and legitimacy of killing wolves in a congressionally-designated 
wilderness--to reduce the number of ``huntable'' wild ungulates killed 
by wolves--to the acceptability of providing expensive predator 
management services gratis to public lands grazers who are seen by many 
citizens to benefit already from what are assumed to be subsidized 
grazing fees on Federal lands.

                                  ****

    I am grateful to be able to provide this testimony. When I return 
to Idaho, I will doubtless have the results of the forensic analysis 
conducted by our Wildlife Services trapper on the depredation of one of 
our slaughter-weight steers at Lava Lake Ranch last weekend. Lion or 
wolf? For us, whatever the answer, it will be a reminder that we need 
to maintain vigilance, and that evolving the efficacy of nonlethal 
control measures will benefit Lava Lake and others committed to the 
proposition that predator co-existence is not only possible, but also 
risk mitigating.

                                 ______
                                 

    Mr. Gohmert. Thank you.
    Mr. Paterson, you are recognized for 5 minutes.

  STATEMENT OF TOM PATERSON, OWNER, SPUR RANCH CATTLE COMPANY 
                     LLC, LUNA, NEW MEXICO

    Mr. Paterson. Chairman Gohmert, Ranking Member Dingell, 
members of the subcommittee, the Spur Ranch Cattle Company is 
located on both sides of the Arizona-New Mexico State line. It 
is about a third of the way up from Mexico to Colorado. We are 
on what is known as the Outlaw Trail. This is rough, 
mountainous country. Our elevation ranges from 4,500 feet to 
9,000 feet.
    We now run about 500 head of mother cows on 125,000 acres 
of Federal grazing leases. That is about a fifth the size of 
Rhode Island. Our pastures range in size from a 1,000-acre 
breeding traps to our largest pastures, which are about 20,000 
acres. We run commercial cows and registered black Angus, 
Simmental, and some Angus bulls. We endeavor to give our cattle 
the best care possible.
    I am here today to address the Mexican gray wolf program as 
experienced in Mexico and Arizona. I wouldn't pretend to speak 
about the wolf experience elsewhere.
    This year, 2016, has been a wreck because of losses to our 
cattle from the wolves. So far this year we know we have lost 
four cows and five calves to the wolves. But the practical 
challenge that we face is that we will never really know how 
many other wolf kills we have had. The kills that we find are 
in our smallest pastures. You do not find them in pastures that 
are many thousands of acres large. By the time the varmints are 
done with a carcass, we don't even find the plastic ear tag. 
Research results vary, and individual situations will differ, 
but an estimate from the Fish and Wildlife Service is that for 
every wolf kill you find, there are at least five that you 
don't.
    On top of that is the loss we suffer from reduced 
conception rates on our cows. Based on research from the 
University of Nebraska, we estimate that our conception rate is 
about 10 percent less than what it should be, given the 
condition on our cows. That, we believe, is a result of wolves 
running our cows and keeping them out of estrus.
    In the prepared remarks that we have submitted, I have 
tried to give you detail about the wolf kills we have had 
during 2016. In paragraph 22(a) of my written testimony you 
will read about a kill we reported on June 4. It is up on the 
monitor. That episode shows that the Fish and Wildlife Service 
does a poor job helping ranchers haze wolves away from our 
cattle if it is on a weekend, when the wolves work but Fish and 
Wildlife Service employees do not.
    The wolf, in that case, most likely went after a young 
calf. The cow intervened. The wolf bit the cow under her armpit 
and immobilized her. She went down, paralyzed. The wolf ate on 
her from the rear end forward, while she bled to death. That 
wolf killed a cow and orphaned her calf. The baby calf is too 
young to survive. We lost both the cow and the calf. We get 
paid for the cow. Last Friday, I was told we do not get paid 
for the calf, because the wolf only orphaned the calf, it did 
not kill it.
    In paragraph 22(b) of my testimony, you will read about two 
other kills we get no compensation for. That experience 
demonstrates a willingness on the part of the FWS investigators 
to fiddle with the truth. It also shows the incredible burden 
on ranchers to prove that we have a wolf kill. That is what you 
call a conflict with livestock. That is actually a wolf kill.
    And, there is more. As we report in paragraph 22(c) of our 
materials, a week after we had a number of wolf kills on our 
south ranch, we had another kill on our north ranch. A wolf 
from the Buckaloo Pack killed a cow/calf pair in that pasture.
    Could we go to the last slide? They confirmed the calf was 
a wolf kill, but the cow which the wolves chased into a bog 
hole where it died was only a probable kill. That is the cow. 
That is the bog hole. She had two creeks running right beside 
her, and she headed for the bog hole. That is where she died.
    Let's go to the next picture. Upper left, that is the calf. 
That is what a calf looks like. That is a wolf conflict with 
livestock. That is what a calf looks like after a wolf's got 
it.
    I ask that you would review the specific examples we have 
shared with you, the cost to us this year, over $116,000 
uncompensated cost to the Spur Ranch Cattle Company, before you 
include what it is costing us for decreased weights on our 
calves.
    Mr. Gohmert. Thank you.
    [The prepared statement of Mr. Paterson follows:]
  Prepared Statement of Thomas W. Paterson, Spur Ranch Cattle Co. LLC
                    who we are, where and what we do
    I represent the Spur Ranch Cattle Co. LLC. The owners are my wife, 
Callie, our daughters, Lindsay and Caroline, and myself. Majority 
rules, and I don't control a majority. Callie has a BBA in accounting 
and an MBA in Tax from the University of Texas. She's a CPA. Lindsay 
was graduated from Yale in 2014. She's an associate with Riverstone 
Holdings in New York City doing energy private equity. Caroline was 
graduated from Sewanee: the University of the South last May. She's an 
economist with Alvarez & Marsal in Houston. I'm from Clifton, Arizona. 
I was graduated from high school in Silver City, New Mexico, did my 
undergraduate in Agricultural Economics at Texas A&M, got my masters 
and Ph.D. in Ag Economics and a law degree from the University of 
Wisconsin. I've practiced law for going on 32 years. I'm a partner with 
Susman Godfrey in Houston. I'm licensed in Texas and New Mexico. I 
practice oil and gas. I'm at the ranch about a week each month. When 
I'm not, I spend about 25 hours a week on ranch business. Our ranch 
crew includes our south ranch foreman, Clint Fischler. He lives with 
his family on the South Ranch 6 miles west of Alma. Clint has years of 
experience working cattle. We've got a couple fellows helping Clint. 
The foreman position for the north ranch near Luna is currently open.
    We are located on both sides of Arizona/New Mexico line, about a 
third of the way up from Mexico to Colorado. This is rough, mountainous 
country. Our elevation ranges from 4,500 feet to 9,000 feet. It's easy 
for cattle to hide. Geronimo was born not far away. According to 
Captain French in his book Recollections of a Western Ranchman, it's 
where the Apache went when they jumped the reservation at San Carlos in 
the 1800s. It's also on what's known as the Outlaw Trail. Think Butch 
Cassidy and the Sundance Kid. They once worked on the WS Ranch in this 
area before the Pinkerton agents swooped in.
    We now run about 500 head of mother cows on 125,000 acres of 
Federal grazing leases. To put that in perspective, that's about a 
fifth the size of Rhode Island. We have a north ranch for summer 
grazing and a south ranch for year-long and winter grazing. Much of our 
south ranch is formally designated primitive. It is part of the Blue 
Range Primitive Area. It is administered as if it is Wilderness. We 
also use about a section or 640 acres of private land. The pastures 
range in size from our smallest, which are a couple section breeding 
traps to our largest, which is over 30 sections or about 20,000 acres. 
The pastures on the south ranch in primitive area are accessible only 
by horseback or on foot.
    We run our cattle near the communities of Luna and Alma, New Mexico 
and Alpine and Blue, Arizona. When you stand on top of Maple Peak in 
the southwest corner of our south ranch, you can see the tailings dam 
at Morenci, Arizona, about 30 miles away.
    We are active and aggressive conservationists. The Spur Ranch Safe 
Harbor Agreement was among the first in our region between USFWS and a 
private landowner. Through the Spur Ranch Project, we have done close 
to $1 million in erosion control projects on a tributary to the San 
Francisco River as well as forest thinning and burning.
    We obtained our Forest Service grazing permits in 2008, 2009 and 
2012. Each allotment was in very poor condition. Fences were down, 
stock tanks were filled with forest trash and silt, water distribution 
pipelines were in disrepair, wells were nonfunctional and there were no 
facilities for working cattle safely or for our employees. Feral cattle 
ran on the south ranch.
    Things are different today. We haven't finished our building work 
by any stretch but we are well on our way. We have put in tens of 
thousands of stays to fix existing fence. We've built many miles of new 
fence to replace what didn't exist or couldn't be fixed. We've cleaned 
stock tanks. We've replaced those pipelines. We've expanded their 
coverage extensively. We've fixed the wells and drinkers. Professor 
Temple Grandin and her colleagues designed our working facilities, 
which are safe for cattle and the people working them. Our employees 
and their families have modern housing. There is an occasional feral 
animal that shows up. By and large, they are gone.
    We don't raise cattle the way grandpa did 100 years ago. We are 
committed to best practices for our cattle. We routinely get and rely 
on input from our extension veterinarian, Dr John Wenzel, and from our 
extension beef cattle specialist, Dr. Marcy Ward. Both are excellent 
resources. We have commercial cows and registered Angus, Simmental and 
Sim-Angus bulls that we buy from throughout the West. During breeding 
seasons, we figure we need 1 bull for every 10 to 15 cows. I'm 
dickering on some now. Last year the price was $6,000 a head. Trich is 
a sexually-transmitted disease. It causes abortions. It has been a 
terrible, wide-spread problem in our area. We test our bulls for it 
annually. To date, we have been negative--a testimony to the diligence 
our staff shows in keeping out neighbor cattle.
    We endeavor to give our cattle the best care possible. We are in 
country that is deficient in some minerals. Our cattle have salt and 
loose minerals year round. When the grass is dry, we cake and put out 
tubs to supplement the protein the cattle get from the dry grass. We 
routinely check in with our extension veterinarian for any changes in 
our vaccination protocols. We vaccinate the cows each spring for black 
leg and bovine respiratory disease, among other things. We preg test 
fall calving cows in the spring. We preg test spring calving cows in 
the fall. Last year we tested the herd for bvd, bovine viral diarrhea, 
which causes abortions. The results were negative. When we bought 
replacement heifers last year, they cost $2,500 each. Each cow has an 
ear tag and an electronic identification button. We use Cattle Sense 
for our electronic record keeping.
    We are getting just under an 80 percent calf crop. That's not good 
enough. Given the body condition scores on our cattle when they are 
bred, research from the University of Nebraska indicates that we should 
be at 90 percent. Calves are born in the spring or in the late summer 
and early fall. Calves are vaccinated at branding, which happens twice 
a year. Each gets an ear tag with its mother's ear tag number on it. It 
is rare for any animal to get an antibiotic, which means we're all 
natural. We sell calves in the spring and fall. Spring calves average 
about 500 pounds. Fall calves are about 40 pounds lighter. Before they 
are sold, we precondition the calves for 45 days. That means they are 
weaned, have their vaccinations current and are trained to eat at a 
bunk and water at a drinker. For the past couple years, we've sold our 
calves to a feedlot near Dodge City, Kansas. A year ago, we sold our 
calves for over $300 a hundred weight. This past spring, they sold for 
two-thirds of that. The current market shows we'll get significantly 
less this fall. We are waiting for our grazing fees to follow suit.
                         experience with wolves
    Since we began running stockers in 2009, we've never had a year 
when each animal is accounted for. From 2009 through 2011, we weren't 
able to account for about half a dozen head each fall when we gathered. 
We don't know what happened to those cattle. Did wolves, bear or lion 
kill them? Did they die of natural causes? Did a hunter shoot them? Did 
someone rustle them?
    We switched from a stocker operation to a cow/calf operation in 
2012. When we did, we made some significant changes from how our 
neighbors operate in order to accommodate the wolves. Most of our 
neighbors have calves born year round. There's a problem. Having baby 
calves in the area where the wolves are denning in the spring means 
we're more likely to have calf kills. The wolves go after those calves. 
The cows intervene. The wolf tends to kill the cow and orphan the calf. 
For this reason, we have elected to manage our herd to have a late 
summer/early fall calving season. In the fall, the concern with wolves 
is still present but somewhat less because the pups are larger and elk 
hunters leave gut piles starting around September 1. What happens 
though if the fall calving cow isn't bred when we preg test in the 
spring? Do we wait to breed her the following fall and lose a full year 
or go ahead and breed her for a spring calf? We typically opt to breed 
them, which means we will have cows calving in the spring. Research 
recommendations on calving only in late summer/early fall sometimes 
don't seem to get that point.
    We've suspected wolf kills since we switched to running cows in 
2012. Each year, a certain number of cows didn't come back in at 
gathering time. We'd find some on the next cycle. Some we never have. 
Were they killed, did they die of natural causes, did hunters kill 
them, did someone steal them or are they still out there? We don't know 
and that's not for a lack of trying.
    Some of our suspicions about the wolves' role in our losses were 
confirmed during 2015, when we had our first confirmed wolf kill. This 
year, 2016, has been a wreck because of our confirmed losses. We have 
found where wolves have attacked our spring calving cows in a two 
section breeding trap and in a small pasture on our north ranch. This 
year we know that we've lost seven cows to various causes, all but one 
of which we found because they were in very small pastures. The seventh 
cow was killed in a large pasture but near a stock tank we regularly 
monitor. The wolf investigators confirmed that one cow was a wolf kill 
and one was a probable kill. Of the other five, we think one died of 
natural causes, two were also wolf kills the investigators couldn't or 
wouldn't confirm, one was a bear kill and one was too far gone to know 
what killed it. We know of two calf kills; the investigators confirmed 
these as wolf kills.
    The practical challenge we have is that we will never really know 
how many other wolf kills we've had. The kills we find are in our 
smallest pastures. You don't find them in pastures that are many 
thousands of acres large. By the time all the varmints are done with a 
carcass, we don't even find the plastic ear tag. The research results 
vary and individual situations differ but an estimate from USFWS--that 
we think is conservative--is that, for every wolf kill you find, there 
are at least five that you don't.
                         impact from the wolves
    Death loss on cattle is not the only impact wolves have on us. We 
get lower body condition scores on our cows. That translates into 
reduced conceptions. We have lower weaning weights on our calves than 
we should. We spend many precious daylight hours moving our cattle to 
other pastures to avoid wolf concentrations. We also spend those 
precious hours monitoring for predators and looking for dead cattle. We 
spend time administratively dealing with the USFWS in New Mexico or the 
Arizona Game & Fish on reporting and compensation requests. Every kill 
consumes time on the ground--a couple hours to a half day--to meet with 
investigators and a couple hours administratively to request reports, 
submit reports and do followup.
    There are other, perhaps less obvious impacts from the wolf. One is 
employee retention and safety. Some cowboys will endure threats from 
bears, lions, coyotes, rattlesnakes and scorpions. The wolf is 
different. It doesn't run away. We've had guys quit because they don't 
want to deal with the wolf.
    The wolf has an impact on our communities, My 85-year-old friend 
Howard in Luna lives on the edge of the woods with his three dogs. He 
has seen a pack of nine wolves from the Escudilla Pack cross behind his 
house. His dogs would be an appetizer for that pack. They go inside. We 
don't want to be stalked. Does using the forest now mean that people 
have to carry a pistol for protection? That goes for hikers, campers, 
off-road enthusiasts and hunters. To the extent those people stop 
coming to our communities, we lose tax receipts and our businesses 
become even more marginal. I've asked about wolf tourism. The response 
I've received is that the notion is a farce.
                       problems and frustrations
    The apparent objective of the radical environmental community is to 
remove man from landscape. The wolf is one mechanism they are using to 
do that. That is not multiple use management of our public lands.
    These wolves are not the majestic animals on pet food commercials. 
Please look at the photos on my exhibits. Wolves are ruthless killers 
who are preying on our livestock.
    They are costing us time and money.
    Don't fool yourselves. There isn't a real compensation program in 
place. The current rules require Wildlife Services to confirm the wolf 
has killed an animal to be eligible for compensation. Dig deeper. These 
kills occur on pastures that are thousands of acres large. The rancher 
is charged with finding the kill. He has to do so before the carcass 
deteriorates or is otherwise fully consumed by the wolf and other 
varmints. Indeed, if it is so hot that a carcass will deteriorate 
quickly, he's got to be on top of finding that needle in the hay stack 
almost immediately. If Wildlife Services does confirm the wolf kill, we 
have to wait for a depredation report. The one from a kill the summer 
of 2015 didn't show up until March 2016. Once we have the depredation 
report, we have to request reimbursement. We wait. Often for months. 
Here are real examples:

        In May of this year, we branded calves that had been born this 
        spring. We paired them up with their mothers and gave each an 
        ear tag that had the same number as on its mother's tag. We 
        then branded and vaccinated the calf. We vaccinated the mother. 
        We then took them to our Cradle Mesa Breeding Trap, a fenced in 
        pasture of about 1,280 acres and put them with the bulls to 
        breed them so they'll have a calf next spring. In early June, I 
        got a call from the USFS on a Friday afternoon that a lone, 
        male wolf number 1388 was in our area. I asked the USFS to have 
        someone from USFWS come out and haze that wolf away from our 
        cattle. He called back, told me he had tried but, because it 
        was the weekend, no one was available to help. Wolves work on 
        weekends even if government employees don't. That weekend we 
        had a wolf kill on a cow in that pasture. Wildlife Services 
        confirmed it. I've attached a copy of that June 4 depredation 
        report as an exhibit. The wolf had immobilized the cow under 
        her front legs. She went down and couldn't get up. The wolf 
        began eating her from the rear end forward. She was still alive 
        for part of that until she bled to death. We got a depredation 
        report. We submitted it for payment. We got payment on that cow 
        in early September, which was record speed. But what about that 
        calf? It was too young to survive on grass on its own and we're 
        not equipped with the help to bottle feed it. Do we let it die? 
        No. Do we slit its throat? No. What's humane? We donated it to 
        the FFA kids to raise. Is that calf an economic loss to us? 
        Absolutely. Who is responsible for it? The wolf. Will we get 
        compensated for it? No. I found out on Friday that we won't 
        because the wolf only orphaned it; the wolf didn't kill it. 
        That's what we call a stupid rule.

        There's more. Early that next week, on June 8, we found two 
        more cows dead in that pasture. We called Wildlife Services. 
        They came the next day with personnel from USFWS. They reported 
        that these two cows had been dead for 5 to 6 months and they 
        couldn't say what killed them. No confirmation, no 
        compensation. We were furious. Those cows hadn't been dead for 
        5 to 6 months. If they had been, then they had a miraculous 
        resurrection experience. That is, they rose from the dead, 
        finished out their pregnancies, calved, allowed us to gather 
        them, take them to our processing facilities, and brand and 
        vaccinate them. What's more, we paired them up with each's 
        calf, put the mother's tag number on the calf's ear tag and 
        then hauled them out to that breeding trap. That's where they 
        were when, apparently, those cows died from some unknown cause 
        and miraculously looked like they'd been dead for 5 to 6 
        months. When we pointed this out, the response we got was 
        dismissive: ``Regardless of how long the cows had been dead, 
        Wildlife Services couldn't detect the cause of death.'' No 
        compensation. Not for the two cows. Not for the two calves. I'm 
        disappointed to report that, contrary to what they told us on 
        the ground, by the time we got the depredation reports after 
        we'd confronted them on their proposed dates of death, they 
        changed their estimate to say one cow had been dead for 2 weeks 
        and the other dead for 3 weeks--not for 5 to 6 months. I've 
        attached a copy of that report. What about lone male wolf 1388 
        that was in that area at that time? This is one of those 
        genetically diverse wolves that USFWS treasures. They wouldn't 
        pin the kills on him. The USFWS did agree to pick him up and 
        move him to Grant County. That wasn't a perfect solution when a 
        wolf can travel many miles a day but it was better than having 
        him on top of us while we were now gathering the cattle out of 
        that pasture a month early and moving them to our north ranch. 
        The problem: USFWS called me back a couple days later to tell 
        me that a Federal district court judge had ruled that USFWS 
        could not release any more wolves in New Mexico until further 
        order of the court. If USFWS couldn't release Wolf 1388 in 
        Grant County, they weren't going to pick him up. I called them 
        out on that. The Court's order didn't tell them they couldn't 
        pick that wolf up. They could do that and put him in a zoo or 
        they could adopt him out to live with people who advocate for 
        wolves. Nothing doing. Wolf 1388 is a desirable wolf. It is 
        genetically diverse. It mysteriously disappeared into Arizona. 
        As far as we know, it is still killing stock. The only good 
        thing that came of this: The USFWS stopped having a young guy 
        call me up periodically to extol the virtues of the wolf 
        program. Now, the senior administrator, John Oakleaf, does the 
        calls and he, fortunately, knows how to give me a straight 
        answer.

        There's still more. A week later, a different wolf from the 
        Buckaloo Pack killed a cow/calf pair in that pasture on our 
        north ranch. Wildlife Services confirmed the calf and went out 
        on a limb to say the cow was a probable kill, which cuts any 
        compensation in half. Please look at the photos of that kill we 
        called in on June 20. That's what a calf looks like after a 
        wolf gets it.

        And, most recently, we know that a wolf killed one of our baby 
        calves near Alpine, Arizona. How'd we find it? Someone was out 
        hiking. They saw the dead calf. They took a photo and posted it 
        to Facebook. The USFWS saw it and called us. Clint went to find 
        it on August 22. He did. At least, all that was left--one back 
        leg. He took the leg in to the wolf people in Alpine. They 
        confirmed it was a wolf kill. We got that depredation report on 
        September 14. I must say that speed on my depredation reports 
        has improved over the past several months.

        And yes, there's more. During the summer of 2015, we had a 
        confirmed wolf kill near Alpine. The wolves killed the cow as 
        she was calving. We lost the cow and the calf. We didn't get 
        the depredation report until March 2016. We got payment in mid-
        August 2016, about a year later. That delay cost me another 
        calf. You see, by last fall we'd have had that cow in a 
        breeding pasture with bulls. There's an 80+ percent chance 
        she'd have conceived. That cow would have calved late this 
        summer and we'd have a calf to sell next spring. The delay on 
        administering the program ended up costing me two calves, not 
        one.

        Last, there's a wolf presence program in Arizona and in New 
        Mexico. This is compensation for wolves generally. It doesn't 
        depend on confirmed kills. It should reflect the cost to a 
        rancher of lower pregnancy rates and lower weight gain on our 
        calves. Both are a reality. When wolves are running down cows, 
        they're less likely to go into estrus or stand to be bred. When 
        wolves are running stock, they are running body condition off 
        the cows and they are running weight off the calves. I applied 
        for payment in 2014. When I didn't get paid, I asked and was 
        told the Wolf Council didn't get my applications. OK. My 
        mistake, I didn't send them registered mail. I applied for 
        payment before the June deadline this year. I got a call in 
        late August that they didn't have my application. I went 
        through my files, found the application and emailed them in. 
        What's the problem here? Aside from no payment for 2014, 
        there's an attitude that the rancher has unlimited time to 
        respond to bureaucrats who can't get their paperwork straight. 
        I called on Friday, September 16 to find out if we are getting 
        paid this year. The answer is yes. The amount, I was told, is 
        at the high end. It is $7,048. That doesn't come close to 
        compensating us for a very conservative 10 percent decrease in 
        weaned calves, which is how we compare to what we think our 
        weaning rates should at least be. The loss of 50 calves at 
        USFWS rates is about $53,000. The $7,048 is 13 percent of what 
        we think our losses are. The net loss to us is $45,952.

        Let me put the wolf compensation program in perspective for 
        you. There isn't one. For just this past summer, we know that 
        wolves have killed four cows, three on our south ranch and one 
        on the north ranch. They've killed two calves. They've orphaned 
        three other calves, all of whom are being raised by the FFA 
        kids. At $2,500 a pop for a cow and $1,060 for a calf, that's a 
        $15,300 loss to us. Of that, we qualify for payment on one and 
        a half cows and two calves or $5,870. The net loss to us is 
        $9,430. That's what we know about. Based on published research, 
        we believe that for every confirmed wolf kill, there are at 
        least five kills we never find. I'll know more about our actual 
        experience by the end of October when we finish gathering. If 
        it were true, however, this year alone we've lost 20 cows and 
        25 calves. The cost to us would be $76,500, of which we will 
        get $5,870 back. That's a net loss of $70,630 before we include 
        the decrease in conception rates. When we add that net loss of 
        $45,952 in, we get a net loss of about $116,582. Who, we ask, 
        is bearing the brunt of the cost of the wolf program on the 
        ground? The rancher is. This is a business. Our profit is on 
        the revenue we receive from the last calves we sell. How do you 
        expect us to stay in business with those losses? We can't stay 
        in business to feed wolves. Our cattle are not wolf food. The 
        rules don't reflect reality. They don't reflect the size of our 
        pastures. The burden of proof is completely and undeniably on 
        the rancher. That's not a fair compensation program. If the 
        American people want wolves on the ground, they should pay for 
        the privilege. They aren't.

    It is certainly legitimate to turn the tables and ask, as between 
the rancher and the wolf, what benefit does the American public receive 
from having ranchers on public lands? Here are some data points: We are 
the ones consistently on the ground in much of this country. We have a 
vested interest in wise management of the resource. If the land or 
water fails, we don't survive. We spot forest fires and report them. We 
remind hunters that they can't camp next to where our cattle and 
wildlife go to water. Our presence is a deterrent to illegal wood 
cutters. Wildlife poachers don't want to be observed, so we are a 
threat. We are also a deterrent to the crazies who don't want to be 
seen in the woods. These include the people who mutilate animals--cats, 
dogs, and cattle. When the game and fish has a question or a concern, 
they call us. We are the ones who keep up the fences that have been 
there for decades so there can be rotational grazing. Without those 
fences, feral cattle become a problem, especially in riparian areas. 
The XXX Allotment in Arizona is a persistent example of feral cattle 
hammering riparian areas on an allotment that is in non-use. We enhance 
and maintain the water resources that wildlife use right alongside our 
cattle. Our cattle are not the only ones that use the salt, minerals 
and protein we put out. Elk, for example, are routinely at our salting 
grounds. Our ranch families have children who go to our local schools. 
We and our employees support local businesses. We produce a grass-fed, 
all natural product that enters the food system. Consumers around the 
world want that protein. Their demand will only continue to grow in the 
decades to come. Those are benefits from ranching on public lands. 
People whose intention is to use the wolf program to remove us from the 
landscape should consider carefully what the resource costs will be if 
they are successful. If the American people are truly committed to 
multiple use management, please stop trying to use the wolf to drive 
ranchers away. Give us a fair compensation system for the economic cost 
to us of the wolf.

                            recommendations

  1.  Remove the wolves. In life we have to do cost/benefit analyses. 
            What have we genuinely gained from the wolf program? What 
            has it cost? The last estimate for the Mexican Gray Wolf 
            Program is approaching $37 million. That cost is increasing 
            at about $3 million per year. For the 97 wolves now 
            estimated to be on the ground, that's about $30,000 per 
            wolf per year. The cost far exceeds any benefit from them 
            in this settled region. The program has failed. We should 
            stop spending money on a failed program.

  2.  If you're not going to remove the wolves, do more than pay lip 
            service about the rancher. We don't need a pat on the head.

      --  Get serious about compensating ranchers fairly for the cost 
            the wolves impose. That's all the costs--direct and 
            indirect.

      --  At the very least, give ranchers in wolf country a discount 
            on their grazing fees. It costs us more to operate with the 
            wolf than those who don't have varmints. We currently pay 
            the same as everyone else.

      --  You should authorize the USFS to stream line NEPA so we can 
            manage around the wolves. Don't make us wait years on NEPA 
            to do the improvements we need to manage cattle around the 
            wolves. That means fences and water projects get reviewed 
            and authorized on an expedited basis.

      --  Allocate the money to the USFS to use to put allotments in 
            non-use back in functional status and hold them open for 
            ranchers to use when wolves are attacking his or her 
            cattle.

      --  When a wolf has two confirmed kills on cattle, it has likely 
            killed a lot more. Track the wolf down and kill it or 
            remove it permanently from the wild.

      --  Encourage communication with ranchers so we know where the 
            wolves are.

      --  Compensate ranchers for costs of moving cattle to unscheduled 
            locations to avoid wolf conflicts. That's wages to gather 
            the cattle at $125 a day per cowboy, hay most recently at 
            about $200 per ton to feed the cattle in the holding pen 
            during gathering and trucking at $4 a loaded mile.

      --  Tie compensation to wolf numbers in and around allotments 
            rather than just to specific kills. Compare data from pre-
            wolf release predation losses to current losses and 
            compensate accordingly. Paying a couple thousand dollars 
            for a 10-20 percent decrease in conception rates doesn't 
            come close for us.
  3.  Wolves do not fear man. Why should they? We are threatened with 
            jail if we shoot them. Change that. Teach them to fear man 
            and his environment to keep the wolf away from us and our 
            livestock.

      --  Have a special permit hunting season on them.

      --  Allow private landowners to kill wolves whenever they are on 
            private property and regardless of whether they are 
            attacking livestock, pets or the owner.

      --  Allow anyone to shoot wolves with rubber bullets on Federal 
            lands.

  4.  Things you can do to help wolves be successful but minimize their 
            impact on man.

      --  Train wolves to eat elk by wounding elk in seasonal pastures 
            not then in use by livestock so they can then kill and eat 
            the animal.

      --  Provide early and timely suspected den locations so livestock 
            can be moved away prior to whelping. Don't wait to tell us 
            until after we move in.

      --  Allow permittees and our agents to use rubber bullets or 
            paint guns to dissuade wolves from hanging around livestock 
            during calving seasons.

                                 *****

The documents that were submitted as supplements to Mr. Paterson's 
testimony are part of the hearing record and are being retained in the 
Committee's official files.

                                 ______
                                 

    Mr. Gohmert. I will recognize myself for 5 minutes for 
questioning. We appreciate everybody's testimony. I want to go 
to Mr. Guertin.
    How many red wolves did the Fish and Wildlife Service 
originally plan to introduce into North Carolina?
    Mr. Guertin. Twelve, Mr. Chairman.
    Mr. Gohmert. How many did they end up actually introducing?
    Mr. Guertin. Well over 100, Mr. Chairman.
    Mr. Gohmert. Last week Fish and Wildlife announced that 
your captive breeding population was unsustainable at its 
current level. Is that your understanding?
    Mr. Guertin. Yes, Mr. Chairman.
    Mr. Gohmert. So, by reintroducing between 132, as I 
understood, and 165 wolves from your captive breeding program 
into the wild, instead of 12, you have effectively decimated 
your own captive breeding program. Correct?
    Mr. Guertin. Well, Mr. Chairman, it is a little more 
complicated than that. Many of the wolves that have been 
reintroduced into the wild have not survived. They have been 
hit by cars or trucks, they have been shot--
    Mr. Gohmert. Can you check your microphone, please.
    Mr. Guertin. Mr. Chairman, just for clarification, many of 
the wolves that were reintroduced to the wild did not survive. 
They were either shot, they were killed by trucks, they died of 
natural causes.
    So, over time, what we found out through rigorous analysis 
of the available science is that the seed stock we have 
maintained in these captive breeding programs was not adequate 
to ensure genetic integrity, going forward. What was announced 
was this vision of bringing a refocus to the red wolf recovery 
program by focusing on rebuilding a larger, more robust captive 
breeding program, and, at the same time, pulling wolves back on 
to Federal lands in North Carolina.
    Mr. Gohmert. Well, is it true that you plan on doubling the 
size of your captive breeding program?
    Mr. Guertin. We are envisioning increasing the number of 
wolves in the captive breeding program up to about 400. Yes, 
sir.
    Mr. Gohmert. And, by the way, when I was asking about the 
captive breeding program being decimated, I guess that 
anticipated that the wolves were being killed. That is how it 
would----
    Mr. Guertin. Yes, sir, I understand.
    Mr. Gohmert [continuing]. Decimate a program. Tell us what 
Fish and Wildlife plans to do with the red wolves once the 
captive breeding population is increased to over 400 wolves.
    Mr. Guertin. Sir, over the next several years, as we work 
with the partner organizations throughout the country on the 
captive breeding program, we are also re-looking at the larger 
status of the species. We are looking at, over time, the 
potential to work with partners on additional release sites for 
wolves. None have been determined, no conversations have taken 
place yet. And we are going to manage the few remaining wolves 
in the wild as part of this larger metapopulation, coupling 
those wolves in the wild with those held in the captive 
breeding program.
    Mr. Gohmert. Well, I hope that you will take a moment at 
some point and think about how it sounds to some of us if you 
introduce far more wolves than you anticipated introducing, and 
the program ended up being a terrible failure, so you are going 
to double that number. It would seem to some of us that perhaps 
you would be better off maybe halfing or quartering that 
number, so that the wolves have more area in which to survive 
on.
    Yes, sure, maybe trucks hit them, there are always going to 
be natural causes. But, for heaven's sake, doubling the number? 
It seems like you are going to ensure a double devastated 
program. Have you considered that possibility?
    Mr. Guertin. Yes, sir. I understand your perception of what 
we are doing. What we are doing is looking at the underlying 
science. The underlying science has issued us a warning that 
the wolves held in the captive program are not enough to ensure 
we have the strength, at a biodiversity level and a genetic 
level, to fully achieve our recovery goals for----
    Mr. Gohmert. Well, isn't it possible, Mr. Guertin, that you 
have dramatically under-estimated the habitat size needed in 
order to sustain one red wolf?
    Mr. Guertin. Yes, sir. We recognize that the original 
release area centered on the Dare Bombing Range and Alligator 
River was not large enough to sustain the larger wolf 
population that we envisioned, and that is one of the 
underpinnings for our decision to re-look at the entirety of 
the program.
    Mr. Gohmert. And double it.
    Mr. Guertin. Double the number of animals in captivity.
    Mr. Gohmert. After you have learned that the habitat is 
much larger than you anticipated.
    I see my time is expired, and I will now yield to the 
Ranking Member, Mrs. Dingell, for 5 minutes.
    Mrs. Dingell. Thank you, Mr. Chairman.
    Mr. Bean, in his testimony, Mr. Moore claims that since 
Congress delisted gray wolves in Idaho, state management has 
been far superior to management under the Endangered Species 
Act. However, the Idaho legislature has codified a shoot-first-
ask-questions-later approach through its wolf depredation 
control fund, spending $2 million to kill wolves with no 
consideration of nonlethal control measures. This has led to 
trapping and aerial gunning of wolves on U.S. public lands, 
including in federally-designated wilderness areas.
    Do you believe this constitutes sound wolf management?
    Mr. Bean. I believe that the state of Idaho, Representative 
Dingell, uses a variety of techniques in approaches to manage. 
And yes, it is true that every cent of that $2 million that you 
referred to, which is the Idaho Wolf Depredation Control Fund, 
must be used for killing wolves, and that none of it can, by 
statute, be used for nonlethal.
    It is also true that in the state of Idaho many more wolves 
are killed by the IDFG managed hunting season by hunters with 
licenses and wolf tags. But many wolves are still killed in 
Idaho as a consequence of depredation. I believe that that 
number, in fact, could be substantially less if there was a 
greater emphasis in our state in underscoring the benefits, and 
certainly supporting nonlethal. If we had more nonlethal 
commitment, I believe that fewer wolves would need to be 
managed lethally by virtue of livestock depredations that would 
be fewer and less extreme.
    Mrs. Dingell. So, what impact do wolf killing subsidies 
like this--and I am going to need you to go a little faster, 
because I have a short period of time--and the lethal control 
actions of USDA's wildlife services have on taxpayers and on 
the development and adoption of clearly superior wolf-livestock 
conflict avoidance techniques like those you employ?
    Mr. Bean. Well, if you are asking what it costs to kill a 
wolf, that can be a matter of a few hundred to a few thousand 
dollars, or it can be, in one case, $30,000 for a single wolf. 
But not in Idaho. Seven to eleven thousand is a reasonable 
estimate. That is entirely borne by the taxpayer, typically, 
and usually the Federal taxpayer, and in some cases state.
    Mrs. Dingell. Quick, quick, could you contrast what your 
management is to Oregon's, please.
    Mr. Bean. Yes, Oregon's management places nonlethal in a 
priority position. The Oregon Department of Fish and Wildlife 
has on their Website the statement that lethal control will not 
be considered unless nonlethal is implemented first. So lethal 
control is on the table, but an operator that is affected by 
wolf depredation, to be able to get lethal control must have 
tried nonlethal. It is the preferred preventative management 
tool in Oregon, and it is said explicitly that that is the 
case.
    Mrs. Dingell. OK, thank you.
    Dr. Vucetich, I am sorry we are running out of time, but a 
study released last month has been widely reported to show that 
red wolves are not a distinct species, but instead are some 
type of coyote hybrid. While hybridization with coyotes is 
certainly a threat to red wolf recovery, you state in your 
testimony that there was widespread agreement among experts 
that the red wolf is a listable entity under the Endangered 
Species Act under any plausible scenario describing its 
evolutionary history. Will you please clarify for the committee 
why the red wolf is not a coyote hybrid, even though the two 
animals share common ancestry?
    Dr. Vucetich. The best way to understand the answer to that 
question is to introduce a piece of jargon that is known as 
``admixture.'' Admixture refers to an organism that has parts 
of its genome from two different species. A really interesting 
example of this would be that most Europeans--human beings, 
now--have a portion of their genome that came from 
Neanderthals. This does not mean that Europeans are hybrids 
between Neanderthals and humans.
    A similar thing, an analogous thing, is likely to be the 
case for Mexican wolves. It is possible to have genes from more 
than one source and not be a hybrid.
    Mrs. Dingell. Were the FWS's efforts to reduce 
hybridization risks to red wolves in North Carolina effective 
before being discontinued?
    Dr. Vucetich. They were impressively effective. The best 
estimates are that less than 4 percent of the wolves in the 
population in the wild are hybrids, and that is more than 
manageable to preserve the genome of red wolves.
    Mrs. Dingell. Thank you.
    Mr. Gohmert. At this time the gentleman from Idaho, Mr. 
Labrador, is recognized for 5 minutes.
    Mr. Labrador. Thank you, Mr. Chairman. First, I want to 
thank both of our Idaho witnesses for coming out here today to 
testify.
    Quick question for you, Mr. Bean. I know you are an 
advocate for nonlethal control, but you are not opposed to 
lethal control of wolves, correct? Just yes or no.
    Mr. Bean. The answer is I am not opposed to lethal control.
    Mr. Labrador. OK.
    Mr. Bean. It has to be on the table, or you will not get 
producers to participate.
    Mr. Labrador. Thank you very much. As Director Moore stated 
in his written testimony, the population of wolves in Idaho 
continues to thrive under state management, far exceeding the 
recovery levels set by the Fish and Wildlife Service when it 
reintroduced them in 1995.
    It is clear from our witnesses and from our attendance 
today that wolf management is a critical issue for people 
throughout our Nation; and I would like to draw the committee's 
attention to this photo, which was taken in 2013, after a wolf 
in Idaho drove 176 sheep over a cliff to their death.
    [Slide]
    Mr. Labrador. While I apologize for the disturbing nature 
of this photo, it is an accurate illustration of what so many 
people are dealing with, and why oversight of wolf management 
is so important.
    Director Moore, Idaho is successfully managing a thriving 
wolf population. How many wolves are in Idaho now, and what was 
Fish and Wildlife's original wolf population goal?
    Mr. Moore. We have, as of this year, 786 wolves in the 
state of Idaho. That is our best minimum estimate. And the 
recovery goal was 100 wolves for the state of Idaho.
    Mr. Labrador. What has made Idaho's wolf management so 
effective?
    Mr. Moore. I believe it is because we had a lot of open 
space and a lot of forage. Wolves are not a habitat-dependent 
species. They are dependent more on human tolerance and on 
availability of forage.
    Mr. Labrador. OK. How does Idaho respond to cases of wolf 
depredation on livestock?
    Mr. Moore. As Director, I authorize those activities. When 
a landowner notifies us and is verified by USDA wildlife 
services that we have a wolf problem, we will issue a variety 
of control actions. Those control actions can be to the 
landowner or through wildlife services for either lethal take--
generally it is lethal take, that is the preference of the 
landowner or the operator.
    Mr. Labrador. Director Moore, in your written testimony, 
you describe the path to state management of a robust wolf 
population was tortuous, and that you are deeply disappointed 
that an Act of Congress was necessary to reinstate state 
management of wolves in Idaho and Montana.
    Even though Idaho has proven without a doubt that state 
management of recovered species works, do you feel confident 
that the Federal Government will allow state management of 
other recovered species without a similar process?
    Mr. Moore. No, I do not. We are suffering from that with 
several other species right now.
    Mr. Labrador. Do you think that we could actually handle 
other species in Idaho?
    Mr. Moore. Absolutely.
    Mr. Labrador. Do you believe that Federal mismanagement of 
wolves is a contributing factor for higher levels of 
depredation in states like Wyoming?
    Mr. Moore. Yes, our information clearly shows that we have 
had a decline of 70 percent in depredation since delisting by 
the use of hunting and trapping, and that we have reduced the 
number of wolves killed during that same time period from 2009 
to 2015 by 43 percent.
    So, controlled hunting and trapping has reduced the need 
for further dependencies. That is not true in Wyoming, where 
they do not have regulated hunting.
    Mr. Labrador. Thank you.
    Mr. Bean, again, thank you for being here today. You play 
an active role in working with county, state, and Federal 
officials, as well as conservation groups and other ranchers to 
successfully manage wolf populations in Idaho. Correct?
    Mr. Bean. That is correct.
    Mr. Labrador. That is what is great about state management. 
States have the flexibility to work with stakeholders to 
develop local solutions to management issues. Would you agree 
with that?
    Mr. Bean. Well, I think that state management and its 
effectiveness depends on the state management plan, and that 
varies state by state. States have very different 
implementations and perspectives on how wolves should be 
managed.
    Mr. Labrador. Based on your experiences, what 
recommendations do you have for Congress to better facilitate 
recovery and management of species?
    Mr. Bean. Of the gray wolf, specifically, sir?
    Mr. Labrador. Or in general.
    Mr. Bean. I think that the cognizant wildlife management 
agency operates within the framework of the ESA. As long as 
that framework is flexible and enables them to adjust and 
manage properly without interference, then they should be 
allowed to do that as the professionals on the ground.
    Mr. Labrador. So you are asking for flexibility?
    Mr. Bean. I am asking for or suggesting that the act 
provides the flexibility that would enable the agency to do its 
job.
    Mr. Labrador. And you have had some successes. How are you 
sharing what you have learned and what works with other 
ranchers?
    Mr. Bean. We have an outreach program through the Wood 
River Wolf Project. We have our Website up for the first time. 
We are adding resources to that Website that would allow people 
to understand what we do. I have personally participated in 
discussions with the fully assembled wolf advisory group in 
Washington State, and am often asked, including remotely, in 
the case of California, to discuss what we have done in terms 
of nonlethal wolf management in Idaho for the benefit of those 
that are just now coming to a realization that wolves are in 
their backyard.
    Mr. Labrador. Thank you very much.
    Mr. Bean. You are welcome.
    Mr. Gohmert. Thank you. The gentleman from Arizona, Mr. 
Grijalva, is recognized for 5 minutes.
    Mr. Grijalva. Thank you, Mr. Chairman.
    I want to go back to you, Mr. Bean. In his written 
testimony, Mr. Paterson makes a number of claims and 
assertions. One of the troubling ones to me are the statements 
saying that his grazing fees should be reduced because wolves 
are present, and that the American people should pay for the 
privilege of having wolves on the ground.
    To be clear, I think we need to clarify that, because the 
American people are already heavily subsidizing the privilege 
of grazing cattle on U.S. public land, and are paying millions 
of dollars each year to help recover threatened and endangered 
species like the Mexican wolf, while also paying for programs 
designed to protect Mr. Paterson's cattle and compensation for 
livestock loss. However inadequate Mr. Paterson believes it is, 
it is still additional taxpayer subsidy.
    So, Mr. Bean, do you believe Mr. Paterson and others have a 
responsibility to protect their own investment as you have 
done, instead of relying on the government to do it for them?
    Mr. Bean. Congressman Grijalva, I believe that all 
livestock producers have an ethical and moral responsibility to 
do what they need to do to protect their animals in the wild. 
And remember, at least in most states, or at least states where 
the delisting has occurred, what you have is lethal control 
actions that are only legitimately possible after livestock 
have been killed. If you prevent the killing in the first 
place, then a lot of the subsidies do not need to come in to 
play, and you have protected your animals.
    Mr. Grijalva. Are you aware of any nonlethal control 
measures that a person such as Mr. Paterson could employ to 
reduce wolf predation on cattle?
    Mr. Bean. Cattle have proven to be a little bit more 
problematic, but a lot of advances have been made in the last 4 
to 5 years, Congressman. These include range riding, and they 
include re-wilding.
    Remember that cattle in most western states lived for 80 
years or more without the depredation pressure of wolves. As a 
consequence, they have lost a lot of their instinctive 
defensive behaviors in the face of this apex predator. So, what 
we have is a situation where we are learning the tools and 
techniques for cattle.
    But range riding has proven very effective, and actually 
has a very important solidary and unanticipated benefit, which 
is sick animals, like calves or cows, are able to be seen and 
treated earlier--that death loss is prevented, death loss can 
go down, overall--more even range land utilization, and 
protected cattle. We have seen that in the Centennial Valley in 
Montana and in the Tom Miner Basin. So, there are existing 
proofs of both those assertions.
    Mr. Grijalva. And by not leaving cattle unattended for long 
periods of time, is that the point?
    Mr. Bean. Well, that is certainly one of the points. If you 
pasture your cattle and come back in 2 weeks, well, you get 
what you get.
    Mr. Grijalva. Do you believe the attitude that wolves have 
no value and should be eradicated is one that is compatible 
with the continuation of ranching on U.S. public lands in the 
long run?
    Mr. Bean. I do not believe that that is compatible with 
ranchers' best interests. I think that the attitude that the 
only good wolf is a dead wolf, or that wolves should be killed 
and that killing paid for by taxpayers on public land, 
including in congressionally-designated wilderness is 
problematic. I think it places our public grazing preferences 
at risk.
    As I had mentioned previously, if those grazing preferences 
go away, then those ranching operations will fail, typically 
because they cannot survive on the deeded properties alone.
    Mr. Grijalva. OK. I yield back, Mr. Chairman.
    Mr. Gohmert. Thank you. At this time the gentleman from 
Arkansas, Mr. Westerman, is recognized for 5 minutes.
    Mr. Westerman. Thank you, Mr. Chairman, and thank you to 
the panelists for being here today.
    Director Sandoval, while the wolves in your state remain in 
the specific geographic area set forth for their 
reintroductions, they are managed as experimental populations 
under their own set of rules and under this 10(j) rule. 
However, wolves tend to move out of those areas onto private or 
state lands, where they are governed by the ESA.
    Do you think it would be better, or more appropriate, for 
states to manage wolves that have wandered outside of their 
geographic recovery area?
    Ms. Sandoval. Mr. Chairman, Congressman Westerman, 
absolutely. When you think about the burden that comes with 
that ESA designation as being fully endangered on that wolf, 
and it walks outside of that geographical area defined by the 
10(j) rule, it becomes extraordinarily problematic to be able 
to measure how you are going to manage that.
    If the state has the ability, and we are far more flexible 
than the Federal Government out there, just by the fact that we 
operate in those areas on a daily basis. The ability for the 
state to be able to manage without having that ESA designation 
would be extraordinarily helpful for the state.
    Mr. Westerman. OK. Mr. Guertin, as my colleague from 
Michigan mentioned earlier, there is a recent study out--I 
believe the one that I saw was by Princeton and UCLA--that 
raised some serious questions about wolf genetics. I believe it 
actually said there is only one species of wolf, the gray 
wolf--and the red wolf is 25 percent gray wolf and 75 percent 
coyote, and the eastern wolf is 75 percent gray wolf and 25 
percent coyote.
    But, nonetheless, it seems that the scientific community is 
unable to reach a consensus as to whether a red wolf should 
even be regulated. And just for the record, your Agency is 
moving forward as if it is a listable entity. Is that correct?
    Mr. Guertin. Yes, Congressman. We believe there is enough 
scientific evidence that the red wolf has been treated as and 
will continue to be treated as a separate species. That is 
based on both genetics, behavioral, taxonomic, and other 
criteria.
    Mr. Westerman. Director Myers, are releases of red wolves 
allowed on private property in North Carolina?
    Mr. Myers. Congressman, under the Federal rules that were 
promulgated by the Fish and Wildlife Service, releases were 
only to occur on Federal lands.
    Mr. Westerman. OK. And, Mr. Guertin, the red wolf recovery 
program required that red wolf populations be self-sustaining 
and contained to Federal lands. Did your Agency release wolves 
onto private property in North Carolina in violation of both 
state and Federal requirements?
    Mr. Guertin. Yes, Congressman. Wolves were released onto 
private land, but they were released under the larger tenets of 
the Endangered Species Act.
    Mr. Westerman. Were there any agreements with the private 
landowners?
    Mr. Guertin. Yes, Mr. Congressman. We had worked to the 
best of our ability with private landowners to make these 
releases. I believe, looking at the historical record, there 
were a couple of instances where that was not hammered out. It 
may have been talked about in concept. But going forward, we 
are intending to do all of these with some type of contract 
with private landowners.
    Mr. Westerman. So, do you have any written agreements that 
you can provide to the committee with the----
    Mr. Guertin. Yes, Congressman. We can and we can provide 
similar documents in other regions in the country, where we 
work on endangered species restoration and recovery efforts for 
species including black-footed ferret or other----
    Mr. Westerman. Can you do that in North Carolina?
    Mr. Guertin. Yes, we can.
    Mr. Westerman. All right.
    Director Myers, what is the general attitude about wolves 
in North Carolina, particularly in regards to wolves on private 
property?
    Mr. Myers. Congressman, it is hard to characterize the 
general attitude. I will say that, given the removal of 
opportunities for landowners in the reintroduction area to 
address concerns with coyotes on their property, the attitude 
toward the red wolf program has diminished significantly.
    Mr. Westerman. I believe there was a program that was tried 
in Tennessee that failed back in the 1990s. This program in 
North Carolina does not seem to be too successful.
    So, Mr. Guertin, what makes the Service confident that 
other red wolf introductions will be successful throughout the 
region between Texas, Pennsylvania, and the Atlantic?
    Mr. Guertin. Congressman, we have learned a lot the last 
few years, both with the red wolf recovery program and our 
experiences particularly with the gray wolf on how to have a 
successful reintroduction and recovery program.
    The vision, going forward for the red wolf, is to first 
cement our seed stock by focusing on genetic integrity of 
animals in both the captive population maintained by a number 
of institutions, as well as some interchange with the wild 
population remaining on the Federal estate there. Second, doing 
a 5-year review to make sure we are track. Third, exploring the 
possibility for additional release sites with willing partners. 
There have been no conversations, other than a concept at this 
point. And fourth, building on some of the hard lessons learned 
in other regions of the country.
    I, before coming back here to Washington, served as 
regional director for our Mountain Prairie Region, and was 
intimately involved in our ongoing efforts for recovery with 
wolves in Montana, Idaho, and Wyoming, including leading our 
team to write those delisting rules so we could move management 
of the species to state control. We want to take those type of 
lessons learned and apply those, as well, to the red wolf 
recovery program.
    Mr. Labrador [presiding]. The gentleman's time is expired, 
and the gentleman from Virginia.
    Mr. Beyer. Thank you, Mr. Chairman. I would like to just 
begin by trying to create a sense of context and proportion. I 
don't want to minimize Mr. Paterson's experience in New Mexico 
or Arizona, but to make the case that wolves do have an 
insignificant impact on the cattle industry in the United 
States. In the eight states with gray wolves, less than 1 
percent, or nine-tenths of 1 percent, of the cattle deaths are 
from wolves.
    In contrast, 8 percent are from weather, 74 percent from 
other health issues. Last year, we slaughtered almost 29 
million cattle in the United States, and gray wolves killed 
6,777. Basically, we slaughter 5,000 cows for every 1 that is 
killed by a gray wolf. I just think it is very important to put 
this overall in proportion.
    And there are multiple programs for reimbursement: the 2009 
Omnibus Public Lands and Management Act, the Mexican Wolf 
Introduction Trust Fund, and the Livestock Indemnity Program. 
As Mr. Paterson suggests, perhaps those programs could be 
improved if you are only getting reimbursed for nine--what was 
it, four calves and five cows--when perhaps you had $116,000 
worth of losses? But clearly, this Congress again and again has 
said that they are willing to pay for depredation losses in 
order to have a balanced approach to our natural resources.
    Let me just look at Wyoming in 2015--134 livestock were 
killed last year by wolves: 72 cattle, 62 sheep. The average 
reimbursement was $2,500. In contrast, there were 77 wolves 
killed by predation. So we actually killed more wolves than 
wolves killed cattle last year.
    Let me move on. Mr. Guertin, the recent population 
viability analysis shows that there is less than a 1 percent 
chance of extinction of the captive red wolves based on the 
current population over the next 100 years, but 100 percent 
possibility of extinction of those red wolves living in the 
wild.
    So, why have you chosen to focus on the captive wolf 
population, while ignoring the larger wild wolf population? In 
the statistics I show, there are only 29 known wild red wolves 
right now. Doesn't the population viability analysis show that 
forcing them to live on only the Alligator River National 
Wildlife Refuge, as proposed by Fish and Wildlife, will 
ultimately result in the extinction?
    Mr. Guertin. Congressman, that is a very astute 
observation. There are very few wild red wolves on the 
landscape right now in North Carolina. At the same time, the 
science is clearly showing us that there are not enough wolves 
in the captive breeding program to ensure species survival, 
going forward. The health of the species is at risk.
    We have made a policy choice to focus on rebuilding that 
seed stock via the captive program using zoos, aquaria, and 
other partners throughout the country. We believe firmly in 
ongoing restoration recovery of the wolf in the wild, and will 
manage both the remaining wolves in the wild and those in the 
captive breeding program with selective interchange and 
replacement to keep the behavioral characteristics we are 
looking for intact in the species.
    We are coupling this with a larger strategy, a larger 
vision, to look at potential areas to rebuild wolves in the 
wild, but we come back to the underlying science, which points 
to us the peril the species is in and the aggressive 
intercession we need to make to ensure viability, going 
forward.
    Mr. Beyer. Thank you, Mr. Guertin. My friend, Mr. Labrador, 
put up a slide of the sheep run off the edge of the cliff. I 
think it was 136.
    Dr. Vucetich, you had written and thought a lot about 
making the argument that wolves don't kill for fun, they kill 
for food. How do you reconcile--and I know you have written 
about that--your perspective with the picture?
    Dr. Vucetich. Well, a wolf is able to live to be about 10 
or 12 years of age, but most wolves are dead by age 4. This is 
even true under normal circumstances. The most common causes of 
death are starvation and fighting with other wolves over food. 
This is the case when humans are not involved with killing 
them. The point of those statistics is that getting food is 
extremely difficult for wolves. They are always trying as hard 
as they can to get food. And when they do so, they are lucky to 
make it about to half or a third of their life span. So wolves 
are programmed to essentially try hard.
    Then what happens on occasion, occasions like this, wolves 
run into a situation where food is much easier to get than 
other circumstances. They follow their instincts, and then, of 
course, unfortunate incidences like this occur. That is the 
biology behind it, sir.
    Mr. Beyer. So this is still survival of the species, rather 
than killing for fun?
    Dr. Vucetich. One hundred percent correct, yes.
    Mr. Beyer. Great. Mr. Chair, I yield back.
    Mr. Gohmert. Thank you. We are honored to have with us the 
Senator from North Carolina.
    Senator Tillis, you are recognized for 5 minutes.
    Senator Tillis. Thank you, Mr. Chairman, Ranking Member, 
for having this hearing and allowing me to participate.
    Mr. Myers, it is good to see you. It was good to work with 
you when I was Speaker of the House and the Wildlife Resources 
Commission of North Carolina. In less than a minute, can you 
describe the red wolf program and the captive breeding program, 
your perspective, your assessment of it?
    Mr. Myers. Thank you, Senator. Mr. Guertin just spoke of 
the peril that the red wolf faces. Forty years ago, that peril 
was the coyote. Today, that peril is again the coyote. And the 
Service's recommendation to maintain a small population of 
intensively managed red wolves on Federal lands in Dare County 
is simply inconsistent with their newly prioritized captive 
breeding population objectives.
    Today, 30 years after the first reintroductions, and 
despite intensive management practice, and very intensive 
management practices of tubal ligations and vasectomies to 
coyotes, releases of more than 165 animals, 58 in Dare County 
alone, there is only one known wolf pack that currently 
occupies Federal lands.
    Meanwhile, in the 10-year period from 2002 to 2012, the 
reported numbers of coyotes trapped across our state has 
increased 2,600 percent. I point that out because much of the 
information relative to the success of the adaptive strategy of 
sterilizing coyotes, a lot of that data dates back prior to 
this escalation and proliferation of coyotes. So, you can just 
imagine the intensity and the intensive effort that would be 
required to continue that practice to avoid the threat of 
hybridization.
    Senator Tillis. Mr. Myers, didn't you mention--I am sorry, 
just in the interest of time, they are a lot more strict over 
here than they are in the Senate, so I am going to keep tight 
on my time--I met with you earlier today and met your lovely 
wife in my office. Did you say that there are 30,000 takings of 
coyotes in North Carolina a year?
    Mr. Myers. Our current hunter harvest estimate ranges 
between 25,000 and 35,000 per year.
    Senator Tillis. I am not a specialist in this wildlife 
management, but I know a little bit about math. So, it probably 
means that we have a lot of coyotes in North Carolina, a lot of 
coyotes out in Dare County, a lot of coyotes out in the 
counties where these species were released before. How on earth 
can you ever overcome those numbers and think that the agency 
has a credible strategy to prevent hybridization?
    Mr. Myers. Senator, I do not believe there is a strategy 
that avoids this conservation reliance. I think it is a self-
sustaining component. I do not think it can be achieved----
    Senator Tillis. It is a numbers issue. I would love to see 
a thriving red wolf population, I just don't see how you 
accomplish it, given the challenges that we have.
    Mr. Chair, I have some statements from various farmers and 
landowners if I may submit for the record.
    Mr. Gohmert [presiding]. Without objection.
    Senator Tillis. And I would love to ask questions of Mr. 
Guertin. I will follow up with you.
    But one thing I would urge this committee to look at is the 
failure of this program. The fact of the matter is, even by 
their own estimate, a report that was issued in September of 
this year says it is a failure. This comes from the Fish and 
Wildlife Service.
    The Office of the Inspector General back in February of 
this year said that it was a failure. They said that they did 
not follow their own rules. They released wolves well beyond 
the number that they were supposed to, some on private lands.
    I would love to find a credible way to sustain a wild 
population of red wolves; but I have to say that this agency 
has no credibility, based on the lack of respect that they have 
had for the landowners, the numbers that are pretty compelling, 
and an independent report by the Office of the Inspector 
General.
    And now we are talking about a cessation of the program, 
and relocating some of these breeding pairs to Dare County out 
of the five-county area that they are today. Are we going to do 
some sort of orientation to make sure that they stay on the 
Federal lands there? What is the likelihood some of those are 
going to try and migrate back to where they came?
    And we have studied that. I know that Mr. Myers has studied 
that. They have proven that if you catch them and put them in 
one area, they try to get back. We discussed an example of a 
wolf and coyote in my office today. So there does not seem to 
be any credible basis for doing what we are talking about 
doing.
    And it is odd to me, because we are talking about moving 
the pairs, but then we are talking about increasing the number. 
How is that a ramping down of the program?
    It seems to me that there should be a reset to figure out 
an appropriate way to do it, to make sure that the captive 
breeding population program is able to sustain the species. But 
before we do anything more in North Carolina, I think it makes 
more sense to shut it down, figure out how to do something 
right, build some credibility with the landowners, the property 
owners, and the other people that--quite honestly, there is a 
pretty long history of less-than-respectful dialogue between 
the folks at least in North Carolina--I won't speak for the 
other regions that may have concerns--and the Fish and Wildlife 
Service.
    This is going to be something our office is going to stay 
focused on for as long as I am a U.S. Senator, and that is at 
least another 4 years. We will reach out to your office and 
speak more, but we have to get this program that has zero 
credibility under control.
    Mr. Guertin. May I respond to the Senator, Mr. Chairman?
    Mr. Gohmert. Yes.
    Mr. Guertin. Senator, thank you for your offer, and we 
would be honored to come up and sit down with you and your key 
staff to discuss this further. Thank you.
    Mr. Gohmert. All right, thank you.
    And Senator, we have been honored to have you here.
    The Chair recognizes the gentleman from Michigan, Mr. 
Benishek, for 5 minutes.
    Dr. Benishek. Thank you, Mr. Chairman. Thank you for 
allowing me to participate here.
    I have to, unfortunately, contradict my colleague from 
Michigan, Mrs. Dingell, in that, in your opening statement, you 
mentioned that hunting deer in Michigan has not suffered under 
the wolf. That is not really the case in my district. You know, 
there has been a dramatic drop in the deer population and in 
the hunting results, as well. As a matter of fact, they 
canceled the doe permits in my district last year.
    I want to ask Mr. Guertin a couple questions.
    How would you categorize the status of the gray wolf 
population in the Western Great Lakes Region right now?
    Mr. Guertin. The Fish and Wildlife Service's view of the 
population of wolves in the Western Great Lakes is that they 
are recovered, Congressman. There are over 3,600 wild animals 
in the three states, and we wrote a rule to delist those 
animals, remove Endangered Species Act protection, and return 
management to the state. That rule was overturned on judicial 
review. The Department of Justice is appealing that overturning 
in a hearing that is set to begin oral arguments in----
    Dr. Benishek. What was the number you used, 3,600? Is that 
what you said?
    Mr. Guertin. Yes, Congressman.
    Dr. Benishek. OK.
    Mr. Guertin. In the three states.
    Dr. Benishek. In the opinion of the Fish and Wildlife 
Service, what is the impact of the continued Federal management 
of the gray wolf population in the Western Great Lakes Region, 
both on the wolf population itself and the great ecosystem?
    Mr. Guertin. Do you mean the biological impact?
    Dr. Benishek. Not being able to manage the wolves.
    Mr. Guertin. Well, under the Endangered Species Act 
protections, the Federal agencies ourselves are the primary 
jurisdictional agency to manage all issues arising, whether it 
is recovery actions or whether it is depredation issues. We 
build a strong rapport and working relationship with the state 
fishing agencies at the same time. We have worked with them in 
partnership over the last year. Over 200 wolves were removed 
from that population for depredation-related issues that were 
authorized under their status.
    Dr. Benishek. All right.
    Now, Dr. Vucetich--is that how you say it, Vucetich?
    Dr. Vucetich. Vucetich.
    Dr. Benishek. Vucetich, OK. Well, welcome. Michigan Tech, 
of course, is in my district, and I have visited many times, so 
it is a pleasure to see you. And I am happy to hear of your 
expertise with the wolf.
    Can you give me an estimate of the impacts of the gray 
wolves and the population, the deer population in the Upper 
Peninsula?
    Dr. Vucetich. Yes, it has not been demonstrated that wolves 
are negatively impacting deer in the Upper Peninsula of 
Michigan.
    Dr. Benishek. Well, I have to tell you that that sort of 
differs from my experience. I have a place in the Ottawa 
National Forest. I am sure you are very familiar with that. 
And, maybe not everywhere in Michigan, but in the Western and 
Upper Peninsula in Michigan, there are no deer left. Like I 
said to Ms. Dingell, they canceled the doe season last year 
because there are no deer.
    And that is a problem. I get this from my constituents, OK? 
It is not like I am making this stuff up, because I have people 
coming to me, complaining about the fact that there is nothing 
to hunt.
    Well, let me just go on a little bit. I want to talk about 
this lawsuit a little bit. You talked about--what is it, a 
DPS--I cannot quite remember the term there, population----
    Dr. Vucetich. Distinct population segment.
    Dr. Benishek. Yes, yes, the distinct population segment, 
and that one of the bases of the court decision was that, since 
the gray wolf has not returned to its entire habitat, that that 
is one of the bases of overturning the decision to delist the 
wolf. Is that my understanding of----
    Dr. Vucetich. No, I don't think that is a fair description 
of what the judge's decision was; and the judge's decision was 
complicated. But, in a nutshell, what I believe that is related 
to is a requirement by the Endangered Species Act which 
suggests--not in legal terms, but in laymen's terms--that a 
species needs to be well distributed throughout its former 
range.
    Dr. Benishek. Well, see, that part I don't understand. 
Because, for example, the city of Detroit and Wayne County was 
the former wolf range. So, we are not going to treat it as 
recovered if Wayne County is no longer populated with wolves?
    I don't understand what you are going to use as the new 
range that the wolf is there. I mean there are lots of wolves 
in the Upper Peninsula, I will tell you that.
    Dr. Vucetich. No, there is no requirement, and no one has 
ever suggested that there is a requirement for a species to 
occupy all of its former range. That has never been suggested 
by anyone who studies the problem.
    But what is clear from congressional intent and from a 
series of judicial decisions, is that it seems that a species 
needs to be--and again, some of these things are difficult, 
because they have not been sorted out adequately, and so I know 
I am using the term loosely--but well distributed throughout 
its former range.
    If we can refer to what the law says, what the law says is 
that if a species is at risk of extinction throughout all or a 
significant portion of its range, that is the definition of 
endangered, and you are not recovered until you no longer fit 
that definition.
    Dr. Benishek. I am out of time, but I would enjoy talking 
to you more about this issue, so thank you.
    Mr. Gohmert. Thank you. The gentleman from New Mexico, Mr. 
Pearce, is recognized for 5 minutes.
    Mr. Pearce. Thank you, Mr. Chairman. I appreciate the 
testimony from each one of you here today. I have several 
documents here I will submit for the record as we go through.
    But first, we have had, through my 12 years of service, 
continual references from local ranchers and local elected 
officials as to the misconduct of the Fish and Wildlife Service 
regarding the Mexican gray wolf program. So, 3 years ago we 
asked for an IG report. That IG report came back earlier this 
year. I would like to submit that IG report fully for the 
record.
    Mr. Gohmert. Without objection.
    Mr. Pearce. It is fairly complex, and so our office took 
the liberty of breaking out the major, major problems that were 
identified by that. So, in numerous instances, the IG finds 
where the Fish and Wildlife Service is falsifying information. 
They falsified about a wolf bite. That is critical, because you 
have to euthanize the wolf when it bites.
    They have falsified the location of wolf kills, they have 
falsified reports over a dozen times. That is page 11 of the 
report. They have falsified the wolf attributed to the kill, 
because you have to euthanize wolves after a certain number of 
kills. And if they change which wolf killed it, then they do 
not have to euthanize the genetically pure wolves.
    The IG report contains numerous instances of lies. The Fish 
and Wildlife Service lied in a press release about the wolf 
biting a volunteer. The employee lied directly to the IG. That 
was on page 5. They lied about the wolf not being a nuisance. 
Then the IG found many instances of mismanagement: first of 
all, they hired someone incompetent to head the IFT team, a 
team member states to the IG that the former IFT coordinator 
was unprepared to assume the coordinator role and that that 
team leader could not even correctly identify which wolf breed 
they were working with. He didn't know the differences between 
the Alaskan wolf and the Mexican gray wolf; poor communications 
with the public; never met with county employees; and then, the 
fourth major area--so, again, we have identified in the IG 
report falsification, lies, mismanagement--and then the final 
major area of finding was the manipulation of scientific data. 
The employee admitted to manipulating data, a former IFT 
coordinator. Denied consciously manipulating it, and then later 
admitted that, well, maybe she did treat those wolves just a 
little bit differently than other wolves, if they are 
genetically pure.
    She also refused to fill out the required nuisance reports, 
and encouraged other Federal employees not to fill out these 
nuisance reports. I would like to submit for the record this 
kind of general breakdown. So, if I could submit that for the 
record, thank you.
    Mr. Gohmert. Without objection.
    Mr. Pearce. I also have an email from Alan May--he works 
with APHIS and he is talking about trying to get him to alter 
his report, or trying to get Mike to alter his report. He finds 
that very disturbing. That was a practice that continued and 
was never brought into check.
    The next thing that I have, the person who was on the 
initial wolf recovery program, a Roy McBride, raises questions, 
even to the genetic purity. And I would like to submit that 
letter for the record.
    Mr. Gohmert. Without objection.
    Mr. Pearce. Also, Mr. Chairman, if I could, one of the 
outcomes of today's hearing, we asked the IG to report to us on 
the genetic purity of the strain, because there are significant 
findings that indicate maybe there is not a pure strain at all, 
and maybe we are just practicing something we can never get to.
    So, if I could request that you all consider asking the IG 
to do that, and then also go ahead and figure out the answer to 
the depredations and reimbursement issues that we have heard, 
both sides of the issue today; if the committee could do that. 
If you don't find that to be useful, then we will submit that 
request again.
    And just to kind of put things into context, I have a 
document by Jack Woody, U.S. Fish and Wildlife Service. He was 
on the March 1986 program, and he is talking about how the 
founding female of the ASDM-GR line was said to have been 
captured as a pup near Sonora, Mexico in 1961. She was donated 
to the ASDM by tourists passing through Tucson, Arizona on a 
motorcycle trip. The tourist was concerned the pup would not 
survive the motorcycle journey. So, when you go all the way 
back to the beginning, we have a dadgum motorcyclist going 
through Tucson, carrying a wolf--I mean this stuff is--yet we 
are supposed to believe the science and all of this validity 
and verifications?
    I would yield back the balance of my time, Mr. Chairman.
    Mr. Gohmert. At this time the Chair recognizes the 
gentleman from California, Mr. LaMalfa, for 5 minutes.
    Mr. LaMalfa. Thank you, Mr. Chairman. Of course, this is a 
very important issue, as I represent the very northern part of 
California, where wolves are being introduced or pushed into 
the state now. I find it fascinating that the comfort level 
with which urban legislators can just dismiss what the impact 
is when they don't have to worry about them in their backyard, 
in their parks, or they don't have to put their kids in a cage 
at a bus stop in order for them to be protected while the bus 
comes--OK? This is a fascinating attitude to me.
    Earlier, we heard about the depredation happening in the 
cattle industry being not a big deal, because it is only 1.5 
percent. If you have a million head of cattle that is consumed 
per year, and you lose 6,000 of them--I wonder what General 
Motors would think of that, if they produced a million cars per 
year and somebody stole 6,000 off the end of the line. Or let's 
say for a politician in a tight district, what if 6,000 votes 
were filched away from their election? I think it would get 
people's attention. It certainly does the rancher who has the 
losses on that.
    Director Guertin, in 2009, the U.S. Fish and Wildlife 
Service acted in order to remove the gray wolf from the 
endangered species list. The lawsuits from extremist groups 
continued to keep the wolf on the list, because the Service 
evidently does not want to make a move on it.
    Despite all contrary data, this is essentially providing 
guidance to state agencies, such as California, who has moved 
to list it in California, and now that the wolf is being 
introduced to the states, or pushed down from Oregon, et 
cetera. So, we are just leading the states astray on something 
that the Service has already provided for to be removed from 
the list, kind of what we are dealing with in California. The 
Valley elderberry great-horned beetle should have been 
delisted, as recommended, years ago, and we cannot do levee 
projects because there might be elderberries in the habitat. 
They have been fooling with that for 8 or 9 years. It is a very 
frustrating process that we hear delisting, and then it does 
not happen.
    So, if they have already reached the population goals set 
by the Service--I heard over 5,500 wolves in the Upper 
Midwest--what criteria will they eventually rely upon to say 
they do not need to be on this list any more?
    Mr. Guertin. Congressman, the Northern Rocky Mountain Wolf 
population is about 1,800, 1,900 animals, largely in Montana--
--
    Mr. LaMalfa. Is it a gray wolf?
    Mr. Guertin. Yes, those are the gray wolf. Of those 
animals, two of the states manage them now under state control, 
because they were delisted by the U.S. Fish and Wildlife 
Service. That also included the eastern third of Oregon and 
Washington. Wyoming was subsequently delisted by the Fish and 
Wildlife Service. That delisting was overturned by a court, but 
we actually have oral arguments to appeal that Friday.
    Mr. LaMalfa. Why is it a state-by-state listing? We have a 
gray wolf, we have 6,000 of them in North America. Why do they 
have to be distributed through every state, otherwise it is 
delisted state by state?
    Mr. Guertin. These animals that are starting to show up in 
Northern California came from the Northern Rocky Mountain 
population. There are now--probably six or seven have been 
documented in the state of California.
    Mr. LaMalfa. Approximately seven.
    Mr. Guertin. They are an endangered species at this point. 
We are working proactively----
    Mr. LaMalfa. But they are not endangered if they are across 
the line and--a couple lines in Colorado or something.
    Mr. Guertin. They would be endangered in Colorado----
    Mr. LaMalfa. OK, whatever state you listed, we don't have 
time for, they would not be endangered in the other state, but 
they happen to travel, so it is endangered in California.
    Mr. Guertin. Congressman, what I would also state for the 
record is we have proposed to delist gray wolves in the 
remainder of the Lower 48, except for the Mexican gray wolf 
subspecies. That was also overturned by a court. Our hope is 
that we get a favorable outcome for these two legal cases in 
Western Great Lakes and in Wyoming----
    Mr. LaMalfa. So, we may have some project down in the 
Southwest, but we can still anticipate California will continue 
to have an endangered status?
    Mr. Guertin. No, Congressman. We anticipate, if we are 
successful in getting a Federal court to delist the wolf in 
Wyoming and delist it in the Upper Midwest, we would then 
proceed with a rulemaking to delist the wolf in California and 
the rest of the Lower 48.
    Mr. LaMalfa. All right. Thank you for that.
    Mr. Moore, I am going to run out of time here again. 
Quickly, in California right now there is zero compensation for 
the takings of wildlife. They don't even want to admit when it 
is one. Like they had a calf killed in, I think in Siskiyou 
County, where there were five wolves eating on it, but they 
were not sure that it actually could be attributed to wolves.
    How would you say the compensation should work in 
California versus Idaho?
    Mr. Moore. Idaho has only a small portion of Federal money 
left for compensation. It is the only game species that does 
not get compensated for depredations in the state of Idaho with 
sportsmen's money.
    Mr. LaMalfa. Well, they do have a depredation process 
through controlling----
    Mr. Moore. Yes, they do. It goes through the Governor's 
Office of Species Conservation.
    Mr. LaMalfa. OK. Thank you, Mr. Chairman.
    Mr. Gohmert. Thank you. At this time the Chair recognizes 
the Ranking Member for closing comments.
    Mrs. Dingell. I know we are at the end of time, and we can 
all tell that this is an emotional, complicated issue that we 
have to keep talking about. I, alone, am not an expert like any 
of you---responding to my Michigan colleague--and have already 
found that data that says the doe hunt was not canceled because 
of wolves. But severe winters take a toll on deer because of 
the increased rate of starvation, and that was why the hunt 
was--so, Mr. Chairman, I would like--and there is another 
article about coyotes, not wolves, that we could put for the 
record to respond.
    Mr. Gohmert. Without objection.
    Mrs. Dingell. And other people who have questions could do 
so, as well. Thank you.
    Mr. Gohmert. OK. Without objection, it will be so ordered.
    As we have heard today, management of wolves is a critical 
concern for citizens of a large portion of our Nation. It is 
appropriate, given our oversight role, that we ensure that the 
Federal Government is managing wolves responsibly and 
effectively. To do so, the Service must follow the law and its 
own rules. It must hold employees accountable for misconduct. 
It must take responsibility for its failing efforts, rather 
than expanding them without any reasonable expectation of a 
different result. It must work with the states, citizens, and 
other stakeholders in wolf recovery planning and efforts.
    States are, by far, the best situated and equipped entities 
to manage wildlife within their borders. Our intent has always 
been clear in this regard: management responsibilities for 
recovered species must be transferred to the states at the 
earliest possible juncture. Such management ensures the best 
outcome for the species and the stakeholders, and it is 
inexcusable when continuous costly litigation is used to 
undermine a process Congress clearly spelled out.
    At this time, we do thank you for your attendance. We know 
it is a great hassle. You have been very patient with us, and 
we appreciate your expertise and your experiences. They are 
part of the record that will be around as long as there is a 
United States of America. And that will enable us to take those 
comments, take your observations, and look further.
    Members of our committee and our distinguished guests may 
have some additional questions for the witnesses, and we will 
ask you respond to those in writing. Under Committee Rule 4(h), 
the hearing record will be held open for an additional 10 
business days for these responses, should there be such 
questions.
    If there is no other business at this time, without 
objection, the committee stands adjourned.

    [Whereupon, at 5:00 p.m., the subcommittee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

           Association of Fish & Wildlife Agencies,
                                             Washington, DC

                                                 September 27, 2016

Hon. Louie Gohmert, Chairman,
Hon. Debbie Dingell, Ranking Member,
House Subcommittee on Oversight and Investigations,
1324 Longworth House Office Building,
Washington, DC 20515.

    Dear Chairman Gohmert and Congresswoman Dingell:

    On behalf of the Association of Fish and Wildlife Agencies 
(Association), I submit this letter for the record of the Subcommittee 
hearing of September 21, 2016, on ``Federal Government Management of 
Wolves.'' Founded in 1902, the Association's mission is to support and 
advocate for state, provincial, and territorial authority for fish and 
wildlife conservation and to assist those agencies in promoting 
science-based resource management in collaboration with public and 
private partners. In satisfying our mission, we cooperate closely with 
federal agencies, conservation NGOs, our fish and wildlife 
constituency, and the general public. All 50 state fish and wildlife 
agencies are members of the Association.
    The Association strongly supports the testimony presented at the 
Subcommittee hearing on September 21, 2016, by Director Virgil Moore, 
Idaho Department of Fish and Game; Director Gordon Myers, North 
Carolina Wildlife Resources Commission; and Director Alexandra 
Sandoval, New Mexico Department of Game and Fish. Their written 
statements detail with great clarity the role of the states in 
recovering wolf populations and the states' successes in sustainably 
managing wolf populations to the benefit of all of their citizens.
    Gray wolf populations far exceed established federal recovery goals 
for the Rocky Mountain West and the Great Lakes States. The U.S. Fish 
and Wildlife Service (USFWS) has repeatedly attempted to delist the 
gray wolf in WY, MI, MN, and WI, but has been thwarted by ill-advised 
court decisions. The Association commends and supports the USFWS 
decisions to de-list those wolf populations and the Association 
supports Congressional action to direct such an outcome for those 
states (in keeping with like action by Congress in 2011 for wolves in 
Montana and Idaho). Indeed, Idaho and Montana have demonstrated that 
once wolf populations are delisted, science-based, state-led wolf 
management can achieve sustainable wolf populations where depredation 
on livestock is reduced, rebalance the predator-prey relationship 
between wolves and large ungulates, provide sustainable recreational 
opportunities for hunting and wolf watching, and diminish public 
anxiety about the recovery of large predators.
    The Mexican wolf is on the periphery of its range in the 
southwestern United States. The majority of Mexican wolf historic 
habitat is located in Mexico, and the species therefore cannot be 
biologically recovered only in the southwestern United States. The 
states of New Mexico and Arizona, working in cooperation with the 
USFWS, are assisting Mexico in assessing habitat suitability and 
recovery success probabilities of its Mexican wolf population. The 
Association supports this cooperative state-federal-international 
collaboration, for an agreed-to population recovery goal, so that once 
achieved, delisting can occur.
    The genetics of the red wolf, currently found only within a 
nonessential experimental population in North Carolina, substantiate 
that the ``species'' is now hybridized with coyotes and feral dogs. 
This hybridization will continue to occur due to the high coyote 
population in the state, and it is not feasible to sustainably prevent 
further hybridization of free-ranging red wolves across the landscape, 
further diluting red wolf genetics. Coyote populations exist throughout 
the historic range of the red wolf, and any reintroduction of captive-
bred red wolves will quickly hybridize with coyotes. This hybridization 
factor and the diverse generic character of the red wolf raises serious 
questions about whether it is a listable entity under The Endangered 
Species Act (ESA), particularly given the 1983 legal opinion from the 
Department of Interior's Solicitor's Office regarding listing of 
hybrids. The USFWS should resolve these questions regarding genetics 
and hybridization and delist the red wolf if hybridization is indeed 
confirmed.
    Wolf management, like that for any large predator in this country, 
is complicated, challenging, and controversial. We appreciate the role 
of the USFWS in the discharge of its obligations under the federal ESA, 
and we acknowledge the concurrent management or conservation authority 
for federally listed species by state fish and wildlife agencies. Even 
though the complexities of wolf recovery and management test the limits 
of collaboration, we know that both federal and state agencies want to 
achieve the best possible conservation outcomes for wolves. That being 
said, we look forward to a robust discussion about future improvements 
or reform to the federal ESA in which the interests, roles, and 
responsibilities of state fish and wildlife agencies are more clearly 
recognized.
    Thank you for the opportunity to provide this letter for the 
hearing record.

            Sincerely,

                                                Nick Wiley,
                                                         President.

                                 ______
                                 

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

    --Letter addressed to Chairman Gohmert and Ranking Member 
            Dingell with attached documents for the hearing 
            record submitted by the Southern Environmental Law 
            Center dated October 4, 2016.

    --Memorandum in Support of Preliminary Injunction, ECF No. 
            32, Red Wolf Coal. v. U.S. Fish & Wildlife Serv., 
            No. 2:15-cv-00042-BO (E.D.N.C. June 20, 2016). 
            Submitted by the Southern Environmental Law Center.

    --Reply in Support of Preliminary Injunction, ECF No. 45, 
            Red Wolf Coal. v. U.S. Fish & Wildlife Serv., No. 
            2:15-cv-00042-BO (E.D.N.C. July 22, 2016). 
            Submitted by the Southern Environmental Law Center.

    --Order, ECF No. 63, Red Wolf Coal. v. U.S. Fish & Wildlife 
            Serv., No. 2:15-cv-00042-BO (E.D.N.C. Sept. 28, 
            2016). Submitted by the Southern Environmental Law 
            Center.

    --Heather Clarkson, Defenders of Wildlife, Op-Ed, Poor FWS 
            Decision Dooms North Carolina's Red Wolves, News & 
            Observer, Sept. 20, 2016. Submitted by the Southern 
            Environmental Law Center.

    --Editorial Board, Save the Red Wolf, News & Observer, Aug. 
            31, 2016. Submitted by the Southern Environmental 
            Law Center.

    --Editorial Board, Our View: Keep the Red Wolf Alive--
            Somewhere, Somehow, Fayetteville Observer, Oct. 23, 
            2014. Submitted by the Southern Environmental Law 
            Center.

    --Editorial Board, A Federal Judge Acts Wisely to End 
            Killings of Red Wolves, News & Observer, May 15, 
            2014. Submitted by the Southern Environmental Law 
            Center.

    --Editorial Board, Protecting Red Wolves: Rebounding Breed 
            Should Not Be Collateral Damage, Winston-Salem 
            Journal, Feb. 16, 2014. Submitted by the Southern 
            Environmental Law Center.

    --Editorial Board, Our View: Endangered Wolves Need a 
            Judge's Intervention, Fayetteville Observer, Feb. 
            12, 2014. Submitted by the Southern Environmental 
            Law Center.

    --Editorial Board, Deadly--Keep Red Wolves Out of Coyote 
            Hunters' Sights, Fayetteville Observer, Nov. 29, 
            2012. Submitted by the Southern Environmental Law 
            Center.

    --Editorial Board, Fix this--Don't Blind Coyotes in the Red 
            Wolf's Territory, Fayetteville Observer, Oct. 26, 
            2012. Submitted by the Southern Environmental Law 
            Center.

    --Memorandum from Tulchin Research, Polling Finds North 
            Carolina Voters Strongly Back Red Wolf Recovery 
            (Aug. 17, 2016). Submitted by the Southern 
            Environmental Law Center.

    --USFWS Document, ECF No. 51, Red Wolf Coalition v. U.S. 
            Fish & Wildlife Serv., No. 2:15-cv00042-BO 
            (E.D.N.C. July 29, 2016). Submitted by the Southern 
            Environmental Law Center.

    --Letter from North Carolina Legislators to U.S. Dep't of 
            Interior Sec. Sally Jewell (Aug. 29, 2016). 
            Submitted by the Southern Environmental Law Center.

    --Faust, L.J., Simonis, J.S., Harrison, R., Waddell, W., 
            Long, S. 2016. Red Wolf (Canis rufus) Population 
            Viability Analysis--Report to U.S. Fish and 
            Wildlife Service. Lincoln Park Zoo, Chicago. 
            Submitted by the Southern Environmental Law Center.

    --Dr. Michael J. Chamberlain Special Report, ECF No. 70, 
            Red Wolf Coal. v. N.C. Wildlife Res. Comm'n, No. 
            2:13-cv-00060-BO (E.D.N.C. Mar. 31, 2014). 
            Submitted by the Southern Environmental Law Center.

    --Dr. Michael J. Chamberlain's Additional Comments for 
            Consideration, ECF No. 83, Red Wolf Coal. v. N.C. 
            Wildlife Res. Comm'n, No. 2:13-cv-00060-BO 
            (E.D.N.C. May 13, 2014). Submitted by the Southern 
            Environmental Law Center.

    --Dr. Ron Sutherland, ``Study Indicates Wildlife is 
            Thriving in Red Wolf Recovery Area.'' Wildlands 
            Network. Photos of wildlife taken from planted 
            cameras. 2016.

    --Letter addressed to Chairman Gohmert and Ranking Member 
            Dingell from multiple groups regarding the 
            oversight hearing in support of state management of 
            wolves dated September 29, 2016.

    --Letters and emails from constituents of Representative 
            Pearce expressing discontent with Federal 
            mismanagement of the Mexican Wolf population. 
            Emails dated October 4, 2016 and October 5, 2016.
    --Emails documenting correspondence between Fish and 
            Wildlife officials assessing to determine the 
            killing of a calf as either by a wolf or a coyote. 
            Correspondence occurs between May 21, 2016 and May 
            23, 2016.

    --Report issued to Representative Pearce from the 
            Department of the Interior's Office of the 
            Inspector General regarding the Mexican wolf 
            program itself and specific allegations of 
            misconduct by a former Field Coordinator dated June 
            29, 2016.

    --Letter addressed to Representative Pearce from Director 
            of the U.S. Fish and Wildlife Service, Dan Ashe, 
            regarding follow-up to the OIG report on the 
            Mexican Wolf program dated September 2, 2016.

    --Letters documenting formal correspondence between Mr. Roy 
            McBride and the U.S. Fish and Wildlife Service 
            regarding inclusion of wolves from the Ghost Ranch 
            lineage into the captive breeding program.

    --Woody, Jack B., ``The Mexican Wolf Recovery Program.'' 
            U.S. Fish and Wildlife Service, March 1986.

    --``Mexican Gray Wolves `Lack' Clear Title . . .'', 
            Citizen's Science.org.

    --Testimony of Mr. Jett Ferebee in response to the 
            oversight hearing specifically regarding his 
            dissatisfaction with the U.S. Fish and Wildlife 
            Service's Red Wolf Recovery Program.

    --List of Farms and Areas (and Counties) involved in the 
            Red Wolf Recovery Project.

                                 <all>
</pre></body></html>
